<html>
<title> - MARINE MAMMAL PROTECTION ACT OF 1972: THE ESCALATION OF INTERACTIONS BETWEEN THE GROWING POPULATIONS OF MARINE MAMMALS AND HUMAN ACTIVITIES ON THE WEST COAST</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
 MARINE MAMMAL PROTECTION ACT OF 1972: THE ESCALATION OF INTERACTIONS 
BETWEEN THE GROWING POPULATIONS OF MARINE MAMMALS AND HUMAN ACTIVITIES 
                           ON THE WEST COAST
=======================================================================

                        OVERSIGHT FIELD HEARING

                               before the

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

           Tuesday, August 19, 2003, in San Diego, California

                               __________

                           Serial No. 108-50

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov






                      U.S. GOVERNMENT PRINTING OFFICE

88-940                       WASHINGTON : 2003
_______________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800, DC area (202) 512-1800 Fax: (202) 512-2250 Mail: stop SSOP, Washington, DC 20402-0001







                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
W.J. ``Billy'' Tauzin, Louisiana     Eni F.H. Faleomavaega, American 
Jim Saxton, New Jersey                   Samoa
Elton Gallegly, California           Neil Abercrombie, Hawaii
John J. Duncan, Jr., Tennessee       Solomon P. Ortiz, Texas
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Ken Calvert, California              Calvin M. Dooley, California
Scott McInnis, Colorado              Donna M. Christensen, Virgin 
Barbara Cubin, Wyoming                   Islands
George Radanovich, California        Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Jay Inslee, Washington
    Carolina                         Grace F. Napolitano, California
Chris Cannon, Utah                   Tom Udall, New Mexico
John E. Peterson, Pennsylvania       Mark Udall, Colorado
Jim Gibbons, Nevada,                 Anibal Acevedo-Vila, Puerto Rico
  Vice Chairman                      Brad Carson, Oklahoma
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Greg Walden, Oregon                  Dennis A. Cardoza, California
Thomas G. Tancredo, Colorado         Madeleine Z. Bordallo, Guam
J.D. Hayworth, Arizona               George Miller, California
Tom Osborne, Nebraska                Edward J. Markey, Massachusetts
Jeff Flake, Arizona                  Ruben Hinojosa, Texas
Dennis R. Rehberg, Montana           Ciro D. Rodriguez, Texas
Rick Renzi, Arizona                  Joe Baca, California
Tom Cole, Oklahoma                   Betty McCollum, Minnesota
Stevan Pearce, New Mexico
Rob Bishop, Utah
Devin Nunes, California
Randy Neugebauer, Texas

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

       SUBCOMMITTE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                 WAYNE T. GILCHREST, Maryland, Chairman
        FRANK PALLONE, JR., New Jersey, Ranking Democrat Member

Don Young, Alaska                    Eni F.H. Faleomavaega, American 
W.J. ``Billy'' Tauzin, Louisiana         Samoa
Jim Saxton, New Jersey               Neil Abercrombie, Hawaii
Mark E. Souder, Indiana              Solomon P. Ortiz, Texas
Walter B. Jones, Jr., North          Ron Kind, Wisconsin
    Carolina                         Madeleine Z. Bordallo, Guam
Randy Neugebauer, Texas              Nick J. Rahall II, West Virginia, 
Richard W. Pombo, California, ex         ex officio
    officio
                                 ------                                














                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on Tuesday, August 19, 2003.........................     1

Statement of Members:
    Gilchrest, Hon. Wayne T., a Representative in Congress from 
      the State of Maryland, Prepared statement of...............     5
    Pombo, Hon. Richard W., a Representative in Congress from the 
      State of California........................................     2
        Prepared statement of....................................     3

Statement of Witnesses:
    Anderson, Carl, Director of Public Facilities, City of 
      Monterey, California.......................................     6
        Prepared statement of....................................     9
    Brown, Robin F., Program Leader, Marine Mammal Research, 
      Oregon Department of Fish and Wildlife.....................    42
        Prepared statement of....................................    44
    Emerson, Frank T., Fishermen's Alliance of California........    17
        Prepared statement of....................................    19
    Everingham, Roy R. ``Buck'' Jr., Everingham Bros. Bait Co....    21
        Prepared statement of....................................    22
    Fletcher, Robert C., President, Sportfishing Association of 
      California.................................................    14
        Prepared statement of....................................    15
    Hanan, Dr. Doyle A., President, Hanan & Associates, Inc......    52
        Prepared statement of....................................    54
    Lecky, James, Assistant Regional Administrator for Protected 
      Resources, Southwest Region, National Marine Fisheries 
      Service, National Oceanic and Atmospheric Administration, 
      U.S. Department of Commerce................................    35
        Prepared statement of....................................    37
    Merryweather, Melinda, Town Councilmember, La Jolla, 
      California.................................................    10
        Prepared statement of....................................    12
        Letter of clarification submitted for the record.........    13
    Rebuck, Steven L., Member, Sea Otter Technical Consultant 
      Group, Southern Sea Otter Recovery Team....................    23
        Prepared statement of....................................    25
    Stewart, Dr. Brent S., Senior Research Biologist, Hubbs-
      SeaWorld Research Institute................................    48
        Prepared statement of....................................    50

















  OVERSIGHT HEARING ON THE MARINE MAMMAL PROTECTION ACT OF 1972: THE 
 ESCALATION OF INTERACTIONS BETWEEN THE GROWING POPULATIONS OF MARINE 
             MAMMALS AND HUMAN ACTIVITIES ON THE WEST COAST

                              ----------                              


                        Tuesday, August 19, 2003

                     U.S. House of Representatives

      Subcommittee on Fisheries Conservation, Wildlife and Oceans

                         Committee on Resources

                         San Diego, California

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:02 a.m., in 
the Shedd Auditorium, Hubbs Sea World Research Institute, San 
Diego, California, Hon. Richard W. Pombo [Chairman of the 
Subcommittee] presiding.
    Present: Representative Pombo (ex officio).
    Also Present: Representative Cunningham.
    Mr. Pombo. I call the hearing to order. To begin with, I 
want to welcome everybody here. I want to welcome my good 
friend, Congressman Randy ``Duke'' Cunningham, who is with us 
today sitting as a member of the full committee for the 
purposes of this hearing. I would like to recognize Congressman 
Cunningham to introduce our first two guests.
    Mr. Cunningham. Thank you, Mr. Chairman. I left Hawaii 
yesterday to do this, and the big island yesterday was 
beautiful. I saw turtles and big manta rays, and it was 
beautiful. I actually went swimming snorkeling with a dolphin 
that played with us, about 200 of them.
    Mr. Pombo. Really?
    Mr. Cunningham. Oh, it was beautiful. Anyway, we are here. 
Randy Treadway will offer the pledge, and he is from VFW 5431, 
a veteran, and if you would stand with Mr. Treadway and offer 
the pledge of allegiance.
    [Pledge of Allegiance.]
    Mr. Cunningham. And if you would stay standing, and a good 
friend, Dr. Bob Winerton--some people walk a mile for a camel, 
and this guy drove all the way from Alpine just to give the 
prayer this morning. Thank you, Bob.
    [Invocation.]

 OPENING STATEMENT OF THE HON. RICHARD POMBO, A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Pombo. Thank you and good morning, and I am pleased to 
convene this hearing this morning. Before we get started, I 
would like to extend my sincere appreciation to our host, Dr. 
Don Kent, president of HUBBS-Sea World Research Institute. I 
want to thank Dr. Kent for graciously hosting the Committeethis 
week.
    I also want to thank Jennifer Leblanc with the HUBBS; and 
Matt Cruz, with Sea World, who have been valuable assets in 
organizing today's hearing. The topic of this hearing is 
certainly timely.
    The increased interactions between humans and sea lions, 
and seals, have been in the news recently, and the Committee on 
Resources, specifically the Subcommittee on Fisheries 
Conservation, Wildlife and Oceans, is currently in the process 
of reauthorizing the Marine Mammal Protection Act.
    There have been numerous press articles about the 
children's pool in La Jolla, the National Marine Fisheries 
Service, the management agency for pinniped populations under 
the Marine Mammal Protection Act, just issued fines to a number 
of individuals that swam in the pool area who were trying to 
show that humans and seals can coexist.
    One of the swimmers was bitten by a seal, and a number of 
seals stormed off the beach, which demonstrates that in these 
types of situations both people and the animals can be harmed. 
In addition, there have been reports that sea lions have taken 
over docks, sailboats, and other structures in marinas, getting 
into bait boxes, and stealing fish off of lines, and out of 
fishing nets.
    Aquaculture operations have also been adversely affected by 
these animals. This hearing is being held specifically to try 
to determine what actions have been taken to date to minimize 
these interactions, and what types of research are being 
undertaken by the State and Federal management agencies to 
address these issues, and what actions, if any, should be taken 
by Congress.
    The Subcommittee on Fisheries Conservation, Wildlife and 
Oceans is currently reviewing the Marine Mammal Protection Act 
to determine what changes need to be made during this 
reauthorization process.
    Subcommittee Chairman Wayne Gilchrest and I introduced H.R. 
2693, the Marine Mammal Protection Act Amendments of 2003 on 
July 10th, 2003. Section 7 of this bill authorizes the 
Secretary of Commerce to conduct research on the non-lethal 
removal and control of nuisance pinnipeds.
    This hearing will better define the scope of these 
interaction issues, and hopefully from the testimony, we can 
determine if additional changes to the Marine Mammal Protection 
Act are necessary.
    The Marine Mammal Protection Act is an interesting law, 
because in many ways it is more restrictive than the Endangered 
Species Act. However, unlike the statute, its coverage is 
uniform regardless of whether population of marine mammal 
species is growing, decreasing, or stable. There is no 
distinction.
    One of the primary goals of the Marine Mammal Protection 
Act is to restore or maintain the marine mammal populations to 
their optimum sustainable population. In addition, the MMPA 
requires the same protections for all marine mammals regardless 
of their population status.
    Therefore, robust populations of California Sea Lions 
receive the same protection as endangered Northern right 
whales. In the 1970s when the MMPA was first enacted, marine 
mammals needed across the board protection due to an overall 
declining population numbers.
    However, 30 years later that Act has been very successful 
in rebuilding many marine mammal stocks. While I believe there 
should be protection for marine mammals, we need to find a 
proper balance which allows the children of La Jolla to use 
their beach, recreational fisherman to land an entire salmon, 
and not just part of it, and boaters to access their vessels 
without being injured by an overly aggressive sea lion.
    It is obvious to me that Northern right whales, with a 
population of less than 300 animals, needs to be protected. On 
the other hand, robust marine mammal populations that have 
increased interactions with the public may be adversely 
affecting other marine species should be managed differently.
    We are already seeing injuries to people and increased 
frustrations. These frustrations could lead to actions that may 
harm the marine mammals. Land-based wildlife managers have the 
ability to address these types of interactions. The managers of 
marine mammals have a different standard.
    We can have protections for marine mammals, but we need to 
find an equitable solution to the problems arising from their 
growing populations. I look forward to hearing the testimony 
presented today, and would like to recognize my friend, 
``Duke'' Cunningham, for any opening statement that he may 
have.
    [The prepared statement of Mr. Pombo follows:]

          Statement of The Honorable Richard Pombo, Chairman, 
                         Committee on Resources

    Good morning. I am pleased to convene this hearing. Before we get 
started I would like to extend my sincere appreciation to our host, Dr. 
Don Kent, President of Hubbs Sea World Research Institute. I want to 
thank Dr. Kent for graciously hosting the Committee this week. I also 
want to thank Jennifer Leblanc with Hubbs and Matt Cruz with Sea World 
who have been valuable assets in organizing today's hearing.
    The topic of this hearing is certainly timely--increased 
interactions between humans and sea lions and seals have been in the 
news recently and the Committee on Resources, specifically the 
Subcommittee on Fisheries Conservation, Wildlife and Oceans, is 
currently in the process of reauthorizing the Marine Mammal Protection 
Act (MMPA).
    There have been numerous press articles about the Children's Pool 
in La Jolla. The National Marine Fisheries Service, the management 
agency for pinniped populations under the MMPA, just issued fines to a 
number of individuals that swam in the pool area who were trying to 
show that humans and seals can coexist. One of the swimmers was bitten 
by a seal and a number of seals stormed off the beach, which 
demonstrates that in these types of situations both people and the 
animals can be harmed. In addition, there have been reports that sea 
lions have taken over docks, sail boats and other structures in 
marinas, getting into bait boxes and stealing fish off lines and out of 
fishing nets. Aquaculture operations have also been adversely affected 
by these animals.
    This hearing is being held specifically to try to determine what 
actions have been taken to date to minimize these interactions; what 
types of research are being undertaken by the state and federal 
management agencies to address these issues; and what actions, if any, 
should be taken by Congress.
    The Subcommittee on Fisheries Conservation, Wildlife and Oceans is 
currently reviewing the MMPA to determine what changes need to be made 
during this reauthorization process. Subcommittee Chairman Wayne 
Gilchrest and I introduced H.R. 2693, the Marine Mammal Protection Act 
Amendments of 2003, on July 10, 2003. Section 7 of this bill authorizes 
the Secretary of Commerce to conduct research on the non-lethal removal 
and control of nuisance pinnipeds. This hearing will better define the 
scope of these interaction issues and hopefully, from the testimony, we 
can determine if additional changes to the MMPA are necessary.
    The MMPA is an interesting law because in many ways it is more 
restrictive than the Endangered Species Act. However, unlike that 
statute, its coverage is uniform regardless of whether a population of 
marine mammal species is growing, decreasing, or stable. There is no 
distinction. One of the primary goals of the MMPA is to restore or 
maintain marine mammal populations to their optimum sustainable 
population. In addition, the MMPA requires the same protections for all 
marine mammals regardless of their population status. Therefore, robust 
populations of California sea lions receive the same protections as 
endangered northern right whales.
    In the 1970s when the MMPA was first enacted marine mammals needed 
across the board protections due to overall declining populations 
numbers. However, thirty years later the Act has been very successful 
in rebuilding many marine mammal stocks. While I believe there should 
be protections for marine mammals, we need to find a proper balance 
which allows the children of La Jolla to use their beach, recreational 
fishermen to land an entire salmon, not just part of it, and boaters to 
access their vessels without being injured by an overly aggressive sea 
lion.
    It is obvious to me that Northern right whales, with a population 
of less than 300 animals, need to be protected. On the other hand, 
robust marine mammal populations that have increased interactions with 
the public and may be adversely affecting other marine species should 
be managed differently. We are already seeing injuries to people and 
increased frustrations. These frustrations could lead to actions that 
may harm the marine mammals. Land-based wildlife managers have the 
ability to address these types of interactions, but managers of marine 
mammals have a different standard. We can have protections for marine 
mammals, but we need to find an equitable solution to the problems 
arising from their growing populations.
    I look forward to hearing the testimony presented today and 
recognize Congressman Duke Cunningham for his opening statement.
                                 ______
                                 
    Mr. Cunningham. Thank you, Mr. Chairman.
    Mr. Pombo. If the gentleman would yield for just a minute. 
This is a--and I should have said this at the very beginning. 
This is an official congressional hearing, and as part of the 
House rules, it is not allowed to have any kind of reaction or 
clapping, or booing, or anything else from the audience.
    We have to maintain decorum within the room, and so 
therefore I would ask the audience and the witnesses to 
maintain that decorum.
    Mr. Cunningham.
    Mr. Cunningham. I thought that they were clapping for me, 
Mr. Chairman. Rich Pombo and I, and Wayne Gilchrest, are all 
classmates, and I have worked together with Rich for 12 years, 
and I want to tell you that his heart is in the right place of 
protecting our sea life and other life on this planet.
    But he also looks in doing it in a fair and equitable way, 
and I think that the people outside should be cheering for 
Chairman Pombo, and he is here to listen, and he is here to 
open up remarks to find out solutions, and I think that is fair 
across the board.
    In my own background, as to oil drilling off the shores of 
California, and that is my bill working with the Senate that 
stops new leases and oil drilling. I don't want San Diego to 
become another Long Beach, even though some of that is seepage 
until they can prove that they can protect our shores.
    The shark thinning bill was my bill. Rich helped me with 
that, along with Wayne Gilchrest, and I read in a magazine, in 
a surfer magazine on the airplane about how fishermen were 
taking sharks, and cutting the fins off, and then dropping the 
carcass back in the water. That's wrong.
    I am a sportsman, but I also want to protect the species. 
Elephants in Africa, and tigers in India, needed protection, 
and those are my bills also. Probably most of you know about 
the tuna dolphin bill that protects not only the subspecies, 
the dolphin, the turtles, but also allows us to harvest mature 
tuna.
    But I want to welcome Chairman Pombo to San Diego. I want 
to tell you that we have some of the best science I think in 
the world with HUBBS, and with Scripts Oceanographic, with the 
Academy of Science. I am not an expert. I am here to listen.
    But when we take our information and bounce it off the 
professional organizations that are here to protect species, I 
want to thank Chairman Pombo and the rest of the folks that are 
here to testify on both sides of the issue, because I think it 
is important.
    And I am not going to reiterate what you just said, but 
with that, Rich, we want to thank you to the world's finest 
city, San Diego, and you are always welcome, and we will give 
you a bad cup of Navy coffee.
    Mr. Pombo. Well, thank you. Any time I can leave 100 degree 
weather and come down to 70 degree weather, that is OK. But I 
would like to ask for unanimous consent to include in the 
record the opening statement of the Subcommittee Chairman, 
Wayne Gilchrest of Maryland, who originally had planned to be 
here at this hearing.
    Unfortunately, he had some health problems and was not able 
to make the trip out. But I would like to ask for unanimous 
consent to have his opening statement included in the record. 
Without objection.
    [The prepared statement of Mr. Gilchrest follows:]

         Statement of The Honorable Wayne Gilchrest, Chairman, 
      Subcommittee on Fisheries Conservation, Wildlife and Oceans

    Good morning. Today's hearing is an integral part of the 
reauthorization of the Marine Mammal Protection Act (MMPA). The 
Subcommittee on Fisheries Conservation, Wildlife and Oceans is 
currently reviewing many important issues and trying to find 
reasonable, science -based solutions.
    There have been many articles in the press over the past few months 
detailing how different marine mammal populations--California sea 
lions, Pacific harbor seals and sea otters--have adversely affected 
fish stocks, and have overtaken public beaches, docks at marinas and 
private boats. In some of the articles, there have been references to 
human injuries and marine mammal injuries.
    Chairman Pombo and I have introduced a bill, H.R. 2693, to 
reauthorize the MMPA. As we continue to craft this legislation and look 
forward to a markup in the Subcommittee in September, we will consider 
the need to both protect sensitive, fragile species of marine mammals 
and to manage populations of marine mammals that have successfully 
recovered. H.R. 2693 does contain an authorization for the Secretary of 
Commerce to conduct research on the non-lethal removal and control of 
nuisance pinnipeds.
    This hearing will help us better understand the frustrations people 
are experiencing in conflicts with these plentiful animals as well as 
the habitat use of California sea lions and Pacific harbor seals. I 
hope to more fully understand the historical haul-out areas used by 
these marine mammal populations, how it compares to their current haul-
outs areas and if there is a way to separate specific areas for seals 
and sea lions and for human activities. Today's testimony will help the 
development of the MMPA reauthorization by identifying management of 
human/pinniped conflict and how it has succeeded or failed in the past. 
This hearing will help focus our attention on actions that have been 
taken to date to minimize these interactions; what types of research 
are being undertaken by state and federal management agencies to 
address these issues; and what actions, if any, should be taken by 
Congress.
    I believe there is a way to find compatibility between the needs of 
these marine mammal populations and responsible human activities. I 
look forward to hearing the testimony and discussing ways to resolve 
these issues that is satisfactory to both the human and marine mammal 
populations.
                                 ______
                                 
    Mr. Pombo. I would like to welcome our first panel here 
today, and before we take testimony, it is customary that we 
swear in all of the witnesses who testify before the Resources 
Committee. I would like to ask you to stand and raise your 
right hand.
    [Witnesses sworn.]
    Mr. Pombo. Let the record show that they all answered in 
the affirmative. Thank you very much. Mr. Anderson, we will 
begin with you, and just one note. The lighting or the timing 
system, what we do is we limit the opening, the oral testimony, 
to 5 minutes, and your entire written testimony will be 
included in the record.
    So if you could kind of summarize your prepared testimony. 
The lighting system is in front of you, and the green light 
stays on four 4 minutes; and the yellow light comes on for 1 
minute; and then the red light comes on, and I would then have 
to ask you to try to wrap it up at that point.
    So, Mr. Anderson, welcome to the hearing, and when you are 
ready, you can begin.

STATEMENT OF CARL ANDERSON, DIRECTOR OF PUBLIC FACILITIES, CITY 
                          OF MONTEREY

    Mr. Anderson. Thank you very much, Chairman Pombo, and 
Congressman Cunningham. It is a pleasure to be here this 
morning. Again, my name is Carl Anderson, and I am the director 
of public facilities for the city of Monterey. I have had the 
privilege of having that responsibility and being in charge of 
the harbor and marina for 21 years.
    The experience that the city of Monterey has had with sea 
lions is beyond bizarre, and I would like to share some of 
those experiences with you. But first let me tell you that 
Monterey, like San Diego, is also the West Coast heart of 
conservation. We are blessed with the Monterey Bay Aquarium, 
and the Monterey Bay Research Institute, and 21 other 
additional marine research institutions in our area.
    We are also in the heart of the Monterey Bay Marine 
Sanctuary. So Monterey has a very special heritage in marine 
conservation. Therefore, it is ironic that the city of Monterey 
happens to be a regional, national, and international draw for 
travelers and that we should end up being the poster child for 
well-intended conservation measures that have succeeded far too 
well.
    But first of all, we have had a series of huge problems 
with marine mammals over the last--for approximately 18 years. 
The federally protected California sea lions seems to be well 
above the historic natural levels and well beyond the level of 
sustainability.
    The rapid population growth for these animals has caused 
extraordinary competition for haul-out space, food, and other 
resources. Our city has a resident population of sea lions on 
an average of about 150 that are in our community.
    However, in 1990, 1997, and again this past May, we 
suffered extraordinarily large incursions of marine mammals, 
and primarily sea lions, and primarily juvenile sea lions, that 
have arrived in the numbers of somewhere between 1,000 and 
1,500. We know that Monterey is a wonderful tourist 
destination, but quite frankly we can't figure out why the sea 
lions want to come to Monterey every year.
    The public enjoys viewing these animals. The animals 
posing, I believe, for our spectators. However, there are 
distinct safety, public property, and public health problems 
that go along with sea lions.
    The first example that I would like to call your attention 
to is this area. This was early May of this year, over a 40 
hour period of time, and these young sea lions just all 
appeared. If you have a copy of the testimony, there is also 
photographs in your packet that you might be able to see a 
little bit better.
    This is one of our two launch facilities, and this is a 
boarding float out here, and this is Navy and Coast Guard 
property. I don't know if you are able to see the sailboats 
here, and the Coast Guard boats that are covered with sea 
lions.
    Just beyond is our city fire boat, as well as our Coast 
Guard response vehicles, that are so impacted with sea lions 
that you can hardly get to them. So it really slows our ability 
to respond.
    I also have some letters from neighboring businesses that 
were so inundated with this problem, and particularly the 
stench of the animals, that they had to close their business. 
It was just simply so bad that you could not be near them.
    It does not show in this picture, but at the top of the 
launch ramp, we erected a fence all along the top of the bluff 
that is designed to keep the public or the sea lions from 
coming up into the parking lot, and further up we have another 
fence that protects the citizens from going down to the sea 
lions, because they don't realize that these are wild animals.
    They look cuddly, and you would like to probably pet them. 
But we know what can happen when that happens. We have had 
problems with them jumping en masse on to the docks, and if you 
could put that one up, please. This is in the Monterey marina.
    You will notice that they are all very shiny and that means 
that they just got out of the water. We had cleared this dock 
by having a person go down, and what we use is a tether ball on 
a pole, and we swing it around, and that seems to bother them, 
and as you do it more and you bounce it on the dock, they will 
eventually get off.
    But as soon as you leave, within 5 minutes they are back. 
So it just continues to be a problem. They have shown very 
aggressive behavior, and they have physically damaged our 
docks. This happens to be a whole new marina that we rebuilt. 
Our earlier additions of this was wood.
    They would break off water faucets, and they would knock 
off electrical panels. These are electrical panels, and if the 
big ones lean against those, they can break them over. This is 
a wooden whaler on the side of a concrete dock. Too much weight 
and they actually can flex that and break it.
    And obviously when you have a situation like that, it 
denies access for the public to their own boats. They have 
chased boaters, and they have chased our staff. I will show you 
some of that a little bit later.
    Fortunately, we have had lots of pant leg nips, but very 
few actual bites. These vessels actually belong to the Navy. 
They are the Naval Postgraduate's sailing club. Those are 
wooden shields and you can see the water line right there.
    Unfortunately, the Navy erected these barriers along the 
docks that keeps them off the docks, and it makes it very 
difficult to get to the boat, but it also--it didn't protect 
their vessels in time, and I don't know how they ever cleaned 
those vessels. It is beyond recognition.
    The next photograph depicts outer harbor moorings. The sea 
lions are very athletic and they have the ability to jump on 
the boats, and this was a very pristine vessel, and it is 
difficult to see all the gray streaks and so on. You will see a 
little more about that vessel in a minute.
    The next vessel, a 26-foot trimaran, was out on a mooring, 
and approximate 600 to 800 sea lions got on that vessel and 
sunk it. Fortunately, we were able to refloat it, and bring it 
to the marina, and the owner was able to clean it up, and put 
it back into service.
    The next one documents our dinghy dock. As you can see one 
sunk dinghy right here, and what happened is that this entire 
area had approximately 40 dinghies. The sea lions decided that 
they would rest on the dinghies, and sunk every one of them, 
and did damage.
    We actually had to pump them out, and put the dinghies up 
on the dock, and now they are on top of the dinghies which are 
upside down. So, again if you have a boat on a mooring, you 
can't get to your dinghy to get out to the mooring.
    The next one is a particular aggressive mammal, and he is 
about 50 yards away from the water, and he had come up on a 
launch ramp, and this is one of our harbor maintenance crew. By 
the way the only reason he allowed me to use this photograph is 
because you can't see his face.
    He is in fact running away from that sea lion because he 
went out to try to shoo it back into the water, and it charged 
him. This guy is about 6 foot 5, about 300 pounds, and if you 
look closely, both feet are off the ground.
    We eventually had two staff member--he got all the way out 
to Del Monte Avenue, and if you know Monterey, that is a major 
thoroughfare, and you can imagine the problems that could have 
created for both himself and traffic. We were eventually able 
to shoo him back into the water.
    The next one is--I don't have polite words to describe 
this, but that was a sailboat that I told you was pristine, and 
this is the cockpit, and please notice the tiller has been 
broken off, and that is a combination of fecal matter and 
vomit. Again, it is not a very pretty picture, and if that was 
your boat or my boat, I think you would be very, very unhappy.
    The next photograph is an unfortunate one. This is a dead 
sea lion, and he is a relatively young male. We are at the 
present time collecting between 5 and 10 sea lions a day that 
we dispose of that are dead.
    We believe that some of them are diseased, and some of them 
are malnourished, and they are dying at an alarming rate. The 
next one that we have is one of our more bizarre photographs. 
This is the hull of a large commercial fishing boat that was 
out on a mooring, and the sea lion got up in the boat, and 
managed to fall into the hold. This is an 800 pound sea lion.
    We had friends from three mammal groups using a cargo net 
that we eventually got around the sea lion, and hauled him out. 
It is not the kind of thing that you want to get involved in 
daily.
    For the past 12 weeks we have been spending on an average 
of $2,000 to $3,000 per week just in staff time cleaning up 
after the sea lions. There are extreme public property issues, 
and public safety issues, and health impacts. Since 1990, we 
can document over a million dollars in costs that these sea 
lions have caused in damage to property, lost business, and 
staff cleaning up from the mess that is left.
    In my opinion, there must be some non-lethal measure that 
can be put in place to bring the population of the sea lions 
under control. More aggressive, but not injurious, management 
means should be legalized. We are operators. We are not 
scientists, and we would look to the scientific community to 
please develop a method to help us control these problems. I 
would be happy to answer any questions.
    [The prepared statement of Mr. Anderson follows:]

      Statement of Carl Anderson, Director of Public Facilities, 
                      City of Monterey, California

    Chairman Pombo, Members of the Committee, Congressman Cunningham: 
My name is Carl Anderson and I am the Director of Public Facilities for 
the City of Monterey. I have been responsible for our harbor and marina 
for 21 years. I appreciate being afforded the opportunity to speak 
about the City's experiences with California sea lions.
    The Monterey Bay region is a west-coast center of ocean 
conservation. We are the home of the Monterey Bay Aquarium, the 
Monterey Bay Aquarium Research Institute, and another twenty-one marine 
science institutes. We are at the heart of the Monterey Bay National 
Marine Sanctuary. Monterey Bay and adjacent waters have rich fishing 
grounds that still support a fishing heritage, which contributes to the 
economy of our City.
    It is, therefore, ironic, that our City, which draws regional, 
national and international travelers to experience the wonders of our 
coast and bay, should also be the poster child for a well intended 
conservation measure--which has succeeded too well. What began as an 
effort to protect marine mammals now has created a huge new set of 
problems for sea lions, and for our community. Federally protected 
California sea lions seem to be well above historic natural levels and 
well above sustainability. The rapid population growth of these animals 
has caused a competition for haul-out space and for food for which 
there are no real winners.
    The City always has a resident population of sea lions in our 
waterfront area that number about 150 animals, year round. In 1990, 
1997 and again beginning last May, we experienced even larger 
incursions of these animals which brought between 1,000 to 1,500 
animals into our waterfront, the majority of which appear to be pups. 
We don't know why they come here, unless they've heard what a wonderful 
place Monterey is to visit.
    While there is no doubt the public enjoys viewing these animals at 
a distance, the animals pose distinct safety, property damage and 
public health problems. These problems far outweigh any public benefit.
    1. We have had problems with up to 700 sea lions taking over one of 
our two public launching ramps. The problem was so severe that we had 
to close the launch ramp to the public, which in turn affected several 
businesses that operate in the launch ramp area. When the public went 
away, these businesses withered for about a month. (attachment 1, 2)
    2. We also have problems with the animals jumping up in-mass onto 
our docks. Sometimes their aggressive behavior denies public passage 
for people to get to their boats. The sea lions have physically damaged 
our docks by their weight, breaking the wood components. They have 
chased our boaters. We've had numerous torn pantlegs, but luckily, only 
a few bites. The fact that there are so many sea lions has caused the 
animals to haul out onto boats and docks, places they would not 
normally rest on. (attachment 3)
    3. We have also had problems with sea lions boarding and sometimes 
sinking vessels. (attachment 4, 5) One such vessel, a 26-foot trimaran 
(then on a mooring, now raised), was sunk last month by about 100 sea 
lions. (attachment 6)
    4. We have had 40 of our small dinghies sunk or damaged by the sea 
lions. (attachment 7)
    5. Animals sometimes actually go up to our public walking trail and 
streets, posing significant dangers to the public, as these animals can 
be quite aggressive. (attachment 8)
    6. Both the Coast Guard and our City Fire boat have had their 
essential missions compromised by the large number of animals that are 
in the way, causing delays to the crews trying to get down to their 
boats.
    7. Fishermen have had significant impacts from the sea lions. 
Losses to fishermen affect the economy of our City. I know that others 
will speak to this today.
    8. When sea lions go up onto our launch ramps, docks, boats and the 
recreational trail, they pose significant health hazards. They defecate 
and vomit parasites wherever they go. The stench in any area after even 
a few hours is nearly overwhelming. The water quality in our harbor is 
very poor when the animals are present. (attachment 9, 10)
    9. Many of the animals appear to be sick or starving. Our crews are 
removing 5 to 10 dead sea lions a day from our waterfront area. 
(attachment 11)
    For the past twelve weeks the City of Monterey has been spending 
$2,000 to $3,000 per week to try to avert the most extreme property, 
public safety, and health impacts from these animals. Since 1990, City 
and private costs related to sea lion problems exceed one million 
dollars. For our current problem, we have no idea if, or when, this 
problem will end. Since they are a Federally protected marine mammal, 
we have very limited means available to us to discourage the animals 
from coming up onto public areas.
    It is my opinion that some non-lethal measures must be put into 
place to bring the sea lion population under control. More aggressive, 
but non-injurious, management means should be legalized. We must look 
to the scientific community for answers. If we do not take action, I 
suggest that we will surrender a significant portion of the West 
Coast's waterfront, and fishery resources, to these animals, overtime.
    I want to thank the Committeefor their time and I am available to 
answer any of the committee's questions.
    Thank you.
    [NOTE: Attachments to Mr. Anderson's statement have been retained 
in the Committee's official files.]
                                 ______
                                 
    Mr. Pombo. Thank you.
    Ms. Merryweather.

   STATEMENT OF MELINDA MERRYWEATHER, TOWN COUNCILMEMBER, LA 
                       JOLLA, CALIFORNIA

    Ms. Merryweather. Good morning. My name is Melinda 
Merryweather, and I am here speaking on behalf of my community 
of La Jolla, and I want to thank you all for letting me speak. 
I have lived in La Jolla for most of my life, and I am a member 
of the town council, and served on the parks and beaches 
committees, and helped to write a community plan, and I am an 
environmentalist.
    La Jolla is a small, older historic community, and in 1931 
Ellen Browning Scripps saw the need in our village to create a 
safe place for children, and the elderly, and the handicapped 
to learn to swim in the ocean.
    There was so great a need for this in our community that 
she spent $60 thousand, which was a huge amount of money in 
those days. She was granted permission to take a small area of 
the beach and it was similar to a tide pool at that time, and 
erect a large carved curved wall with openings in it, and it 
had flue ways in it.
    We now had the only man-made beach on the entire coast of 
California. There was a parade, a dedication, and a piece of 
legislation was created that called out and placed certain 
conditions on this man-made beach.
    It stated that said land shall be devoted exclusively to 
public park, bathing pool for children, parkway, playground, 
and for recreational purposes. I feel that this legislation 
should still be honored today.
    This was the first document in the State of California that 
talks about beach access, and maybe the first loss of beach 
access in the State of California. My grandmother swam at the 
children's pool, as did my mother, and I learned to swim in the 
ocean there, and I taught my son to swim there, and now I want 
to teach my granddaughter to swim there.
    People and wildlife existed for over 70 years in this area 
in perfect harmony. In 1972, the MMPA came into effect to 
protect the seals, and for 25 years even though that was in 
effect, we still swam and used the beaches as usual, even 
though the law was in effect.
    In 1997 the beach was closed and declared a natural haul 
out site by NOAA due to fecal pollution levels caused by the 
seals and the beach was closed. Our community is now dealing 
with a totally confusing message of enforcement.
    No wonder the top marine biologists at the National Marine 
Fisheries warned the city 10 years ago do not let the seals 
come on to a public populated beach. He was very clear about 
that. We all must know by now that as soon as man interferes 
with nature, we blow it every time. It never fails. This is a 
clear case of man interfering with nature that allowed this to 
happen.
    Last week, I went around the corner from the children's 
pool to the cove beach, and I saw people practically sitting on 
top of each other, and there were so many people crowded on to 
that little beach. And I sent over to the children's pool and 
there were no children and there were no seals. There was 
nothing.
    I think this is a pathetic waste of a wonderful resource, 
and I think it is an insult to the accepted gift of Ellen 
Browning Scripps. Some people say that it is along the lines of 
if you had a pack of coyotes who took over a neighborhood 
soccer field, would we all stand back and say that's find and 
let them have it?
    As a matter of fact, let's create a legislative Act that 
protects them. It would never happen. This is a problem that is 
so out of hand that it has made it to the cartoon section of 
national newspapers, national spoof t.v., Tom Brokaw, the New 
York Times. This is a situation that has to be corrected.
    We were even asked this year to perhaps not do the 
fireworks in La Jolla because it would disturb the seals. It is 
a depressing situation, and we have seal feces, dead seal 
carcasses, polluted water, foul air, with airborne diseases, 
injured seals, but no one is allowed to help, and buried seals, 
and trash that can't be removed.
    We have even tried to clean the beach up and we have asked 
if we can go down and take the seal feces off the beach so you 
can at least sit close to the beach, and we have been told that 
we can't touch it.
    All of this is due to Level B harassment guidelines of the 
MMPA. We are asking you to amend the MMPA in a way that allows 
municipal governments the opportunity to prevent seals from 
taking over a populated, heavily used, public beach. We would 
like to retain our original status as a public populated man-
made beach park with the children's pool.
    I want to remind you that the children's pool is a man-made 
beach. It is not a natural anything. It is a man-made beach. 
That was a tide pool before the wall was put up. We have lived 
and swam at this pristine beach and gentle water access with 
the seals for over 80 years.
    Let the seals and the people co-exist like they always 
have, in a healthy environment, of equilibrium, and please 
restore the clean air and clear water, and our beach access. 
This could be all accomplished by restoring the children's pool 
to a public beach status, and removing the stipulations that go 
with the natural haul out status, which clearly it is not.
    This could eliminate the expensive and ridiculous lifelong 
policing problem forever, and this is an enormous policing 
problem. I know that it costs the city a ton of money. It is so 
ridiculous to me that this is even happening.
    And this picture here shows that this is what we are going 
to lose. This sits empty. This whole entire area here in La 
Jolla sits empty today. No children, no seals, no nothing. It 
is just a smelly, dirty, horrible spot, and I think it is--and 
it is also to me one of the important things is being part of 
the surf world is that it is the first time that I have ever 
been denied access to go in the ocean, and I think that it is 
our constitutional right to go in the ocean.
    And this may be the first case of that being prevented, and 
I think that is something that we can't allow to happen. Thank 
you for your time, and I really appreciate you guys listening 
to this. It is a huge issue, and I am here for any questions. 
Thank you.
    [The prepared statement of Ms. Merryweather follows:]

        Statement of Melinda Merryweather, Town Councilmember, 
                          La Jolla, California

    My name is Melinda Merryweather. I am here speaking on behalf of my 
community of La Jolla. Thank you for letting me speak.
    I have lived in La Jolla most of my life. I am a member of the Town 
Council, serve on the Parks and Beaches Committee, and helped to write 
our community plan, and I am an environmentalist.
    La Jolla is a small older historic community which truly is one of 
the most beautiful communities on the entire coast.
    In 1931, Ellen Browning Scripps saw the need in the village to 
create a safe place for children, elderly and the handicapped to learn 
to swim in the ocean. The need was so great she spent $60,000. which 
was a huge amount of money in those days.
    She was granted permission to take a small area of beach- similar 
to a tide pool- and erect a large curved wall with openings in it. We 
now had the only man-made beach on the entire coast of California.
    There was a parade, a dedication and a piece of legislation was 
created that called out and placed certain conditions on this man-made 
beach. It stated--``That said lands shall be devoted exclusively to 
public park, bathing pool for children, parkway, playground and for 
recreational purposes.''
    This legislation still should be honored.
    This was the first document in the State of California that talks 
about beach access and may be the first loss of beach access in 
California.
    My grandmother swam at the Children's Pool as did my mother. I 
learned to swim in the ocean there, I taught my son to swim there and 
now I want to teach my granddaughter to swim there.
    People and wildlife existed for over 70 years in perfect harmony.
    In 1972 the MMPA came into effect to protect the seals But for 25 
years--we still swam and used the beach as usual even though it was in 
effect.
    Then in 1997 the beach was closed and declared a natural haul out 
site by NOAA due to the high pollution levels caused by the seals.
    Our community is now dealing with totally confusing messages of 
enforcement. No wonder the top Marine Biologist at National Marine 
Fisheries warned the city 10 years ago not to let seals start to come 
onto a public populated beach. We all must know by now that as soon as 
man interferes with nature we blow it. It never fails. This is a clear 
case of man interfering with nature.
    Last week I went to the Cove Beach--a small beach next to the 
Children's Pool. It was packed with people all but sitting on top of 
each other, and at the Children's Pool--not a soul. No people. No 
children no seals.
    This is a pathetic waste of a wonderful resource. This is an insult 
to the accepted gift of Ellen Browning Scripps.
    Imagine if you had a pack of coyotes who took over a neighborhood 
soccer field. Would we all stand back and say that's fine let them have 
it. Matter of fact, let's create a legislative Act that protects them!
    It would never happen. This is a problem that is so out of hand it 
has made it to the cartoon sections of national newspapers, National 
spoof tv, Tom Brokaw, and The New York Times. This is a situation that 
has to be corrected--We were even asked to consider having a permit for 
our fireworks this year so as not to disturb the seals.
    It is a depressing situation. We have seal feces, dead seal 
carcasses, polluted water, foul air with airborne diseases, injured 
seals that no one is allowed to help, buried seals and trash that 
cannot be removed. All due to the Level B harassment guidelines of the 
MMPA.
    We are asking you to amend the MMPA in a way that allows municipal 
government the opportunity to prevent seals from taking over a 
populated heavily used, public beach.
    And we would like to retain our original status as a public, 
populated man-made beach park at the Children's Pool. We have lived and 
swam at this pristine beach and gentle water access with the seals for 
over 80 years. Let the seals and the people co-exist like they always 
have in a healthy environment of equilibrium and please restore the 
clean air, the clean water, and our beach access.
    This could all be accomplished by restoring the Children's Pool to 
a public beach status and remove the stipulations that go with a 
Natural Haul out status--which it clearly is not. This could eliminate 
the expensive, ridiculous lifelong policing problem forever and return 
this huge and wonderful resource to our community.
    Thank you for taking the time to listen and to be here. I am 
available for any questions.
                                 ______
                                 
    [The following letter was submitted for the record by Ms. 
Merryweather to clarify her testimony:]

                            August 29, 2003

Dear Chairman Pombo and Committee Members

    I was one of the speakers at the field hearing on August 19th in 
San Diego.
    I am writing to amend the statements that I made under oath during 
the questioning after my statement. During the questioning I was asked 
whether I had spoken to the seal supporters, and who they were. At the 
time I said they were a kinder and gentler group, and then said that 
Hubbs-Sea World had been involved in the beginning of the docent 
program. I would like to clarify that the Hubbs-Sea World was in no way 
ever involved in any seal support group that has been aggressive, and 
is not part of the group that is now currently patrolling the 
Children's Pool.
    Secondly, I was recently speaking with Michelle Zetwo, one of the 
enforcement officers of the San Diego area for the MMPA. She mentioned 
that I should get my facts straight about an incident I mentioned 
regarding the surfer that had to use the Children's Pool beach to swim 
in after he had lost his board. The statement I made was that he had 
received a citation for $100, when, in actuality, he received a 
warning. I would like to have this information in the record.
    Thank you.

                          Melinda Merryweather

                                 ______
                                 
    Mr. Pombo. Thank you.
    Mr. Fletcher.

          STATEMENT OF ROBERT C. FLETCHER, PRESIDENT, 
             SPORTFISHING ASSOCIATION OF CALIFORNIA

    Mr. Fletcher. Good morning, Chairman Pombo and Congressman 
Cunningham. My name is Bob Fletcher, and I am the president of 
the Sportfishing Association of California, known as SAC. SAC 
is a non-profit political organization that for over 30 years 
has represented the interests of the commercial passenger 
fishing vessel fleet in Southern California.
    The SAC fleet carries close to 750,000 passengers a year on 
175 different sportfishing boats. I am also here today 
representing the interests of the members of the Golden Gate 
Fishman's Association from San Francisco, and the members of 
the Recreational Fishing Alliance nationwide.
    SAC, GDFA, and RFA, are deeply grateful to you, Congressman 
Pombo and Congressman Cunningham, and Subcommittee Chairman 
Gilchrest for agreeing to hold this field hearing in order to 
hear testimony on the crisis, and I say again crisis, facing 
anglers in California from the growing populations of pinnipeds 
on the West Coast.
    The population of California sea lions and Pacific Harbor 
seals continues to grow, and individual animals continue to 
grow more aggressive in their interactions with anglers, 
boaters, swimmers, and crews, and we need your help through 
changes in the Marine Mammal Protection Act to begin to take 
control of this terrible problem we face.
    Over the years the SAC organization has spent literally 
tens of thousands of dollars and much of its time in an effort 
to find and develop an effective, non-lethal deterrent device 
that will allow members of the SAC fleet to be able to co-exist 
with these growing hordes of problem pinnipeds.
    One particular unit developed by a company here in San 
Diego showed real promise. The company, known as Pulse Power 
Technologies, Incorporated, had made an experimental deterrent 
device that appeared to deter the sea lions, while not 
affecting fishing.
    With the help of NOAA fishery staff in the Southwest 
region, we applied to the California Coastal Commission to get 
approval to begin that sea testing to determine how effective 
it might be. We never got on the water with that unit.
    The coastal commission voted down our request and denied 
our application for at-sea testing. The commission in essence 
ignored the pleas of the fishing industry in favor of pinniped 
populations which are now believed to be above historic levels.
    If we are ever able to get control of this problem, we need 
to stop bending over backwards to protect exploding sea lion 
populations and try to find some reasonable methods to control 
their attacks on our citizens.
    I say attacks and they continue to occur and I will go into 
some detail. A clear example comes from Central California. The 
harbormaster of Port San Luis stated that sea lions had invaded 
their docks, and when approached the sea lions would growl at 
us, and even sometimes charge toward us if we get too close.
    The harbor staff has tried to deter the creatures, but 
after a few days of squirting water, making noise, yelling, 
clapping hands, throwing soft projectiles and the likes, the 
mammals ignore us and don't leave the docks. Clearly a case 
where if there is no pain, you have no gain.
    As many marine mammal experts agree, that unless you can 
approach the pain threshold with your deterrence, you cannot 
effectively deter these intelligent animals. To make these 
matters worse, increasingly aggressive California sea lions 
have more recently began to attack members of the public.
    A swimmer off Port San Luis was bitten in the calf by a sea 
lion. He received a 3 inch laceration on the back of his leg. A 
fisherman was attacked when a sea lion swam aboard his boat. 
The animal bit him in the thigh, causing a significant injury.
    A sea lion came out of the water and bit a crew member in 
the hand while the individual was walking down the dock 
carrying a fish. Finally, there was a recent case of a seal 
lion at a sport fishing dock that was preventing passengers 
from boarding the boat.
    As a passenger would approach the sea lion would jump out 
of the water, bearing its teeth, and preventing the angler from 
boarding. It took 20 minutes to drive the animal away. NOAA 
Fisheries needs to be given legal authority to changes in the 
MMPA to take actions to identify and then effectively deter 
these problem animals, so as to again put the fear of man into 
them, allowing our citizens to co-exist with these very 
abundant populations, and once again allow them to enjoy their 
ocean experience.
    In closing, SAC wants to compliment Congressman Gilchrest 
and Congressman Pombo on the introduction of H.R. 2693, which 
would require the Secretary to conduct research on the non-
lethal removal and control of nuisance pinnipeds.
    As the California State government is currently in fiscal 
meltdown, our only hope is that the Federal Government can work 
to find some reasonable way to once again allow us to enjoy our 
West Coast ocean waters without the constant harassment by 
these hordes of aggressive nuisance pinnipeds. Thank you very 
much.
    [The prepared statement of Mr. Fletcher follows:]

               Statement of Robert Fletcher, President, 
                 Sportfishing Association of California

    Dear Chairman Gilchrest & Members:
    My name is Robert Fletcher, and I am the President of the 
Sportfishing Association of California (SAC). SAC is a non-profit 
political organization that for over thirty years has been representing 
the interests of the commercial passenger fishing vessel (CPFV) fleet 
in southern California. The SAC fleet of vessels runs local and long-
range sportfishing, sport diving and natural history excursions, and 
carries close to 750,000 passengers a year, and the SAC live bait 
harvesting boats provide live bait to the sportfishing fleet and to the 
huge private boat fleet that fishes off the California coast.
    SAC is deeply grateful to House Resources Committee Chairman Pombo, 
and to Subcommittee Chairman Gilchrest, for agreeing to hold this field 
hearing in order to receive testimony on the crisis facing the marine 
fishing & boating community. California sea lions and pacific harbor 
seals continue to grow in numbers and in the aggressiveness with which 
they harass sport and commercial fishermen, sport divers, swimmers and 
boat owners. These robust populations of pinnipeds are resulting in 
some animals that are out of control, and we need your help to find 
ways to cope with these aggressive problem animals
    For many years, SAC has spent money and time in an effort to find 
and develop an effective, non-lethal deterrent device that will allow 
members of the SAC fleet to be able to ``co-exist'' with the increasing 
hordes of pinnipeds. One particular unit, developed by a company here 
in San Diego, initially showed real promise. The company, known as 
Pulse Power Technologies, Inc., had made an experimental deterrent 
device that appeared to deter sea lions without scaring away the fish. 
With the help of NOAA Fisheries staff in the southwest region, we 
attempted to get approval from the California Coastal Commission to 
begin at-sea testing to determine how effective it might be.
    Unfortunately, the Coastal Commission disagreed with our 
application and denied our request for a consistency determination, 
stating that the unit could potentially harm a marine mammal. The 
Commission, in essence, ignored the pleas of the fishing industry in 
favor of pinniped populations that are now believed to be above 
historic levels. If we are ever to get control of this interaction 
problem, we need to stop bending over backward to protect these 
exploding populations of marine mammals and try to find some reasonable 
methods to control their attacks on our use of our ocean and its 
resources.
    The Harbormaster in Port San Luis, in comments I have attached to 
my testimony, stated that, ``When approached, the sea lions will growl 
at us and even sometimes charge towards us if we get too close''..The 
Harbor staff has tried to ``deter'' these creatures, but after a few 
days of squirting water, making noise, yelling, clapping hands, 
throwing soft projectiles and the likes, these mammals ignore us and do 
not leave the docks.'' Clearly a case of no pain, no gain, and many 
marine biologists agree that unless you approach the pain threshold, 
you cannot effectively deter these animals.
    To make matters worse, increasingly aggressive CA sea lions have 
more recently begun to attack members of the public. A swimmer off Port 
San Luis was bitten in the calf by a sea lion. He received a three-inch 
laceration on the back of his leg. A fisherman was attacked while 
seated in his boat. The animal bit into his thigh causing a significant 
injury. A sea lion came out of the water and bit a crewmember in the 
hand while the individual was walking down the dock carrying a fish. 
Finally, there was a recent case of a sea lion at a sportfishing dock 
that was preventing passengers from walking down a dock to a 
sportfishing boat. As a passenger would approach the boat the sea lion 
would jump out of the water, baring his teeth at the individual, 
preventing him from boarding. It took 20 minutes to scare the animal 
away.
    Clearly, the competition between individuals of this exploding CA 
sea lion population is forcing some animals to modify their behavior in 
ways that threaten man's enjoyment of the ocean environment. You will 
hear from marine mammal experts that the majority of the conflicts stem 
from a small number of ``problem'' animals, and unless Congress begins 
to understand the threat posed by these ``bad boys'', the attacks will 
continue and perhaps become truly life threatening. NOAA Fisheries 
needs to be given the authority to take actions to effectively deter 
these problem animals, to again put the fear of man into them, so that 
our citizens can co-exist with these abundant populations of CA sea 
lions and Pacific harbor seals.
    In closing, I want to thank Subcommittee Chairman Gilchrest for 
introducing H.R. 2693, and Chairman Pombo for agreeing to this hearing. 
On behalf of the sportfishing industry I want to specifically support 
Section 7 of Congressman Gilchrest's bill, which requires the Secretary 
to conduct research on the nonlethal removal and control of nuisance 
pinnipeds. As California state government is currently in fiscal 
meltdown, our only hope is that the federal government can work to find 
some reasonable way to once again allow us to enjoy our west coast 
ocean waters without the constant harassment by the hordes of nuisance 
pinnipeds.
                                 ______
                                 
    Mr. Pombo. Thank you.
    Mr. Emerson

                STATEMENT OF FRANK T. EMERSON, 
               FISHERMEN'S ALLIANCE OF CALIFORNIA

    Mr. Emerson. Thank you, Mr. Pombo. My name is Frank 
Emerson, and I am the President of Fishermen's Alliance of 
California, a group that is a combination of commercial, 
recreational, and industry representatives of the fishing 
industry.
    Thank you for the chance to present with you our position 
on the Marine Mammal Protection Act Reauthorization. It is our 
belief that the California sea lion, and the Harbor seal 
numbers are above historical populations, and that this 
condition is having an adverse effect on marine resources and 
the fishing industry.
    We define the fishing industry in the broadest sense. Our 
group includes commercial, recreational, and charter vessel 
operators. Our definition must also include the businesses that 
depend on sea food harvests for food and for sport, from the 
hotels that house weekend anglers, to the largest processing 
plants.
    Fishing supports businesses that are interwoven throughout 
our economy, and countless jobs rest on its health. In our view 
it is nothing less than irresponsible to give unreasonably high 
levels of protection to over-abundant marine mammals in favor 
of critically important resources.
    A desire to be humane and afford safety to these marine 
mammals is shared by fishers and non-fishers alike. After all, 
the appreciation of the ocean's beauty and bounty is what lures 
us to a life at sea in the first place.
    It certainly is not the promise of cushy hours and great 
benefits. We do not feel that it is desirable or humane to let 
this population of sea lions and seals grow unchecked until an 
inevitable crash, and from the testimony that you heard 
earlier, an occurring decline as we speak due to disease and 
starvation.
    At a recent presentation in Monterey, California, by sea 
lion experts, Robert DeLong of NOAA's northwest region, stated 
that the current numbers are probably the highest they have 
been in over 3,000 years. How is this possible? Haven't we all 
heard about the seal hunters that nearly wiped them out?
    Yes, over-hunting did occur, but sealing has been banned 
for over a century. What changed is that prior to the sealing 
years, Native Americans harvested them routinely and provided a 
balancing factor. The major difference is the lack of human 
harvest after the ban on sea lions.
    For native hunters it was as normal as going to the grocery 
store. They depended on marine mammals for not only food, but 
bones served as their tools, furs as warm clothing, and 
intestines for lashings, and even the flippers were used for 
boot soles. They used the whole animal.
    So humans were absolutely an integral part of the 
environment that the marine mammals existed in for centuries. 
Sea lion researchers know this from investigation of Native 
Indian dig sites, and what they call the mittens, and in these 
refuse areas, the fossilized bones of these marine mammals are 
found.
    Also, by displacing man as a natural predator, as well as 
grizzly bears and wolves, which no longer prowl our coast 
lines, the growth rate of 6 percent doubles the population 
approximately every 8 to 9 years.
    The current estimate of the population of California sea 
lions is around 240,000 animals, which does not take into 
account the Mexican population. What will twice that number 
mean to our fish docks if this population doubles again in 8 or 
9 more years? What will our beaches look like then?
    What will it mean to the sea lions? It is no different than 
deer populations that exceed the available food supply. They 
will all suffer. Is it not the intention of the Act to reduce 
the amount of suffering to marine mammals?
    The critical flaw that we perceive in the MMPA is a faulty 
and an unworkable definition of optimum sustainable population. 
This concept legislates a population increase without 
acknowledging a host of biological and historical factors to 
curb populations.
    Reauthorization of the Act is the perfect opportunity to 
thoughtfully acknowledge the reality of marine ecosystems, and 
predator-prey dynamics. We must accept that man is integral to 
the environment, and has always had an impact on marine 
mammals.
    It is our position that to try and ensure complete 
protection from one species over another is not only 
impossible, but it is inherently flawed. The majority of 
fishermen impacted by sealing degradation would rather not try 
to have to discourage their behavior by shooting at them.
    It takes time out from your daily work, and it is a hassle, 
and it is dangerous, and it is also not very effective because 
it is actually hard to shoot from a moving boat. This at one 
time was allowed to try to prevent this behavior and it did 
serve the purpose of keeping marine mammals afraid of man, and 
discourage this behavior.
    But we would rather have non-lethal deterrence developed as 
others have spoken, and keep the populations in balance with 
the marine environment. It is our position that people should 
be able to protect their property from degradation, and that is 
a private property rights issue.
    But from a resource management standpoint, we ask for 
population control through humane methods to maintain a balance 
consistent with those historical numbers. There is hardly a 
fisherman along our coast that cannot recount tales of fish 
lost to seals or sea lions, and I would just like to recount a 
story that I just heard recently.
    I was talking to someone on my way up here actually. He was 
out fishing off of Monterey Bay for halibut with his son, and 
his son's friend, and a sea lion actually jumped in the boat 
with them, menacing the passengers, and a crew member or the 
captain of the vessel had an aluminum baseball bat that he uses 
to dispatch a halibut when they catch one.
    They tried to shoosh this animal off the boat, and it kept 
aggressively pursuing the guy in the bow of the boat. So he is 
backing up and he is panicking, and it is a very tense 
situation. So he finally hits the animal in the body, and it is 
only momentarily deterred. It just kind of whirls around and 
looks at him briefly, and turns back and continues to charge 
the man on the bow. o he swings again, and again the same 
response, just a momentary hesitation by the animal. Again it 
pursues the man on the bow of the boat. So finally he hits it 
as hard as he can in the head, and the seat collapses on the 
boat. Now he has got a situation that he feels terrible about.
    He does the right thing and he calls the Coast Guard and 
they are only 10 minutes from the dock. He reports that he has 
a man injured, because the person has been scratched and is 
bleeding from his stomach, and requests medical assistance.
    He drives immediately to the Coast Guard pier, and he is 
met by four seaman, one packing a sidearm, and instead of 
assisting the person injured, they immediately grill him for 5 
minutes about how the sea lion was killed.
    The captain became so incensed that he says that I have got 
a person injured here, and they refused to look at, and he 
requested that medical assistance be available. A more senior 
officer finally came down to the dock, and rebuked the junior 
officer, and saw to it that the person was treated, and 
apparently has written a report that we are trying to get.
    He went to the Coast Guard office yesterday and asked for a 
copy and they said we don't have any copies and we don't know 
what you are talking about. So we are going to track this down. 
So in any case, that is just a clear example of what our 
priorities have been misapplied. It is really very 
discouraging. Thank you very much for listening to my testimony 
today.
    [The prepared statement of Mr. Emerson follows:]

               Statement of Frank T. Emerson, President, 
                   Fisherman's Alliance of California

    Thank you for the chance to present you with our position on the 
Marine Mammal Protection Act reauthorization. It is our belief that 
California Sea Lion and Harbor Seal numbers are above historical 
populations, and that this condition is having an adverse effect on 
marine resources and the fishing industry. We define the fishing 
industry in the broadest sense, our group includes commercial, 
recreational and charter vessel operators. Our definition must include 
the businesses that depend on seafood harvest for food or sport, from 
the hotels that house weekend anglers to the largest processing plants. 
Fishing supports businesses that are interwoven throughout our economy, 
and countless jobs rest on its health. In our view it is nothing less 
than irresponsible to give unreasonably high levels of protection to 
over abundant marine mammals in favor of critically important 
resources.
    A desire to be humane and afford safety to marine mammals is shared 
by fishers and non-fishers alike. After all, the appreciation of the 
Oceans beauty and bounty is what lures us to a life at sea. It 
certainly isn't the promise of cushy hours and great benefits. But we 
do not feel it is desirable or humane to let this population of Sea 
Lions and Seals grow unchecked to until an inevitable crash. A point of 
carrying capacity will be reached and disease and starvation will kill 
thousands at a time.
    At a recent presentation in Monterey Ca. by Sea Lion experts, 
Robert DeLong of NOAA's northwest region, stated that current numbers 
are probably the highest they have been in over three thousand years. 
How is this possible? Haven't we all heard about the seal hunters that 
nearly wiped them out? Yes, over hunting did occur, but sealing has 
been banned for over a century. What changed is that prior to the 
sealing years Native Americans harvested them routinely and provided a 
crucial balancing factor. The major difference is the lack of human 
harvest after the ban on sealing. For Native hunters it was as normal 
as going to the grocery store. They depended on marine mammals for not 
only food, but bones served as tools, furs as warm clothing, intestines 
for lashings and even the flippers were turned into boot soles. So 
humans were absolutely an integral part of the environment that marine 
mammals existed in. Sea Lion researchers know this from investigation 
of Native Indian archeological dig sites. In the refuse areas around 
the camps the fossilized bones of many types of marine mammals are 
found.
    By displacing man as a natural predator, and removing other land 
based carnivores such as Grizzly Bears and Wolves, etc., the stage was 
set for our coastline to experience a steady growth rate of 6%, or a 
doubling every 9 years. The researchers currently estimate the 
population of Ca. Sea Lions at around 240,000 animals. What will twice 
that number mean to our fish stocks? What will it mean to the Sea 
Lions? It is no different than deer populations that exceed the 
available food supply, they will suffer.
    Is it not the intention of the Act to reduce the amount of 
suffering of marine mammals? The critical flaw that we perceive in the 
MMPA is a faulty and unworkable definition of ``Optimum Sustainable 
Population''. This concept legislates a population increase without 
acknowledging a host of biological and historical factors that curbed 
population. The reauthorization of the Act is the perfect opportunity 
to thoughtfully acknowledge the reality of marine eco-systems and 
predator/prey dynamics. We must accept that man is integral to the 
environment and has always had an impact on marine mammals. It is our 
position that to try and insure complete protection for one species 
over another is not only impossible, it is inherently flawed.
    The majority of fishermen impacted by Sea Lion depredation would 
rather not have to try to discourage the animals' behavior by shooting 
at them. We would rather have non-lethal deterrents developed and keep 
the populations in balance with the marine environment. It is our 
position that people should be able to protect their property from 
depredation, and that is a private property rights issue. From a 
resource management standpoint we ask for population control through 
humane methods to maintain a balance consistent with historical 
numbers.
    There is hardly one fisherman along our coast who cannot recount 
tales of fish lost to sea lions or seals. The salmon trollers in 
Monterey Bay at times have to quit fishing completely because every 
fish hooked is lost to sea lions that follow close behind. This 
fluctuates with the time of the year and how many fish are being 
caught. When fishing is fast and furious you stand a better chance of 
landing the fish hooked. On average or slow days the sea lions will eat 
nearly every salmon hooked before you have a chance of landing them. 
When considering the impact to charter fishing operators the losses can 
be difficult to quantify yet are equally devastating. The fuel and time 
lost due to relocating away from sea lions, the captain working hard to 
find a productive spot only to be found by sea lions again. Customers 
will call the business and ask if the sea lions are ``in'', and if so 
they will not book a trip. Why make the drive, some are coming from 
communities a half days drive away, only to be robbed of the fish you 
work hard to catch? It is impossible to calculate the true loss to the 
sport fishing industry due to discouraged clients. The same is true for 
private boaters with sizable investments in boats and equipment.
    How can we break the cycle of rogue animals that learn this 
unnatural feeding behavior? We have been obtaining small grants from 
local State F&G commissions for almost 8 years now to fund studies 
conducted by Moss Landing Marine Labs. These were sometimes matched by 
other agencies and include interactions between fishers and sea lions, 
dietary analysis and population monitoring. These were all conducted by 
MLML under the direction and oversight of Dr. Jim Harvey PhD.
    In our current study the goal is to learn exactly what triggers a 
sea lion to locate a hooked salmon, meaning the hydro-acoustic and 
visual signals. This was dubbed the ``Cues Project'' and the field 
observations were begun this year in Monterey Bay. Using underwater 
digital video cameras and hydro-acoustic recordings we hope to be able 
to devise technology that can deter such human and sea lion 
interactions. This would be a win/win in our estimation, good for the 
fishers and good for the sea lions. If such technology is developed to 
the level of practical application it could be made available for the 
commercial sector as well as the recreational. If the depredation 
activity is continuously discouraged those animals that have never 
learned the behavior probably will not, and those that are may unlearn 
that habit by being forced to forage on their own. Some rogue animals 
may have to be lethally or otherwise removed. By allowing the 
interaction to continue unabated, the cycle of young sea lions being 
taught the depredation by the older, perpetuates the problem 
indefinitely.
    We therefore request that reauthorization include a strong 
commitment to the funding necessary to develop such deterrent 
technology. Monterey Bay is a center of marine research and given the 
proximity to Sea Lion interactions would be ideal for developing this 
equipment. A two sided approach, maintaining a balance in the pinniped 
populations (through sterilization or other means) and harnessing the 
technological advancements in society to solve these interaction 
problems can surely succeed in restoring a harmonious balance between 
humans and pinnipeds.
                                 ______
                                 
    Mr. Pombo. Thank you.
    Mr. Everingham.

         STATEMENT OF ROY R. ``BUCK'' EVERINGHAM, JR., 
                EVERINGHAM BROTHERS BAIT COMPANY

    Mr. Everingham. I would like to thank you all for allowing 
me to speak. The Everingham family and its crews has been 
dedicated to serving the San Diego community since 1951. My 
grandfather, Adolphus Charles Everingham, and Uncle Chuck 
Everingham started working for Mac's Bait Business in the late 
1940s. Upon my father's--Roy R. Everingham, Senior--return from 
several trips tuna fishing in 1948, he started fishing for 
Mac's Bait.
    My family purchased the company in 1951 and incorporated in 
1963. I started working for the company in 1965 and purchased 
the equipment from my father in 1994. I am a third-generation 
of Everinghams to own the company.
    As a commercial fisherman for 38 years, and an aerial 
observer for 15 years, I have been on or over the Pacific Ocean 
throughout the population increase of the sea lion. I have 
watched the sea lion change from having a fear of man to 
totally dominating the environment we are forced to share.
    As the population has grown the attribution to our holding 
pens, receivers, nets, barge and boat crews have steadily 
increased. Eight years ago, we started to lose a large 
percentage of live bait we store.
    The conditions were so bad that we lost 95 percent of our 
live fish stock in 1 to 2 weeks. The sea lions would gather 
around one receiver, while one would blow its air directly 
under the middle of the bait receiver bottom. This simulates a 
depth charge going off in the receiver, driving the fish out 
the cracks to the waiting sea lions.
    After many complaints and threats from my best customers, 
and months of research and planning, I came up with the best 
and cheapest method of diverting air from the sea lions. The 
cost was $800 per receiver, and with 128 receivers, for a total 
cost of $102,400.
    The problem was semi-cured, but the sea lions have the 
ability to learn and adapt. They learned to open the cracked 
lids and ram the side of bay receivers, punching through 1-by-
6, and 2-by-4, and 4-by-4 framing, to get to the bait.
    The damage the sea lions caused make it necessary to haul 
the receiver out of the water on to the maintenance barge at a 
cost of $800 to $3,000 per receiver to repair and return to the 
water of 1-to-2 receivers per month.
    Due to the sea lions hanging out on top of the receivers, 
1-to-3 lids are broken per week, at a cost of $80 to $400 per 
lid to repair. Damage to the netting and poles for our 
crowders, 1 to 2 poles per month, at a cost of $150 per pole, 
and repairs to the webbing of $25 to $250, depending on the 
amount of damage to the webbing.
    I see that as an ongoing problem that with the present laws 
will only get worse. The interaction with my employees and the 
fishing public is a recipe for disaster if some control is not 
implemented.
    One of our maintenance barge crew has already been severely 
mauled, laying both the upper and lower part of his hand open 
to the bone from a sea lion bite, requiring 4 months of rehab.
    We have contacted the controlling agency, the National 
Marine Fisheries Service Enforcement, and no action has been 
taken. They refuse to deal with the problem animal, and in fact 
I have talked to them about deterrence, and they can't even 
agree amongst themselves which would be legal to use.
    Twice before when I have asked NMFS Enforcement for help, 
they have not been responsive and have been unwilling to help. 
At this time, we are dealing with an 800 pound sea lion that is 
pushing employees, customers, with his chest while growling and 
snapping to gain entry to an open receiver.
    It is only a matter of time before someone is seriously 
hurt. We called the National Marine Fisheries Enforcement 
Agency in San Diego, and their recorder said they would be back 
in a week-and-a-half. Since NMFS is the controlling agency, and 
the California Fish and Game cannot act, and the NMFS is MIA, 
what can we do?
    I feel that this is unacceptable. The same large sea lion 
is also boarding small boats fishing in the bay looking to 
steal their catch. This is very dangerous for the vessel, and 
for the occupants. Small vessels can be easily capsized by an 
800 pound sea lion and the occupants could be seriously mauled.
    Farmers and cattlemen are not forced to work in this type 
of environment. If these are the conditions that we are forced 
to work under, it would only be fair to reinstate the mountain 
lion and the coyote to our downtown areas so all Americans 
could work under equal conditions.
    Of our three vessels fishing for bait are up against 
difficult odds. Trying to find schools of bait with sonars and 
fathometers is difficult enough without 50 to 100 sea lions 
following them and jumping on to every they locate.
    One must set the nets quickly, leaving little time for 
tracking the schools and getting their direction, making 
setting the net more of a gamble. Many times we must dump half 
or the whole loads from our nets because 50 to 100 sea lions 
per boat are in the net making the bait quality so bad that it 
won't live and they must locate and set another school.
    Not to mention that this many sea lions in the net makes it 
very difficult to keep the schools in the net while pursing. 
There is also continuous damage to the sack portion of the net, 
making it necessary to make repairs. In addition to the above, 
due to the increased sea lion population, there has been a 
large increase in the Great White attacks along the San Diego 
coast.Thank you for your time and consideration.
    [The prepared statement of Mr. Everingham follows:]

  Statement of Roy R. Everingham, President, Everingham Bros. Bait Co.

    The Everingham family and its crews have been dedicated to serving 
the San Diego community since 1951. My Grandfather (Adolphus Charles 
Everingham) and Uncle (Chuck Everingham) started working for Mac's Bait 
business in the late 1940's. Upon my fathers (Roy R. Everingham Sr.) 
return from several trips tuna fishing in 1948, he started fishing for 
Mac's Bait. My family purchased the company in 1951 and incorporated in 
1963. I started working for the company in 1965 and purchased the 
equipment from my father in 1994. I am the third generation of 
Everinghams to own the company.
    As a commercial fisherman for 38 years and an aerial observer for 
15 years, I have been on or over the Pacific Ocean through out the 
population increase of the sea lion.
    I have watched the sea lion's change from having a fear of man to 
totally dominating the environment we are forced to share.
    As the population has grown the attrition against our holding pens 
(receivers), nets, barge and boat crews have steadily increased. Eight 
years ago we started to loose a large percentage of live bait we store.
    The conditions were so bad we lost 95% of our live fish stock in 
one to two weeks. The sea lions would gather around one receiver while 
one would blow its air directly under the middle of the bait receiver 
bottom. This simulates a depth charge going off in the receiver, 
driving the fish out the cracks to the waiting sea lions.
    After many complaints and threats from my best customers and months 
of research and planning, I came up with the best and cheapest method 
of diverting the air from the sea lions. The cost was $800 per receiver 
with 128 receivers for a total cost of $102,400. The problem was semi 
cured.
    But the sea lions have the ability to learn and adapt. They learned 
to open the crated lids and to ram the side of the receivers, punching 
through 1x6, 2x4's and 4x4's framing to get to the bait. The damage the 
sea lions cause make it necessary to haul the receivers out of the 
water onto the maintenance barge at a cost of $800 to $3000 per 
receiver to repair and return to the water at a rate 1 to 2 receivers 
per month. Due to the sea lions hanging out on the top of the receivers 
1 to 3 lids are broken per week at a cost of $80 to $400 per lid to 
repair. Damage to netting and poles for our crowders 1 to 2 poles per 
month at a cost of $150 per pole and repairs to webbing at $25 to $250 
depending on amount of damage to the webbing.
    I see this as an ongoing problem that with the present laws will 
only get worse. The interaction with my employees and the fishing 
public is a recipe for disaster if some control is not implemented. One 
of our maintenance barge crew already has been severely mauled laying 
both upper and lower part of his hand open to the bone from a sea lion 
bite, requiring four months of rehab.
    When we have contacted the controlling agency NMFS (National Marine 
Fisheries Service) enforcement, no action has been taken. They refuse 
to deal with the problem animal. In fact when I have talked to them 
about deterrents they can't even agree amongst themselves what should 
be legal to use. Twice before when I have asked NMFS enforcement for 
help they have not been responsive and are unwilling to help. At this 
time we are dealing with an 800-pound sea lion that is pushing 
employees and customers with his chest while growling and snapping to 
gain entry into an open receiver. It is only a matter of time before 
someone is seriously hurt. We called NMFS enforcement in San Diego; 
their recorder said they would be back in a week and a half. Since NMFS 
is the controlling agency and California Fish and Game cannot act and 
the NMFS is M.I.A. what do we do? I feel this is unacceptable. The same 
large sea lion is also boarding small boats fishing in the bay looking 
to steal their catch. This is very dangerous for the vessel and the 
occupants, small vessels can be easily capsized by an 800-pound sea 
lion and the occupants could be seriously mauled.
    Farmers and cattlemen are not forced to work in this type of 
environment. If these are the conditions we are forced to work under, 
it would only be fair to reinstate the mountain lion and coyote to our 
downtown areas so all Americans could work under equal conditions.
    Our three vessels fishing for the bait are up against difficult 
odds, trying to find schools of bait with sonars and fathometers is 
difficult enough without 50 to 100 sea lions following them and jumping 
onto every school they locate. One must set the nets quickly, leaving 
little time for tracking the schools and getting their direction, 
making setting the net more of a gamble. Many times we must dump half 
or the whole load from our nets because 50 to 100 sea lions per boat 
are in the net, making the bait quality so bad it won't live and they 
must locate and set another school. Not to mention that this many sea 
lions in the net makes it very difficult to keep schools in the net 
while pursing. There is also continuous damage to the sack portion of 
the net making it necessary to make repairs.
    In addition to the above, due to the increase in sea lion 
population there has been a large increase in great white shark attacks 
along San Diego coast.
    Thank you for your time and consideration.
                                 ______
                                 
    Mr. Pombo. Thank you.
    Mr. Rebuck.

            STATEMENT OF STEVEN L. REBUCK, MEMBER, 
                SOUTHERN SEA OTTER RECOVERY TEAM

    Mr. Rebuck. Good morning, Mr. Pombo, and Congressman 
Cunningham, I appreciate very much that you would come here 
today and schedule these field hearings. It is an honor to be 
here. It is my fourth time appearing on the subject of sea 
otters.
    I wanted to correct this little sign here. It says that I 
am a member of the Southern Sea Otter Recovery Team. I am 
actually a technical consultant for abalone to the team, and it 
is job that I have had for about 10 years. I like it. I have 
been diving since 1956.
    My family was in the abalone business and I was born on 
Santa Catalina Island in '51, and then we moved to Ocean Beach 
down the road here, and I went to Ocean Beach Elementary 
School, and I moved to Morro Bay in 1954, and I have been 
around the abalone fishery my whole life, and it is really 
wonderful. I love diving.
    I brought a photograph here today. This is what I consider 
to be the human equivalent of a sea otter. It is a commercial 
abalone diver, and in my search for preparation for today I 
came up with a number of about 500 sea urchin and abalone 
divers licensed by the State of California.
    My friend, Peter Halna, who is the President of the Sea 
Urchin Harvesters Association, a few moments ago informed me 
that I was incorrect. The number now is around 360. So there is 
about 2,500 sea otters and 360 commercial divers, and I 
question who is really endangered here.
    Congress did a wonderful thing for us in 1986. You passed 
Public Law 99-625, which created a climate where we could co-
exist with sea otters. We could have fishery zones, and sea 
otter zones, or areas, where shell fish were conserved and the 
sea otters were protected.
    The Public Law 99-625 though changed the mandate perception 
that the Fish and Wildlife Service has. Their perception, and 
what they have told me many times, is that their job is to 
recover sea otters and not to protect fisheries.
    Well, the way that I read the Public Law is that they were 
instructed to do both. Unfortunately for us, they have not been 
doing their job. The law was passed by Congress. The Coastal 
Commission approved the translocation of sea otters to San 
Nicholas Island, because there was a containment component, 
meaning that any animals that left the island or found in the 
management zone would be captured and returned to the parent 
population.
     The Fish and Wildlife Service has not done that now since 
1993, and we have continued to lose fishing grounds, and it has 
cost the coastal communities millions of dollars annually in 
lost fisheries.
    Now, I brought a few items here. This is a red abalone, and 
this is about the size that commercial divers and sportsmen 
desire. It is 7 inches for sportsmen and 7-3/4s for commercial 
divers.
    This is the size that the sea otter will take down to an 
animal of about 3 inches. This is just slightly smaller than 3 
inches, but you can see that we can't really compete with this 
if we are obligated to take this size and otters can take any 
size. The abalone will continue to exist in some cases, but 
they don't get to the size that support a fishery.
    The Fish and Wildlife Service has used many excuses why 
they can no longer contain the sea otters. They say, well, it 
was a difficult job. Well, we all knew that from the get go. 
When you are out looking over hundreds of thousands of square 
miles of ocean for something that has a head this big, how do 
you find that in an ocean, in the choppy seas.
    You can't, and it is very difficult, and so it was 
difficult, and it was predicted from the beginning, and we knew 
that. But the Fish and Wildlife Service persisted that they had 
the expertise, and the training, and the knowledge, and the 
capability to carry out containment.
    And so the project was approved, and they have been at it 
now since 1987. Their next excuse was, well, there was a lack 
of money. They just did not have enough money to carry out the 
containment component. Well, sorry. We didn't go for it in the 
first place, and they obligated themselves to carry out.
    We understand that they were taking money from the sea 
otter project and putting it into the condor project. Well, 
they tell me now that they have $300,000 a year in their annual 
budget, and I asked them where does that money go. Does it go 
to research? No. It goes to salaries.
    So that's nice. I would like to have one of those jobs, 
too, but while they lose their job or if I lose my job, they 
seem to get promotions, and retirements, and lots of good 
things.
    The Coastal Commission advised the Fish and Wildlife 
Service in 1999, and their letter is in my written comments, 
that the translocation project was no longer consistent with 
the California Coastal Management Plan. That means that the 
project is not consistent with the Coastal Zone Management 
Plan.
    So here we have an agency that is in violation as I see it 
of two Federal laws, and a significant State law, and it 
doesn't seem to matter. They just do whatever they please. 
Recently the State of California and commercial fishermen that 
fish the Channel Islands have agreed on reprotected areas.
    That 25 percent of the Channel Islands are going to be set 
aside for being reprotected areas, and to enhance things like 
abalone. This won't happen with sea otters, and so what I am 
asking you today is that we somehow continue Public Law 99-65, 
and that Congress require the Fish and Wildlife Service to live 
up to their commitments.
    They have to or otherwise we are not going to have our 
wonderful fisheries, our abalone, sea urchin, which is a huge 
export fishery; the lobster fisheries are in jeopardy, and the 
crab fisheries are in jeopardy, clams. Almost 60 marina 
vertebrates are food items for sea otters.
    So I have no hard feelings for the sea otters, but I would 
really like to find a way as Mr. Fletcher said to co-exist with 
these animals. I thank you again for coming.
    [The prepared statement of Mr. Rebuck follows:]

 Statement of Steven L. Rebuck, Member, Sea Otter Technical Consultant 
                Group, Southern Sea Otter Recovery Team

    When I last appeared before the Subcommittee on Fisheries 
Conservation, Wildlife and Oceans, October 11, 2001, I attempted to 
demonstrate through State of California documents how the U.S. Fish and 
Wildlife Service (USFWS) sea otter program in California has failed. 
This failure violates a number of state and federal laws. USFWS also 
violates a 1987 Memorandum of Understanding (MOU) between USFWS and the 
California Department of Fish and Game (CDFG) and Federal Rulemaking.
    In 1986, Congress authorized the USFWS to capture sea otters and 
translocate them to San Nicolas Island, Ventura County. Public Law 99-
625 allowed the USFWS to create a separate population of sea otters, a 
primary objective of the 1982 Southern Sea Otter Recovery Plan. 
Previous to this law, the ``taking'' of sea otters in California was 
illegal under provisions of the Marine Mammal Protection Act (MMPA). 
USFWS plans to translocate sea otters in California began about 1979.
    USFWS has repeatedly told fishermen and others their congressional 
mandate was to recover the sea otter in California, not to protect 
fisheries. PL 99-625 clearly amended this mandate.
    A mapping study funded by USFWS and the Marine Mammal Commission 
(MMC) in 1984 by James Dobbin Associates found that a translocation of 
sea otters to San Nicolas Island would have the least economic impacts 
of sites under consideration. However, if sea otters were not contained 
to San Nicolas Island, economic impacts would be the greatest of any 
site under consideration.
        ``Of all four zones, it appears that San Nicolas Island may 
        provide the least conflicts with shellfisheries considering 
        simultaneous both existing commercial and sport fisheries. This 
        assuming that the animals will disperse throughout the Channel 
        Islands. Should dispersal take place to other island shelves 
        such as the northern archipelago, (San Miguel, Santa Rosa, 
        Santa Cruz, Anacapa) and Santa Barbara Island, conflicts 
        arising from the selection of San Nicolas would be greater (in 
        economic terms) than conflicts arising from dispersal from 
        other zones. Dispersal outside the other zones would also 
        affect the magnitude of conflicts with existing commercial and 
        sport fisheries.'' (EXHIBIT 1)
    Dispersal and related economic impacts is what has taken place 
since 1987 and especially since 1993 when the USFWS abandoned the 
containment component of the translocation.
    Our former Congressman, the Honorable Robert Lagomarsino, stated in 
a 1998 letter that:
        ``I believe it is a contempt of Congress for U.S. Fish and 
        Wildlife to not carry out the law by recapture of sea otters.'' 
        (EXHIBIT 2)
    USFWS has also demonstrated contempt for the State of California by 
ignoring obligations they made to protect fisheries south of Point 
Conception, Santa Barbara County.
    The California Coastal Commission (CCC) advised USFWS in 1999 that 
the translocation program was no longer consistent with the California 
Coastal Management Program (CCMP) as required by the Coastal Zone 
Management Act (CZMA). The establishment of a ``no-otter/management 
zone'' was mitigation for the fisheries and due to this mitigation, the 
CCC approved the translocation in 1987.
        ``Implementation of a management zone was a critical element of 
        CD-10-87. In its concurrence, the Coastal Commission found that 
        adverse commercial fishing impacts at San Nicolas Island 
        projected to be caused by the otter translocation effort would 
        be adequately mitigated by implementation of the management 
        zone (i.e., the ``no-otter zone).''

        ``The Draft Biological Opinion states that the USFWS will allow 
        the otters in the management zone to remain to remain in place 
        pending its decision on the future of the translocation and 
        containment programs. CD-10-87 is clear that if the mitigation 
        program (i.e., implementation of the management zone) fails, 
        then the USFWS needs to seek further federal consistency 
        review. Thus, the decision by the USFWS to no longer maintain 
        the `no otter' zone triggers the need for a new federal 
        consistency review to determine if the project continue to be 
        undertaken in a manner consistent with CCMP. The USFWS should 
        submit this matter soon in the form of either an amendment to 
        its existing consistency determination or a new consistency.'' 
        (EXHIBIT 3)
    The termination of the containment component of the translocation 
program has cost coastal communities, south of Pt. Conception, millions 
of dollars in lost fisheries. If fishery protections afforded by PL 99-
625 are lost, over time, several valuable fisheries: sea urchins, crab, 
lobster, and set-net fisheries will be impacted. CDFG has estimated 
these potential multiplied losses at: commercial fisheries, 
$73,800,000; recreational fisheries, $ 150,400,000; and oil and gas 
$12,600,000,000. (EXHIBIT 4).
    This scenario has been opposed by the County of Santa Barbara 
(EXHIBIT 5), the California Fish and Game Commission (CFGC (EXHIBIT 6) 
and CDFG (EXHIBIT 7).
    The USFWS established a Sea Otter Technical Consultant Group 
(SOTCG) to assist the Southern Sea Otter Recovery Team (SSORT) in 
August 1993. The SOTCG has not met since 1999. The SOTCG is made up of 
the environmental community, oil and gas industry, recreational 
fishing, commercial fishing and the State of California. A 1995 list 
occurs in the 2003 Final Revised Recovery Plan of the Southern Sea 
Otter.
    On February 27, 2003 the USFWS met with fishermen in Ventura, 
California to discuss the Final Revised Recovery Plan and options. 
Indication was given that USFWS was conducting similar meetings with 
others. On June 11, 2003 sea otter coordinator, Greg Sanders met with 
the Marine Interest Group (MIG) at Morro Bay, California to discuss the 
status of sea otters, the translocation and the 2003 Revised Recovery 
Plan. Why USFWS has not better used the SOTCG is not clear.
    Concerning the status of abalone, all commercial and recreational 
abalone fisheries, south of San Francisco were closed in 1997. One 
species, white abalone, Haliotis sorenseni, was listed as endangered 
May 29, 2001. This species occurs out to two hundred feet of water; 
beyond the limits of compressed air diving, but not beyond the foraging 
capability of sea otters.
    California Cooperative Fish Investigators (CALCOF) reported on the 
problems associated with sea otters and white abalone in 1999:
        ``During 1998, about 100 sea otters moved into southern 
        California between Point Conception and Santa Barbara. These 
        animals are mostly males, which range great distances. They 
        move back into their northern territory during mating season, 
        but will probably return to southern California again later. 
        Persistent occupation and continued immigration into southern 
        California could have serious ramifications for the recovery of 
        the abalone resource and for other invertebrates as well. 
        Several abalone species, including green, pink, and possibly 
        white, are at such low densities that continued foraging by sea 
        otters--in combination with the cumulative effects of 
        predation, environment, and anthropogenic factors--could 
        extirpate them.'' (EXHIBIT 8)
    Following the translocation of sea otters to San Nicolas Island, 
beginning 1987, red abalone landings declined. According to CDFG 
published data, San Nicolas Island produced 41% of regional (Pt. 
Conception to Oceanside) red abalone, Haliotis rufescens, landings in 
1987, 30% in 1988, 12% in 1989 and 3% in 1990. (EXHIBIT 9)
    In 1999, the Commercial Fishermen of Santa Barbara, Inc. and the 
California Abalone Association, Inc. sued the Department of the 
Interior (DOI) and USFWS over the failure to contain sea otters in the 
no-otter/management-zone. (EXHIBIT 10). However, fishermen were unable 
to sustain the lawsuit.
    Another group of central California fishermen recently lost a 
lawsuit to preserve their halibut and sea bass fishery due to presumed 
take of sea otters.
    The sea otter translocation to San Nicolas Island had many 
problems. A number of commitments published in the Federal Rulemaking 
for the project never occurred. An 800 phone number to report otters in 
the no-otter/management-zone never happened. Nor did promised weekly 
aircraft surveys. Boats and crews were not reliable. By comparison, 
CDFG did a far better job and actually captured the majority of sea 
otters in the no-otter/management-zone.
    Although the USFWS and CDFG had a signed MOU identifying management 
and research objectives (EXHIBIT 11), USFWS has failed to operate in 
good faith. The sea otter program conducted by USFWS in California can 
be characterized as willful neglect.
    The General Accounting Office (GAO) reported in 1981 that USFWS had 
not informed the State of California, nor MMC of their intentions to 
translocate sea otter to San Nicolas Island. (EXHIBIT 12).
    Previous translocations had problems. In 1969 and 1970, USFWS 
translocated 59 Amchitka, Alaska sea otters to Washington state. In 
1970 to 1971 total of 93 Amchitka sea otters were translocated to 
Oregon. The major problem with this translocation was that Alaskan sea 
otters were introduced to Southern sea otter territory. While the 
Washington population thrived, the Oregon population dispersed. 
(EXHIBIT 13). It is quite possible Alaskan sea otters entered the 
California population following this translocation
CONCLUSION
    The USFWS has created a climate in California where the future of 
shellfish and other fisheries is uncertain. Although Congress has 
created legislation whereby shellfish resource are conserved and sea 
otters protected, the USFWS has not cooperated with the State of 
California to co-manage these resources.
    Without Congressional Oversight, the State of California will 
continue to lose valuable invertebrate resources and the human use 
fisheries they support.
    The State of California recently established Marine Protected Areas 
(MPAs) on 25% of the northern Channel Islands. This is an investment in 
the future of fisheries. Without controls on the sea otter, this 
investment will come to fruition. These 125 square miles of MPAs (no-
fishing or limited fishing) occur in the no-otter/management-zone.
    The State of California, commercial and recreational fishermen 
desire a continuation of PL 99-625 and ``zonal-management'' of sea 
otters. This will likely require reconfiguration of the no-otter/
management-zone. This will also require a more cooperative USFWS with a 
focus on problem solving and co-existence between sea otters and 
fisheries.
                                 ______
                                 
    Mr. Pombo. Well, thank you. I thank the entire panel for 
your testimony, and Mr. Rebuck, one of the things that has been 
in the news lately has been the--that certain populations of 
abalone are endangered, and I know that off the coast just 
north of here they were talking about that particular 
population was very endangered.
    Does the increased population on the pinnipeds, and sea 
lion seals, and their ability to dive and take the abalone, 
does that lead to part of this?
    Mr. Rebuck. Well, the pinnipeds wouldn't take the abalone, 
but the sea otters would.
    Mr. Pombo. The sea otters.
    Mr. Rebuck. Yes, they would, and in fact the California 
Cooperative Fish Investigations, which is known as CALCFI, 
published in their report in 1999, and it is in my written 
comments, that if otters were allowed into Southern California 
that it could exculpate some of these abalone populations.
    There is eight abalone species common to California. These 
ones are red abalone. These are kind of like fleas. They are 
really hard to eradicate. The other species--white abalone, 
which is listed as an endangered species--is common in this 
area, or formerly common.
    I supported that listing, and I wrote a letter because I 
wanted to see better science in looking for these populations 
that still may exist, and they do exist. But there are other 
species. The pink abalone and green abalone, which are also 
potential candidates for the list.
    This is a black abalone, Haliotis cracherodii. That has 
been taken by a sea otter. I can't fish this, and this is 
sublegal to the size that I would fish if I was able to.
    Mr. Pombo. You can't fish it because?
    Mr. Rebuck. Well, there is a prohibition on all abalone 
fishing now south of San Francisco to allow for recovery of the 
stocks. These particular animals were dying of a disease 
referred to as withering syndrome. It is a virus that affects 
these animals not due to fishing. Their declines were not due 
to fishing.
    Mr. Pombo. Thank you.
    Mr. Rebuck. Yes, sir. Thank you.
    Mr. Pombo. Ms. Merryweather, obviously the whole case in La 
Jolla has gotten attention, and one of my former colleagues, 
Brian Bilbray, who came marching into my office a few weeks ago 
with a stack of newspaper clips, and they are all involved the 
children's pool in La Jolla, and was quite excited about what 
was going on, and what the impact had been.
    And I am glad that you had the opportunity to come in and 
testify, and talk to us, and I am a little bit confused as to 
the implementation of the Marine Mammal Protection Act, and we 
have testimony from different people who say that we tried to 
chase them off the docks, and we chased them out of the boats, 
and trying to protect our private property, and protect our 
boats, and protect our public lands.
    And yet in your case, it appears that they are telling you 
that you can't do that.
    Ms. Merryweather. In the case in La Jolla, this is a--at 
one point we had something called seal rock, and they put a 
sort of invisible protection around it. And they told everybody 
don't go anywhere near this rock.
    Well, it used to be that when the kids went out, and divers 
went out, and surfers went out, they would like hurl some 
seaweed at the seals, and a couple would get off and a couple 
would get on.
    Once they put this protection around this rock, so many 
seals got on the rock that a couple of them went over to the 
children's pool, and once they got over to the children's pool, 
some sort of very zealous seal lovers got over there, and told 
anybody that if you get near these seals I am going to have you 
arrested, and you will have a fine, or you will be imprisoned.
    So people were like, well, I sat on this beach my whole 
entire life. What is the deal. And they are going, well, if you 
make that seal raise his head, you are going to get a fine or 
you are going to get arrested.
    So slowly but surely due to the fact that people, and the 
seal people, sort of were having it out every day; and then the 
lifeguards got involved, and then the lifeguards finally said 
that we don't want to deal with this.
    So what they did is that they erected with the help of the 
city a rope, which has no coastal permit, separating the seals 
from the people. And the things that happened there--I mean, 
there was a situation where a surfer who was outside lost his 
board, and the only way he had to come in was at the children's 
pool.
    He came in and he would have drowned had he not been able 
to come in there. He gets into his car, and he gets home, and a 
couple of days later and he has a $1,000 fine because the 
people who were watching over that property over there turned 
these people in continually.
    To me one of the most precious things that we probably have 
in California are our rights to beach access, and we are being 
denied it in every possible way. And in this case, the 
children's pool to me, because it is a man-made pool, and it is 
a natural site, it is even sort of more off-bounds than I think 
that it should be.
    This is a huge piece of beach for us in La Jolla, and it is 
a very special piece of beach for us, and now as I saw certain 
months of the year--like right now there is no children, and 
there are no seals. It smells badly. It is just a mess in every 
possible way.
    And the other thing about the children's pool is that it is 
the origination of diving in all of Southern California. The 
original gogglers came out of that pool, the children's pool. 
It has a lot of history, and it is just a crying shame to see 
what has happened to it.
    Mr. Pombo. It does not--and maybe I can ask our next panel 
this question, but it does not seem to be consistent 
enforcement to me.
    Ms. Merryweather. It is not at all. There is a situation 
where tourists can stand on the wall and clap, and bark at the 
seals, and make them go in the water and nothing happens to 
them.
    But a diver who--we have a friend who is a diver, and who 
swam with the seals for 15 years. He has two of them who are 
his buddies. He gets in the water, and they jump in the water 
with him, and they swim with him. He gets fined continually.
    It is so difficult to understand what the rules and 
regulations are. I mean, even when they said, well, maybe you 
shouldn't have fireworks this year because you are going to 
disturb the seals, it is just really hard for us to figure can 
you be on the beach, and you can't be on the beach.
    The seals have to die there and you can't pick them up. 
They are going to bury them there. The lifeguards themselves, 
most of them that I have talked to would much rather be 
watching the children than the seals, and we are about to erect 
something like a $2 million lifeguard tower there.
    So the thing is out of hand, and it is ridiculous, and I 
think that the rules just have to be eased up on, and in that 
situation with the children's pool may be changed to something 
else. Because as I said, it has made it all the way to spoof 
t.v., and it has been in every paper that you can imagine.
    It has been all over the country. I have had people send me 
things from Germany, and from France, where people are just 
laughing about this, and this is just ridiculous.
    Mr. Pombo. Well, over the past several years, I have had 
different people who have come in and complained about the 
enforcement, or implementation, and the way that the Act was 
being defined and implemented.
    And I think it is a case like yours that because it affects 
so many people, and it is a different group of folks that it 
affects, all of a sudden people begin to really focus on what 
some of the shortcomings are in the implementation of the 
Federal law.
    Ms. Merryweather. Yes, and one of the points that I would 
like to make is that I feel that if I was in nature with the 
seal, and I came down to the beach, and I wanted to go in the 
water, and that scared the seal and made him go in the water, 
that is his natural behavior, and that is my natural behavior.
    In this instance, when they say that I am going in the 
water is affecting that seal's natural behavior, it's not. That 
is his natural behavior. So the whole thing to me is just 
ridiculous.
    Mr. Pombo. That is an interesting way to look at it. As I 
am sure you are aware, we have been struggling with definitions 
and what harassment means, and the Subcommittee Chairman, Mr. 
Gilchrest, and myself, have gone round and round, and round on 
this, in terms of trying to figure out what these definitions 
mean.
    And every little change, a one word change in the Act seems 
to get everybody excited, and we are trying to figure out a way 
to alleviate some of these problems, and it is very difficult 
to work our way through this.
    But, Mr. Anderson, in your particular case, you have 
responsibility of maintaining public facilities in Monterey.
    Mr. Anderson. Yes, sir.
    Mr. Pombo. When you or the folks that work with you chase 
sea lions off the docks to get to the boats, are you threatened 
with a harassment charge? I mean, under the Marine Mammal 
Protection Act, do they come to your guys and say that if you 
disturb these marine mammals we are going to fine you $1,000 
for doing it? I mean, do you have that, or--
    Mr. Anderson. Early in our difficulties with the sea lions, 
we had some of those kinds of threats. However, we were able to 
sit down with representatives in our area from the National 
Marine Fisheries, and work out a management program that did 
allow us to chase them off the docks.
    The photograph of them on our launch ramp and so on, we put 
up with that for about a month because we thought that 
naturally they would move on somewhere else. Well, they didn't, 
and we finally made a decision that we would become aggressive 
in moving them on along.
    So what we did is we had our staff go down, and we power 
washed the area to get rid of the mess, and within a few days 
they actually moved on further into our harbor, but in an areas 
that is virtually undeveloped. It is a beach area and so on.
    So it is visible to the public, but they got out of this 
particular area. And I will tell you that even when we had 
these large groups like this, we would go in there daily and 
cull out the dead sea lions, and just again from a health and 
safety point of view.
    And when you do that, they all go into the water, and it is 
a great show. They all rush down to the water, kind of in a 
stampede, and we would pick up the dead ones, and soon as we 
left, they came back up.
    But again it sounds as though there is a total 
inconsistency in enforcement between Southern California and 
Central California. The La Jolla situation boggles my 
imagination. I can't understand how that has happened.
    Mr. Pombo. Well, it kind of boggles all of ours as well. 
When Brian first brought the press clippings in to me, I 
couldn't figure out what they were thinking in terms of 
enforcement in that particular case, and obviously I have been 
to your city many times and my kids love going down and 
watching the sea lions and everything else. But it didn't look 
like that the last time I was there either.
    Mr. Anderson. It does not look like that all the time, but 
we have had like I said three occasions where this has happened 
to us, but right now they have moved to a totally new area. 
They are on the beaches on both sides of Fisherman's Wharf, 
which when they first arrived there all the concessionaires on 
Fisherman's Wharf were elated because it was a new tourist 
attraction.
    Well, about 72 hours later, when the stench has built up, 
it got to an unbelievable position. We had a major event in 
Monterey this past week with all of the automobiles and a major 
car show just adjacent to this area.
    I had our staff go down and pressure wash the rocks to get 
as much of that fecal matter and vomit off of the rocks, and 
fortunately it was an off-shore breeze most of the time and so 
we didn't have the problem.
    But now even some of the businesses on Fisherman's Wharf 
are extraordinarily concerned, and I suspect that you will get 
some letters from them that we don't have the ability to 
totally relocate them out of the area.
    And again I have to say that the biggest problem--and you 
have heard testimony--are the ones that become very aggressive, 
and these little ones, they are easy to handle. They are still 
very much responsive to the measures that we take.
    But the older bulls, they think they own the area, and I 
actually have a videotape shot by CNN of a sea lion coming up 
out of the water after one of our harbor maintenance people on 
the docks in the marina. Fortunately, he was pretty quick a 
foot, and he got out of the way, but he would have been 
attacked by the sea lion.
    Mr. Pombo. Thank you. Mr. Cunningham.
    Mr. Cunningham. Thank you. Brian also stormed in my office 
and has talked about the issues, Ms. Merryweather. I am not on 
this committee, and I thank the Chairman for allowing me to sit 
in here.
    But I think the thing that I have heard, and I came mostly 
to listen today, of the different areas. I fished with Mr. 
Fletcher, and I have had my bait stolen. I mean, I cast seven 
times and the seals, they move around hook. They don't get the 
hook. They just bite the fish in half, and I don't know how 
they do that with it moving through the water so fast.
    But the thing that I picked up today I think primarily as 
Mr. Anderson said is the inconsistency of enforcement, or the 
lack of using the dollars for what it should be for public law, 
and the protection of the public, not just from stench, but 
disease, and even bodily damage from an animal.
    I will do everything that I can to work with the Chairman. 
When you look at the folks that are turning in people for 
moving the seals, has anybody sat down with them and tried to 
have any kind of dialog?
    When I came back from Vietnam, I sat down with anti-war 
protesters, and had some kind of dialog. I don't think I 
convinced them of anything, but at least there was a dialog. 
And these groups that are so adamant about their position, is 
there any movement for them, and to say, hey, we want to reach 
a amenable agreement on how to handle animals to protect them, 
and maybe even to move them.
    But has there been any dialog from any of your groups with 
the folks who are opposed to what we are trying to do?
    Ms. Merryweather. Yes, we have. In the beginning, there was 
a quieter, gentler group of people, who informed people about 
the seals. But it has become so aggressive lately that there is 
people who actually have fake identifications down there and 
pulling out fake badges, and telling people that they are going 
to have them arrested.
    There are people who are running people to their cars and 
taking their license plates from them. They are taking their 
licenses and then turning them in. It has become very 
aggressive. They yell at people, and they have all but got into 
fisticuffs with people.
    It is kind of over the top. And the sad thing is, and the 
other thing that I would like to mention also is the shark 
issue in California. Seals love to eat sharks, and they spent 
millions of years tracking them and--
    Mr. Cunningham. And sharks love to eat seals.
    Ms. Merryweather. Exactly, and they have spent millions of 
years trying to track them and find them, and that is another 
issue that we have there, and that is coming, and I just wanted 
to throw that in there.
    And we have talked to the city, and we have talked to 
everybody, and it is just has become--one day it is that these 
are the rules, and the next day it is that these are the 
rules.There is sort of an ad hoc group of people who go down 
there and harass the people who come to the beach, because they 
so much want the seals to stay there.
    And they are attacking swimmers, and attacking people who 
are just wanting to sit on the beach there. I mean, there are 
some German tourists who just brought their blanket, and they 
didn't know about anything.
     They just went and sat down on the beach, and all of a 
sudden some guy is screaming in their face to get off the 
beach, and don't you know what you are doing. And they are just 
going like what is all this about.
    Mr. Cunningham. Are there specific organizations that these 
folks belong to, or are they just as you say ad hoc individuals 
who are concerned?
    Ms. Merryweather. Well, originally there was a group that 
was part of HUBBS.
    Mr. Cunningham. Part of HUBBS?
    Ms. Merryweather. Yes. They would inform people about what 
is the situation with the seals, and don't make them raise 
their head, and off of that stemmed what I would consider a 
much more sort of aggressive and hostile group of people, who 
actually harassed people.
    Mr. Cunningham. But do they belong to a specific 
organization, or just--because I would love to sit down with 
them and say, hey, what we are trying to do is not harmful to 
the animals, but it also allows us to co-exist, and just to see 
if you can actually have dialog with groups like that, or are 
they so extreme that there is no movement whatsoever?
    I would love to sit down with different groups and say, 
hey, let's work this thing out. Let's protect the animals, and 
let's also protect the public, and keep us from disease and the 
stench, and all the other things, too.
    Ms. Merryweather. I agree. For 80 years, we have co-existed 
with the seals just fine, and I can remember as a child 
swimming with them when I was older, and my son swam with them. 
I mean, the people come in and the people go out. The seals 
come in and the seals go out. It was a nice arrangement.
    But once they said that nobody could be on the beach, it 
just caused this nightmare that we are faced with now.
    Mr. Cunningham. OK. Well, I want to thank the witnesses. To 
me it has been educational. As I said, I am here to listen 
primarily and see if I can work with Chairman Pombo. I want to 
tell you that you don't mess with the little guys. He is tough, 
and he is very principled as far as trying to do the right 
thing.
    And he is a good friend, and I think he is a good friend of 
both sides of this issue if they just realized it. And I want 
to thank you, Mr. Chairman, for coming to San Diego.
    Mr. Pombo. Thank you. Before I excuse these witnesses, I 
wanted to ask Mr. Fletcher a question on the increased 
interaction that has occurred over the years. Do you believe 
that that is because of the increased population, or is it just 
because the population has shifted to where your guys are?
    Mr. Fletcher. Chairman Pombo, I think it is a combination 
of the increased population and the protections that have been 
afforded the animals from the Act. As you indicated in your 
opening remarks, in some ways the MMPA is more restrictive than 
the Endangered Species Act, and what we have seen happen is 
generations of sea lions that have learned that there is no 
harm no foul from interactions.
    And how we have at times three generations of these animals 
around the boats, and the older animals have taught the younger 
off-spring, and the younger off-spring are now becoming more 
and more aggressive.
    And it will continue in that vain. The majority of the 
animals at this point are not real problem animals. But that is 
going to change as they learn from the older animals. So the 
years that have passed have seen a continual increase, and the 
spreading out of the kinds of interactions.
    We did not have them eating all of the fish we caught, and 
the bait as Congressman Cunningham indicated. Now we are seeing 
more and more of that. The next step is that some private 
boats, as was mentioned, in fact see animals come aboard.
    I think that is going to continue, and there will be more 
injuries as more and more animals learn that they have nothing 
to fear, and that is why it is so important that some kind of 
effective, non-lethal deterrent is developed before this 
becomes much worse than it already is, and it is very bad 
today.
    Mr. Pombo. Mr. Everingham, you kind of walked us through 
what some of the challenges that you face in your business. And 
maybe this is an unfair question, but at what point does it 
become non-economic for you to continue running your business. 
I mean, I realize that this is a multi-generational family 
business, and with all of these costs on top of the normal 
costs of doing business, at what point can you no longer 
continue?
    Mr. Everingham. That is a hard question to answer. There is 
always the chance of raising the price of bait to the public, 
but the sports boats are already paying I think about what they 
can handle. So as I stated, they adapt and learn quickly, and 
prior to '72, commercial fishermen were allowed to take the 
animals lethally that were interfering with their livelihood.
    This gave them a natural fear of man, which to me I feel 
that the whole problem with the picture is that in the 
environmental scheme that man is not included; where man is a 
definite and integral part of the environmental scheme, and 
does what man does because that is what man is here for.
    That has been taken out of the equation and that has 
allowed for this imbalance to happen. I feel to me that is the 
number one thing that has caused the imbalance in the over-
population, and the lack of fear of man.
    They will learn very quickly to fear humans once lethal or 
painful deterrence are used. They adapt very quickly and they 
are very intelligent. I have seen some of the things that they 
figure out on their own. It takes them a week to days to figure 
out a new method to harass after investing all the money that 
we invested.
    But we are still able to keep up with it, and we do repair 
our receivers. It is basically like painting the Golden Gate 
Bridge. You start at one end, and when you get to the other, it 
is time to go back and start over.
    So it is a year around thing, and so everything that I 
stated is added to that, and on top of that which we are 
already doing. So I could not answer that totally to you. It is 
a hard question to answer.
    Mr. Pombo. If you leave, then it affects the seals.
    Mr. Everingham. Well, I guess we are at top of the iceberg, 
and I have been told by Catherine that has the Association of 
Sports Fishing that the sports fishing community generates 
about a--I think it was about a $32 billion a year income for 
Southern California, compared to suppliers, to boat repairs, to 
boat purchasing, tackle, and everything else that supports the 
industry. So, yes, it can be quite devastating to the 
California economy.
    Mr. Pombo. Well, thank you. I thank this entire panel for 
your testimony, and it is interesting that we have similar 
problems and similar complaints so to speak, or challenges, 
from such a diverse group of folks. So I appreciate all of you 
coming in. Thank you very much.
    I am going to excuse this panel, and invite up our second 
panel of witnesses. Mr. James Lecky, Mr. Robin Brown, Dr. Brent 
Stewart, and Dr. Doyle Hanan, if you could join us at the 
witness table. If I could have you all stand and raise your 
right hand.
    [Witnesses sworn.]
    Mr. Pombo. Let the record show that they all answered in 
the affirmative. Thank you very much for joining us today. I am 
going to begin with Mr. Lecky. I told you about the way the 
lighting system works, and if you could try to keep your oral 
testimony to the 5 minutes. Your entire written testimony will 
be included in the record. So, Mr. Lecky, if you are ready, you 
can begin.

STATEMENT OF JAMES LECKY, ASSISTANT REGIONAL ADMINISTRATOR FOR 
    PROTECTED RESOURCES, SOUTHWEST REGION, NATIONAL MARINE 
                       FISHERIES SERVICES

    Mr. Lecky. Thank you, Mr. Chairman. I will try and be 
concise so that you have opportunities to ask questions. Mr. 
Chairman and Congressman Cunningham, I want to thank you for 
opening the hearing today in Southern California, and providing 
me an opportunity to testify before you on issues and questions 
that you have raised today.
    And being here to underscore the importance of developing 
important policies to enable NOAA Fisheries to ensure continued 
protection and recovery of marine mammals, while allowing the 
public the continued use of marine resources and facilities.
    The Marine Mammal Protection Act is specific in its purpose 
to recover marine mammal stocks to their optimum population 
levels, and in accordance with that premise, NOAA Fisheries has 
assigned a higher priority to recovering declining and depleted 
stocks than it has to managing the increasing populations or 
populations that are already at OSP.
    Now, we have used the resources and tools that were 
provided to us in the 1994 amendments to the MMPA to 
investigate and where possible resolve conflicts with pinniped 
populations. NOAA Fisheries' efforts to implement these 
measures have been hindered though by controversy and limited 
effectiveness of non-injurious deterrence methods.
    Given the mixed results of deterrence studies and our 
limited funding, we focused most of our efforts on resolving 
conflicts and situations where there are either clear conflicts 
between pinnipeds and endangered salmonids, or where there are 
economic impacts or safety concerns from the presence of 
nuisance animals.
    We have conducted research in a variety of areas related to 
this status of pinniped populations along the West Coast, and 
their role in the ecosystem for nearly three decades now. We 
have monitored trends in abundance, using aerial photographs, 
pup counts, and we have investigated food habits.
    In 1999, we implemented a cooperative State and Federal 
research and monitoring program to investigate specific 
interaction problems, and experiment with deterrent devices. 
While some of the pinniped populations in the Pacific have 
declined and are now listed under the Endangered Species Act, 
the opposite is true for most of the California populations.
    The California sea lion, Pacific Harbor seals, the Northern 
elephant seals, which you have not heard about today, they are 
all increasing at somewhere around the order of 5 to 8 percent 
a year, and they have been doing so since the early 1970s.
    With regard to ecosystem impacts, we have been studying 
food habits for California sea lions since about 1991. The 
study showed that sea lions feed on a broad range of prey, but 
consisting mostly of small aquatic fish and squids.
    Although salmon and steelhead are represented at varying 
levels in their diet, depending on geographic location and 
season, and as we heard, there are some individual animals that 
have learned to become adept at interacting with commercial 
fishing operations as well.
    Coincident with the expansion of these pinniped 
populations, several salmon and steelhead populations along the 
West Coast have declined, and this coincidence has caused some 
interest to raise concerns about resource conflicts and impacts 
of pinnipeds on salmon populations listed under the ESA.
    Although NOAA Fisheries has concluded that seal and sea 
lion predation didn't cause a decline in salmons, it has 
acknowledged that in some locations predation may actually be 
interfering with an opportunity to recover those stocks.
    NOAA Fisheries is funding additional feeding studies to 
obtain a better picture of the total consumption of fish by 
pinnipeds along the West Coast. Models of pinnipeds consumption 
are being developed, and tested, and new sophisticated genetic 
techniques are actually being used to refine the identification 
of fish, and the numbers of fish in stomach samples.
    There has also been space conflict at beaches and harbors 
resulting from pinnipeds moving into areas used by humans, and 
managing these conflicts has been difficult, primarily because 
criteria for deciding whether or not pinnipeds should be 
excluded from beaches are not clearly established, and tools 
for excluding them have proven to be labor intensive or 
ineffective.
    To help stem the conflicts between human activities and 
pinnipeds, NOAA Fisheries has worked with the States and the 
fishing industry to test and evaluate the effectiveness of 
various non-lethal deterrence methods.
    I would refer you to my written testimony for a summary of 
those devices, and a review of their effectiveness. In general, 
we have not been successful in finding an effective, long term 
approach to eliminating or reducing pinniped predation in most 
situations.
    Some non-lethal deterrent methods initially look effective, 
but they become ineffective over time as animals either 
habituate to the stimulus, or they learn that the stimulus 
doesn't really pose a threat to their well-being.
    Our interest continues to be developed to deterrent 
technologies that can be applied on a broad scale with little 
or no adverse impact on the environment, and without serious 
injury to pinnipeds or other marine mammals.
    A promising line of research in this area was initiated at 
Moss Landing Research Labs that investigate basic behavioral 
characteristics of California sea lions, and try and identify 
the cues that these animals respond to in attacking those 
vessels, and if we can understand and identify those cues, 
maybe we can figure ways to mask them so that seals won't 
approach those vessels.
    In conclusion, NOAA Fisheries would like to thank you and 
the subcommittee for convening this hearing today. We recognize 
our success in protecting pinnipeds off Washington, Oregon, and 
California poses complex challenges similar to those that 
resource managers face in the terrestrial environment.
    We think that given the mandates of the MMPA, and the 
limits of our knowledge and capabilities that we need to 
proceed carefully as we move from recovering stocks to managing 
stocks that are at OSP in order to avoid unintended 
consequences.
    As such, we look forward to working closely with the 
subcommittee to develop careful and creative solutions to the 
circumstances and problems that exist. That is my testimony, an 
thank you, Mr. Chairman. I would be glad to entertain 
questions.
    [The prepared statement of Mr. Lecky follows:]

    Statement of James Lecky, Assistant Regional Administrator for 
   Protected Resources, Southwest Region, National Marine Fisheries 
    Service, National Oceanic and Atmospheric Administration, U.S. 
                         Department of Commerce

    Mr. Chairman and Members of the Subcommittee, I am Jim Lecky, 
Assistant Regional Administrator for Protected Resources for the 
Southwest Region of the National Marine Fisheries Service (NOAA 
Fisheries). Thank you for inviting me to testify before you today on 
issues involving interactions between increasing marine mammal 
populations and humans.
    NOAA Fisheries administers the MMPA, the principal Federal 
legislation that guides marine mammal conservation policy in U.S. 
waters, in conjunction with the U.S. Fish and Wildlife Service (FWS). 
The MMPA provides NOAA with conservation and management responsibility 
for more than 140 stocks of whales, dolphins, porpoises, seals, and sea 
lions.
    The issues and questions the Subcommittee has raised for today's 
hearing underscore the importance of appropriate policies that enable 
NOAA Fisheries to ensure continued protection and recovery of marine 
mammals, while allowing the public use of marine resources. Although we 
hope to learn from the experiences that terrestrial wildlife agencies 
have amassed while managing increasing wildlife populations, we 
recognize that marine mammal management poses unique challenges that 
may require new approaches and technologies.
    The MMPA is specific in its intent to recover marine mammal stocks 
to their optimum sustainable population (OSP) levels, defined by the 
Act as ``the number of animals which will result in the maximum 
productivity of the population or the species, keeping in mind the 
carrying capacity of the habitat and the health of the ecosystem of 
which they form a constituent element.''
    In accordance with this basic premise, NOAA Fisheries has assigned 
highest priority to the important task of the recovery of depleted or 
declining marine mammal populations, rather than to the management of 
populations that are increasing or at OSP. Although the 1994 amendments 
to the MMPA provided tools to investigate and resolve conflicts with 
expanding pinniped populations, NOAA Fisheries' efforts to implement 
these measures have been hindered by controversy and the limited 
effectiveness of deterrence methods. Given the mixed results of 
deterrence studies and our limited funds, we have focused our 
deterrence efforts on situations where there are either clear conflicts 
between marine mammals and endangered salmonids, or where there are 
great economic impacts or safety concerns from the presence of nuisance 
animals.
    I have structured my testimony to address the specific questions 
outlined by the Subcommittee regarding the status of west coast 
pinniped populations, the nature of interactions between increasing 
pinniped populations and humans and their effects on the surrounding 
environment, and the research and testing of pinniped deterrence 
methods.
Cooperative Monitoring and Research Program
    NOAA Fisheries implemented a cooperative state/federal pinniped 
research and monitoring program on the west coast in 1999 in 
conjunction with the Pacific States Marine Fisheries Commission 
(PSMFC), Washington Department of Fish and Wildlife (WDFW), Oregon 
Department of Fish and Wildlife (ODFW), and California Department of 
Fish and Game (CDFG). This coordinated state/federal coastwide program 
to study and monitor the effects of expanding populations of California 
sea lions and Pacific harbor seals was initiated in response to the 
Report to Congress: Impacts of California Sea Lions and Pacific Harbor 
Seals on Salmonids and West Coast Ecosystems, which NOAA Fisheries 
submitted to Congress in February 1999. Specific Congressional funding 
for this program, totaling $750,000 annually in recent years, has 
allowed NOAA Fisheries to conduct research and issue grants to PSMFC 
and to the state resource agencies to address increasing pinniped 
populations and their interactions with fishery resources, salmonids 
listed under the Endangered Species Act (ESA), and human activities.
Pinniped Population Monitoring Studies
    NOAA Fisheries conducts surveys of pinniped abundance in California 
using aerial photographic methods. Initially, surveys focused on 
obtaining counts of the number of California sea lion pups that are 
born at the major U.S. rookeries. Pup counts are used as an index of 
population size and have been collected every year since 1975. However, 
during El Nino conditions pup counts decrease greatly and are a poor 
index of the entire population. To account for this, the agency began 
to conduct counts of all the hauled out sea lions (pups, juveniles and 
adults) in southern and central California during the pupping season, 
in addition to conducting pup counts. It is expected that these counts 
will be more stable over time than the pup counts. NOAA Fisheries has 
also collaborated with Mexican researchers to conduct surveys of 
California sea lions along the west coast of Baja California and in the 
Gulf of California.
    The agency conducted its first California state-wide survey of 
Pacific harbor seals in 2002. Previously, surveys in California were 
conducted by the CDFG, with federal funding from NOAA Fisheries, or 
through the PSMFC. Surveys of harbor seals in Washington and Oregon are 
also conducted largely by State Department of Fish and Wildlife 
biologists, often in collaboration with biologists from our National 
Marine Mammal Lab in Seattle.
    Thus, the population growth and status of California sea lions and 
Pacific harbor seals along the U.S. west coast has been monitored for 
the last three decades at varying degrees. The cooperative research 
program on expanding pinniped populations has enabled the development 
of more broad scale and reliable monitoring efforts and better 
assessments of population status.
West Coast Pinniped Population Status
    While some pinniped populations in the Pacific Ocean have declined 
and have been listed under the ESA (e.g., Steller sea lions and 
Hawaiian Monk seals), the opposite has occurred with Pacific harbor 
seals and California sea lions off the west coast of Washington, Oregon 
and California. Populations of California sea lions and Pacific harbor 
seals have increased at an annual rate of 5-8% since the early 1970s. 
Elephant seals on the West Coast also have increased at about 8% per 
year.
    More specifically, NOAA Fisheries' stock assessments indicate the 
California sea lion population exceeds 200,000 animals in U.S. waters. 
Population trends have been based on pup counts, which decrease 
dramatically during El Nino periods (1983-84, 1992-93, and 1998). Pup 
counts in the last two years (2001 and 2002, neither of which was an El 
Nino year) were the same or lower than in 2000, which may be the first 
indicator that these populations may be finally nearing their carrying 
capacity. The number of total hauled-out sea lions of all age classes 
was also relatively constant from 2000 to 2002. However, because pup 
counts vary so much with environmental conditions and the time series 
for total abundance is short, NOAA Fisheries scientists are not 
confident in saying that this population is near its carrying capacity.
    The Pacific harbor seal populations in Washington and Oregon exceed 
42,000 seals, and the California harbor seal population exceeds 30,000 
seals. Recent scientific publications by NOAA Fisheries and State 
scientists on current abundance and life history parameters of harbor 
seals in Washington and Oregon indicate that these populations are 
approaching carrying capacity and are within their OSP level. 
Additional surveys are needed to confirm that the harbor seals in 
California are also at OSP and approaching carrying capacity.
Ecosystem Impacts
    NOAA Fisheries has been studying the food habits of California sea 
lions since 1981. Studies show sea lions feed on an incredibly broad 
range of prey, but the dominant food is small pelagic fishes and 
squids. In central and northern California, Oregon, and Washington, sea 
lion diet also includes both juvenile and adult salmonid species 
(salmon and steelhead), although salmonids do not appear to be the 
dominant food of sea lions in any area. Fewer studies have been 
undertaken of Pacific harbor seal feeding habits, but they appear to 
concentrate more on demersal (bottom living) species of fish, squid and 
octopus.
    Coincident with the expansion of these pinniped populations, salmon 
and steelhead populations along the west coast have declined, raising 
serious concerns about resource conflicts and impacts of pinnipeds on 
salmon populations listed under the Endangered Species Act (ESA). As 
noted in the Report to Congress, although seal and sea lion predation 
did not cause the decline of salmonids, it may be affecting the 
recovery of some already depressed populations.
    The assessment of impacts on salmonids has proven to be a difficult 
challenge because of the uncertainty and potential bias in both the 
assessment of predation rates and the size of fish stocks that are 
being impacted. In some areas, documented pinniped predation levels may 
be high enough to affect recovery rates of some ESA-listed salmonid 
populations. In other areas, the studies have allowed us to exclude 
predation by pinnipeds as a factor limiting recovery. Commercial and 
recreational fishermen have raised concerns about the impacts of 
predation on fish stocks important to their fisheries (e.g., white sea 
bass, kelp bass, barracuda, rock fish, squid). Quantifying the impact 
of pinniped predation on these fish stocks has proven to be difficult 
because the available methods of sampling the diet of seals and sea 
lions have biases associated with them that underestimate certain fish 
species and overestimate others. NOAA Fisheries is funding feeding 
studies to help correct those biases and to obtain a better picture of 
the total consumption of fish by pinnipeds along the U.S. west coast. 
Models of pinniped consumption are being developed and tested. Studies 
are also being funded to determine the species and numbers of 
individual fish consumed by using their genetic signature. Work is 
progressing rapidly in this area. However, information on abundance and 
population dynamics of these fish stocks is needed to assess the impact 
of predation.
Pinniped Conflicts with Commercial and Recreational Fisheries
    The expanding populations of these two species has caused 
concurrent increased reports of conflicts with fisheries. In commercial 
fisheries, California sea lions and Pacific harbor seals have been 
reported removing catch and damaging gear in the salmon troll and 
gillnet fisheries; nearshore gillnet fisheries; herring, squid, and 
bait purse seine and round-haul fisheries; and trap and live bait 
fisheries. This has resulted in economic losses in some commercial 
fisheries. Both California sea lions and Pacific harbor seals are 
involved in interactions with recreational fisheries coastwide, but 
most conflicts are attributable to California sea lions. Sea lions 
interact by consuming bait and chum, and removing hooked fish that are 
being reeled in. Fish also may stop feeding or may be scared away by 
the presence of sea lions. In addition, when sea lions are present, 
skippers frequently move their boats to other, sometimes less 
productive, fishing areas, incurring additional fuel costs and loss of 
fishing time.
Other Conflicts
    There have also been space conflicts at beaches and harbors 
resulting from pinnipeds moving into areas used by humans. Managing 
these conflicts has been difficult because criteria for deciding 
whether or not pinnipeds should be excluded from beaches are not 
clearly established and tools for excluding pinnipeds from beaches and 
harbors are labor intensive or have proven ineffective to date.
Non-Lethal Deterrence Testing and Evaluation
    To help stem conflicts that have arisen from interactions between 
human activities and these pinniped populations, NOAA Fisheries has 
worked with states to test and evaluate the effectiveness of various 
non-lethal measures to deter the animals from human activities. Much of 
the work took place in confined sites where resource conflicts were 
occurring (e.g., the California sea lion conflicts at the Ballard Locks 
and the Willamette Falls fishway) and the measures could be easily 
tested and evaluated on identifiable (tagged) sea lions (in contrast 
with open ocean water testing, which is far more difficult). Following 
is a description of a variety of the methods we have tested and an 
evaluation of their effectiveness.
    Firecrackers--Underwater firecrackers (called ``seal bombs'') have 
been used broadly to disperse pinnipeds from fishery conflicts. 
Underwater firecrackers have been effective on a short term basis in 
many situations, but over the longer-term with repeated use, sea lions 
and seals learn to ignore or avoid the noise. At the Ballard Locks, 
although firecrackers were effective in reducing steelhead predation by 
California sea lions in the first season of use, they became relatively 
ineffective in subsequent years because the animals appeared to have 
learned to ignore or tolerate the noise, or evade close exposure to 
firecrackers by diving and surfacing in unpredictable patterns. Similar 
tolerance/avoidance of firecrackers has been observed in fisheries 
interaction situations with harbor seals.
    Cracker shells--Cracker shells are shotgun shells containing an 
explosive projectile designed to explode about 50 to 75 yards from the 
point of discharge. Although the noise may startle pinnipeds and cause 
them to temporarily flee, there is usually no physical discomfort to 
the animals involved since the explosion is in the air or on the water 
surface. Cracker shells have been no more effective than seal bombs, 
again, because the animals have habituated to them.
    Acoustic Harassment Devices (AHDs)--The AHD produces a high 
amplitude, pulsed but irregular ``white noise'' under water in the 12 
to 17 kHz range that is intended to cause physical discomfort and to 
irritate pinnipeds, thereby repelling them from the area of the sound. 
AHDs have been shown to be initially effective in some situations, but 
their effectiveness diminishes quickly as pinnipeds learn to tolerate 
the noise.
    Acoustic Deterrent Devices (ADDs)--The ADDs are a modification of 
the AHDs developed for use in deterring seals and sea lions from 
commercial salmonid net-pen and salmonid ranch facilities. The ADDs 
have omni-directional and unidirectional arrays which produce periodic 
sound emissions centered at 10 kHz and at higher decibel levels than 
the AHDs. At the Ballard Locks, an acoustic ensonified zone has been 
established under water in the area below the spillway dam and fish 
ladder, and it has been effective in deterring new sea lions from the 
Ballard Locks area, but has had limited effectiveness on California sea 
lions that repeatedly forage at this site.
    Pulsed Power--This is an electrical power (arc) discharge system 
that generates both a compression wave and a noise similar to the ADD 
but at higher decibels. Shock waves are different from acoustic waves 
because they compress aqueous medium and are able to propagate at a 
higher velocity for short distances. Field testing of the pulsed power 
device has not occurred due to environmental concerns about the effects 
on other species, and concerns for effects on sea lions. Laboratory 
tests have shown mixed effectiveness of the devices on sea lions when 
operated at lower levels.
    Predator Sounds--The effectiveness of predator vocalizations to 
frighten sea lions has not been consistent in tests by others. 
Pinnipeds sometimes have shown immediate avoidance responses to the 
projection of killer whale sound recordings, but generally they have 
habituated quickly.
    Vessel Chase--Chasing or hazing California sea lions with a vessel 
proved to be ineffective at the Ballard Locks, as animals learned to 
avoid the vessel or swim under it. Both commercial and sport fishermen 
have also used their vessels in an attempt to chase seals and sea lions 
from their operation, but such efforts are usually unsuccessful.
    Tactile Harassment--Tactile harassment involves shooting pinnipeds 
with non-lethal projectiles such as rubber bullets or blunt-tipped 
arrows. Tactile harassment has been used successfully by instilling an 
avoidance reaction in other wildlife species (e.g., grizzly bears and 
polar bears) in some situations. Blunt-tipped arrows were tested by 
WDFW on California sea lions at the Ballard Locks with no significant 
change in predation rates. Rubber projectiles discharged from a shotgun 
were tested by ODFW on California sea lions at Willamette Falls with 
limited success.
    Taste Aversion--Taste aversion is a form of aversive conditioning 
that involves putting an emetic agent (e.g., lithium chloride) into a 
prey species to induce vomiting when the prey is consumed. This 
technique has been used on coyotes and was successfully tested on a 
prey specific basis with captive California sea lions. Using lithium 
chloride treated fish, captive sea lions were conditioned to avoid one 
of three prey species without affecting the sea lions' desire to eat 
the other two species. Taste aversion using lithium chloride was 
attempted on California sea lions at the Ballard Locks, but the effort 
was not successful.
    Physical Barriers--Physical barriers have been used to prevent sea 
lion access to a prime forage area in front of the entrance of the fish 
ladder at the Ballard Locks, prevent sea lion access to net pens 
(predator nets), prevent sea lion access to docks (low rails on docks 
or fencing), and prevent harbor seals from entering a channel in the 
Dosewallips River where harbor seal presence was causing high coliform 
counts in shellfish beds. The barrier at the Ballard Locks (a large-
mesh net strung underwater) was ineffective because fish passage may 
have been hampered by the barrier and sea lions were observed foraging 
on steelhead at the face of the barrier.
    Predator Models--Although media reports on the use of a killer 
whale model indicated that it was effective in repelling seals from 
net-pens in Scotland, use of the same predator model at net-pens in 
Maine had no effect in repelling harbor or gray seals. Observations on 
pinniped behavior in the presence of predators and during field testing 
has shown that these methods are very short term or ineffective.
    Capture and Relocation--Capture and relocation efforts with 
California sea lions at the Ballard Locks indicate that transporting 
captured sea lions relatively short distances (from Ballard to the 
outer Washington coast) are not effective, as the sea lions quickly 
return. Longer distance relocation from Ballard to the southern 
California breeding area was a possible, albeit costly, means of 
delaying sea lion return to Puget Sound for at least 30 days, thereby 
providing a window of safe passage for migrating salmonids that season. 
Unfortunately, not all predatory animals can be easily captured, 
especially those of greatest concern that had been captured/removed 
previously and have returned to forage at the Ballard Locks.
    Capture and Placement in Captivity--California sea lions have been 
captured at the Ballard Locks, placed in temporary captivity, and 
released after the steelhead run. Temporary holding was found to be 
ineffective in the long-term because the sea lion returned the 
following season and could not be recaptured before it had preyed on 
salmonids. Sea lions from the Ballard Locks also have been captured and 
placed in captivity permanently. Although permanent captivity does 
eliminate the ``problem'' sea lions without having to kill them, the 
method is limited by costs and the availability of facilities that can 
hold sea lions permanently.
Effectiveness of Non-Lethal Measures
    Efforts by NOAA Fisheries and the States as described above have 
been unsuccessful in finding an effective, long-term approach to 
eliminating or reducing pinniped predation in most situations. Some 
non-lethal deterrence measures appear to be initially effective or 
effective on ``new'' animals, but become ineffective over time or when 
used on ``new'' animals in the presence of ``repeat'' animals that do 
not react to deterrence.
    High powered acoustic devices, such as the pulsed power device, may 
be effective non-lethal deterrents, but they also may affect other 
species. The agency was aware of these concerns in the development of 
the pulsed power device. The California Coastal Commission (CCC) 
rejected the agency's coastal zone consistency determination for ocean 
testing of the pulsed power device because they viewed it as 
inconsistent with protective criteria that are used for other sources 
of sound such as marine geophysical exploration, as well as due to 
concerns about its impacts on other marine species. NOAA Fisheries 
postponed the field testing of the pulsed power device to address CCC 
concerns, and required captive studies to determine what power levels 
would deter sea lions without causing injury or deafness to the 
animals.
    Our interest was and is for development of deterrence technologies 
that can be applied on a broad basis (e.g., multiple fishing boats) 
with little or no adverse impacts on the environment, and without 
serious injury to the sea lions or other marine mammals--these criteria 
will apply to any future permits for testing deterrence devices. We 
need to seek new technologies and methods, beyond acoustic deterrence, 
to address human interactions with increasing pinniped populations. 
Perhaps the most promising line of research is a set of studies being 
conducted by Moss Landing Marine Laboratory to investigate basic 
behavioral characteristics of sea lions to determine what ``cues'' they 
use to find hooked fish. These studies would describe the ``cues'' 
involved in interactions with fishing operations and ways to possibly 
``mask'' or eliminate those cues to avoid interactions.
Conclusion
    In conclusion, NOAA Fisheries would like to thank the Subcommittee 
for holding this hearing today. While the increase of some marine 
mammal populations in the United States demonstrates that NOAA 
Fisheries has achieved the recovery and conservation goals of the MMPA, 
we also recognize that these ``successes'' pose complex challenges 
similar to those that resource management agencies have faced in the 
terrestrial realm. We must proceed carefully as we move from recovering 
stocks to managing stocks that are at OSP, given the mandates of the 
MMPA and the limits of our scientific knowledge and capabilities. As 
such, we would like to work closely with the Subcommittee to develop 
careful, creative solutions in the limited circumstances where problem 
interactions exist.
    That concludes my testimony. I would be happy to address any 
questions the Subcommittee may have.
                                 ______
                                 
    Mr. Pombo. Thank you. Mr. Brown.
    AUDIENCE: What about the sea lions--
    Mr. Pombo. I would just remind the folks in the audience 
that this is an official hearing, and we have to ask you not to 
respond to anything that is said. It is extremely important 
that we maintain decorum of the hearing.
    Mr. Brown.

  STATEMENT OF ROBIN F. BROWN, MARINE MAMMAL RESEARCH PROGRAM 
         LEADER, OREGON DEPARTMENT OF FISH AND WILDLIFE

    Mr. Brown. Good morning, Chairman Pombo. My name is Robin 
Brown, and I am the leader of the Marine Mammal Research 
Program for the State of Oregon Department of Fish and 
Wildlife, and we appreciate the opportunity to meet with you 
today and talk about all of these different issues.
    I would like to quickly recognize the support and 
assistance that the State of Oregon has received from NOAA 
Fisheries from the Pacific States Marine Fishery Commission, 
and we certainly thank Congress for the research funds that 
have been directed to the States by way of the commission that 
have allowed us to do some of the work in this area that we 
have carried out over the past many years.
    As you have heard the data are unambiguous, and the 
pinniped populations have increased significantly. California 
sea lions are more common in Oregon than ever, and Harbor 
seals, specific Harbor seals have reached optimum sustainable 
population levels.
    We have observed the same type of interactions that you 
have already heard a lot about, of human activities in the 
coastal zone, and interactions with the public and private 
property, and with other marine resources.
    In our area as well, pinnipeds damage boats, docks, utility 
supplies at marinas, and people have been threatened, chased 
and bitten. Sea lions that come out of the water to take landed 
fish off docks, and sea lions and seals take fish off hook and 
line from sport and commercial fisheries.
    Ports have posted warning signs and closed docks because of 
the dangers posed by aggressive and persistent animals. With 
respect to fishery resources, we recognize and want to make it 
clear that pinnipeds and marine fishes have coexisted 
successfully in the marine environment for thousands of years, 
and we do not contend that pinnipeds are a primary cause for 
the declines recently observed in many fishery resources.
    However, we do have concerns about the negative effects of 
pinnipeds predation and how that predation may affect the 
recovery of depleted stocks of endangered and threatened 
salmonids in our State waters.
    While a great deal of work is under way to recovery those 
fish stocks, we feel that it would be a mistake not to consider 
the possibly negative impacts of pinniped predation on the 
recovery of those fish stocks.
    Our work has shown us that pinnipeds travel tens and 
hundreds of miles inland from the ocean to forage on migrating 
salmon and steelhead. Individual seals and sea lions have been 
observed at this locations on multiple occasions within a 
single year, and over multiple years demonstrating a learned 
behavior and repeated behavior on the part of these animals.
    However, we would like to point out also that we have found 
very few of these animals that exhibit this behavior, and they 
represent a very small portion of the total number of pinnipeds 
that occur in each particular area.
    In the late 1990s at the direction of Congress, we worked 
with California and Washington with the Pacific States Marine 
Fishery Commission, and with NOAA Fisheries to develop a set of 
recommendations that would provide new options under the MMPA 
for dealing with the interactions of pinnipeds and salmonids.
    Among other points that this report to Congress recommended 
was the establishment of a new management framework that would 
allow State and Federal resource agencies to more effectively 
resolve some of the most significant resource interactions and 
conflicts.
    That report to Congress was endorsed by our department, by 
our Governor's office, and by our Oregon State legislative 
assembly, and we continue to urge Congress to consider and 
implement the recommendations made in that report.
    Currently under the Marine Mammal Protection Act, 
commercial fisheries have legal authority to take thousands of 
pinnipeds each year, and reasonable limits on this mortality 
have been set to prevent negative effects on populations.
    Our department believes that under a similar system of 
permitted mortality that State and Federal resource management 
agencies should have the ability to more effectively manage 
resource conflicts, including the option to remove small 
numbers of individual pinnipeds, and putting other important 
and highly protected resources at risk, such as threatened and 
endangered salmonids.
    It has been our experience that the currently available 
deterrent tools, and we have tried them all, are not highly or 
consistently effective. We strongly support the development of 
new and effective deterrents. However, we also recognize that 
they may be very challenging to develop tests and use.
    Pinnipeds, as you have heard, are quick to learn. They are 
bold, and they are highly or can be highly elusive, and 
extremely determined. Based on our 25 or more years of 
experience, we suspect that a deterrent that does not have the 
potential to cause serious discomfort, pain, or injury to the 
animal is not likely to be very successful.
    Testing and applying these powerful and effective deterrent 
devices will probably be met with opposition from parties 
concerned about inflicting pain on the pinnipeds, and about 
unintended negative effects on other living marine organisms 
and rightfully so in the latter case in our opinion.
    Even with the use of a new successful deterrent the option 
for permanent removal of the most persistent animals will 
probably be needed in order to ensure the continued success of 
any deterrent program, and this has been shown to be the case 
in the situation of California sea lions and steelhead at the 
Ballard Locks in the Seattle area.
    Finally, we would comment that the development of new 
deterrents may be expensive, and our department recognizes that 
this work is important, but we would recommend that the cost 
not be borne at the expense of the basic research on pinniped 
biology that provides us with the essential information about 
population status and resource conflict situations that we have 
been able to gather over the past few years. Thanks very much.
    [The prepared statement of Mr. Brown follows:]

 Statement of Robin F. Brown, Program Leader, Marine Mammal Research, 
                  Oregon Department of Fish & Wildlife

Introduction
    The Oregon Department of Fish and Wildlife (ODFW) appreciates the 
opportunity to present the following written testimony to the U.S. 
House of Representatives Subcommittee on Fisheries Conservation, 
Wildlife and Oceans during this oversight hearing on The Marine Mammal 
Protection Act (MMPA). Much of the work and information described below 
was undertaken by ODFW in cooperation with the Northwest Regional 
Office of NOAA Fisheries and the National Marine Mammal Laboratory of 
the Alaska Fisheries Science Center. ODFW appreciates the support and 
direction provided by these offices and their staff. Direction for some 
of the most recent work on pinniped predation on salmonids in the 
Pacific Northwest came directly from Congress by way of the 1994 
Amendments to the MMPA (Pub. L. 103-238).
Status of Pacific Harbor Seals and California Sea Lions in Oregon
    ODFW has been monitoring the status and trends of pinniped (seal 
and sea lion) populations in Oregon since the mid-1970s, shortly 
following implementation of the MMPA, by way of statewide aerial 
photographic surveys. Both California sea lions and Pacific harbor 
seals are common, widespread and very abundant animals along the Oregon 
coast. Harbor seal numbers increased at an average annual rate of 5% 
from the mid-1970s through the early 1990s and have been stable in 
abundance at about 7,500 animals for the past 10 years. Statistical 
analysis of these population trend data indicates that harbor seals in 
Oregon have reached an equilibrium level within their environment and 
are currently within their Optimum Sustainable Population (OSP) range. 
A similar finding has been made for harbor seals in the State of 
Washington by the Washington Department of Fish & Wildlife.
    California sea lions do not breed in Oregon and seasonal abundance 
trend data here are more difficult to obtain. However, it is believed 
that numbers of sea lions occurring in Oregon coastal waters from fall 
through spring each year increased from several thousand in the 1970s 
to roughly 10,000 in the 1990s. Seasonal abundance in the areas north 
of the breeding range (Oregon-Washington) varies annually, probably in 
response to changes in the abundance and distribution of forage fishes. 
Discussions with NOAA Fisheries researchers suggest that the total 
California sea lion population is well over 200,000 and may be at or 
near OSP levels. Clearly the populations both California sea lions and 
Pacific harbor seals on the U.S. West Coast are healthy and are 
currently at their highest recorded abundance levels.
Pinniped Interactions with Human Activities
    As in other areas, one result of growing pinniped populations has 
been increased interactions with a variety of human activities, and 
with private and public property. ODFW has witnessed and/or received 
reports of significant and repeated damage caused to boats, docks, and 
utility supplies to marina facilities by seals or sea lions hauling out 
of the water at these sites. People working in these areas have been 
threatened, charged and in some cases bitten by aggressive sea lions 
reluctant to leave their resting areas. Ports in Oregon have had to 
post warning signs and close docks to human access due to the recurring 
presence of sea lions that cannot be deterred and thus pose a danger to 
public safety. In several cases, more aggressive individual sea lions 
have learned to come out of the water and take fish from landing areas 
or from around fish cleaning stations, thereby putting human safety at 
risk. The application of the available deterrent methods (noise, water 
hose, projectiles, etc.) has proven ineffective at discouraging the 
pinnipeds from using these areas. In one case, ODFW worked with the 
Port of Astoria to install low (20'') railings of heavy galvanized pipe 
around the edges of docks to deter sea lions from hauling out there. 
This effort worked briefly until sea lions found a way around the 
railings (e.g. between a moored boat and the dock). Once on the dock, 
sea lions that were disturbed by people simply broke through the 
railings to re-enter the water, snapping the 2'' steel pipe stanchions 
at the level of the dock with ease.
Interactions with Fisheries and Fish Resources
    Since the mid-1980s ODFW has been examining pinniped food habits 
and foraging behaviors in order to identify and describe prey 
consumption, and to evaluate the relationships between pinniped diets 
and the status of important coastal fish resources. Concern over the 
possibly negative affects of pinnipeds on fish resources has increased 
significantly as the numbers of pinnipeds in Oregon have grown, and as 
the status and condition of certain anadromous, estuarine, and coastal 
marine fish stocks have declined. Although data on estuarine fish and 
pinniped numbers is generally not available for the period prior to 
implementation of the MMPA, it is not unreasonable to expect that many 
hundreds of resident seals now occurring year around in most coastal 
bays in Oregon may have a regulating effect on most estuarine fish 
populations (e.g. flatfish populations).
    Among many people in Oregon, as in other parts of the world, there 
is a long history of opinion that pinniped populations should be 
controlled in order to protect and preserve fishery resources for human 
use. Little of this general conclusion has been based on sound evidence 
that pinniped populations, in balance with healthy prey populations, 
could have significant negative effects on abundant fish populations in 
healthy and productive habitats. ODFW is well aware that pinnipeds and 
marine fishes have co-existed successfully for many thousands of years. 
It is unlikely and, at least in Oregon, cannot be scientifically 
documented that foraging by pinnipeds is the primary cause for the 
declines in some of the fishery resource populations that have been 
observed in recent years (e.g. salmonids).
    However, ODFW considers it quite possible that foraging by locally 
abundant pinnipeds, as part of very healthy populations, may have 
negative effects on the recovery of certain depleted fish resources. 
This may be particularly true where fish populations have been 
depressed for extended periods due to a variety of problems such as 
over-fishing, water diversions, deterioration or simplification of 
riparian, estuarine and other important fish habitats, influences of 
other human activities, and during periods of poor ocean and 
environmental conditions. During these times when great efforts by many 
agencies, organizations, and private individuals are underway at great 
expense to recover and restore important fish resources (e.g. 
threatened and endangered salmonids), it is unreasonable and 
irresponsible not to consider and address the limiting effects that 
predation may have on prey populations.
    In many cases, predation by pinnipeds on fish is readily observed 
and documented. Examples of such situations include sea lions foraging 
near sport or commercial fishing vessels (including removing fish from 
hook and line), seals feeding on fish taken in commercial net gear, and 
pinnipeds feeding on fish attempting to pass natural or man-made 
restrictions in fish passage in inland waters (e.g. natural falls, 
dams, fishways, hatchery facilities). Research by ODFW and others has 
demonstrated that in most cases individual animals or relatively small 
numbers of pinnipeds are often responsible for this type of foraging 
behavior on a repeated basis. In many cases these animals can be easily 
identified by natural markings, while in others they have been marked 
as part of research studies designed to document this individual 
behavior and to evaluate the possible impact of feeding behaviors on 
fishing or on fish resources.
Individual Pinniped Foraging Behaviors
    ODFW has been capturing and marking California sea lions in the 
lower Columbia River in an effort to describe the abundance, movements 
and foraging behaviors of the animals that occur in the river. In part, 
this work was undertaken to examine and evaluate the possible effects 
of pinniped predation on the salmonid species that spawn in the 
Columbia River and its tributaries. Many of these salmonid stocks have 
been listed as threatened or endangered under federal and state 
Endangered Species Acts. Coincidental to this work, ODFW and the U.S. 
Army Corps of Engineers (Fisheries Field Unit Staff) have been 
recording the presence and feeding activities of these marked sea lions 
at Willamette Falls and at Bonneville Dam, 128 and 145 miles upriver 
from the ocean, respectively. It has been documented that certain 
individual sea lions, on a repeated basis, make the trek to these fish 
passage facilities to forage on salmonids attempting to pass the 
fishways and move upstream. These individual animals may visit these 
sites repeatedly within a single season and repeatedly from year to 
year. Application of all available deterrent devices and methods, 
including the use of heavy rubber riot projectiles fired from a 12 
gauge shotgun at point blank range, have not been the least effective 
at deterring the animals from these locations. Of the many thousands of 
California sea lions that occur along the Oregon coast, and of the 
hundreds of thousands that occur in the population overall, it appears 
that only a small number of individual animals learn and repeatedly 
exhibit these undesirable foraging behaviors.
    In another research effort ODFW examined the foraging behaviors of 
Pacific harbor seals on salmonids in a smaller coastal river system. 
The Alsea River Basin is more typical of the small to mid-size 
estuaries and rivers found along the Oregon coast. In the 30 years 
following implementation of the MMPA, most of these systems have become 
populated with harbor seals numbering anywhere from 100 to 1,000 
individual animals. Alsea Bay covers just over 2,000 acres and is 
occupied year around by an average of 500 harbor seals. ODFW undertook 
this research effort to evaluate the potential effect of harbor seal 
foraging on threatened coho salmon in the lower 12 miles of the Alsea 
River. By way of marking seals and observing seal foraging behavior 
ODFW documented that perhaps fewer than 10% of the total number of 
seals in Alsea Bay exhibit the behavior of traveling upstream to forage 
on returning adult salmonids. In one study year it was determined that 
a single seal was responsible for as much as 15% of all salmon 
predation recorded that season. In another study year it was estimated 
that the individual harbor seals that participate in salmonid foraging 
took between 10-50% of the estimated adult coho return for that year. A 
final evaluation of the impact of harbor seal predation on the recovery 
of ESA listed coho in the Alsea Basin has not been made.
    This ODFW research on California sea lions in the Columbia River 
and on harbor seals in the coastal Alsea River system strongly supports 
the conclusion that individual pinnipeds often exhibit and repeat 
learned feeding habits, and that a relatively small proportion of the 
pinnipeds in any area are likely to participate in these undesirable 
foraging behaviors.
Research and Monitoring
    ODFW considers it essential to maintain federal and state support 
for the pinniped population monitoring and examination of resource 
interactions as described above. Without the work conducted to date, we 
would not been in a position to provide the kind of information 
included in this testimony. Without continued support for this work, we 
will not be able to document changes in pinniped abundance, 
distribution, and feeding habits, or changes in levels of interactions 
with human activities that might result from the use of newly applied 
deterrents or other management actions.
1999 NMFS Report to Congress
    For several years beginning in 1995, at the direction of Congress 
(MMPA, as amended 1994, Pub. L. 103-238), ODFW worked with the Pacific 
States Marine Fisheries Commission and with the States of California 
and Washington to assist NOAA Fisheries with preparation of a set of 
recommendations for Congress to consider during a process of amendment 
and reauthorization of the MMPA. In 1999 NOAA Fisheries presented the 
results of that effort in the document ``Report to Congress: Impacts of 
California sea lions and Pacific Harbor Seals on Salmonids and West 
Coast Ecosystems'' (Prepared by U.S. Department of Commerce, NOAA, 
National Marine Fisheries Service, February 10, 1999. 18p.). Among 
other points, the Report to Congress recommended the development of a 
framework for federal and state management agencies to address specific 
pinniped-resource interactions. This framework stepped down through the 
application of any non-lethal deterrents that might prove useful in a 
given situation. However, following a reasonable period, if not 
successful, then lethal removal of individual problem or rogue animals 
would be authorized, reported and monitored. It was and still is fully 
expected that this type of action would be limited, but could resolve 
some of the more serious and acute pinniped interactions where learned 
and repeated behaviors by individual animals could not be successfully 
deterred in any known non-lethal fashion. Meanwhile, as noted in the 
research recommendations, efforts to examine and evaluate pinniped 
populations and their interactions with other important resources would 
continue, along with new efforts to develop more effective non-lethal 
deterrent tools. The NMFS Report to Congress and the draft framework 
for these management options and research directions was endorsed by 
the Oregon Department of Fish and Wildlife, The Oregon State 
Legislature, and by the Oregon Governor's office. Our support of those 
recommendations and our urging of Congress to act on them continue to 
this date.
Authority for State Resource Management Agency Actions
    ODFW is aware that under the MMPA and federal regulations 
commercial fisheries have legal authority to take thousands of 
pinnipeds each year during the act of fishery harvest. Limits on safe 
levels of mortality have been set by sound scientific analyses of 
removal levels that will not result in the decline of pinniped 
population below their OSP levels, or prevent them from achieving OSP. 
As a state fish and wildlife management agency, ODFW considers it 
incongruous and inappropriate, that a lawfully established and highly 
regulated resource management agency has no readily available, 
functional option to remove even very small numbers of individual 
pinnipeds that are destroying other important, highly protected and 
valued resources (e.g. threatened and endangered salmonids). Surely a 
system similar to that which provides for mortality in fisheries, but 
insures against negative population effects, could be established for 
state and federal resource management agencies to deal with relatively 
small numbers of individual pinnipeds that have learned and continue to 
repeat undesirable foraging behaviors. State resource agencies 
throughout the country work very effectively in cooperation with 
various federal agencies to deal with issues of seriously threatened or 
endangered species, with many other species that are currently under 
federal jurisdiction, and with a variety of resource conflict and 
conservation issues involving fish, wildlife and human activities. All 
of this work is carefully controlled, fully monitored and generally 
very successful. ODFW believes that dealing with similar issues 
involving healthy and abundant pinniped populations and coastal marine 
fish resources could be handled in a similar fashion with positive 
results.
Deterrents
    It has been the experience of ODFW that the array of non-lethal 
deterrents currently available to resolve negative pinniped-resource-
human interactions (under water acoustics, playback of predator 
recordings, above water noise makers, physical barriers, projectiles, 
capture and translocation, etc.) are not highly or consistently 
effective. ODFW supports the continued development and testing of non-
lethal deterrents with the hope of finding one or more techniques that 
can be used to influence pinniped behavior and reduce the types of 
negative interactions that have been described here. However, we 
provide the following four comments for your consideration. First, the 
experience of our research staff, having worked with pinnipeds directly 
in all of the situations described above and more for over 25 years, 
strongly suggests that a long-term, highly effective deterrent may be 
extremely difficult to develop and problematic to use. The individual 
pinnipeds that have learned these undesirable foraging behaviors are 
driven by one of the two strongest urges in the animal world; in this 
case to feed. California sea lions and Pacific harbor seals are quick 
to learn, ``intelligent'', can be highly elusive, bold, and determined 
to the point of bull-headedness. Very little that does not cause some 
type of pain or potential injury to the animal is likely to be a very 
successful deterrent for more than a brief period. Second, in many 
cases, even with the use of new successful deterrent tools, permanent 
removal of the most persistent animals (lethal or otherwise) is likely 
to be needed in order to insure the continued success of a deterrent 
program (as demonstrated by the problem of California sea lions at the 
Ballard Locks in Washington). Third, if the above statements are true, 
as experience suggests, then testing and application of powerful and 
effective deterrent devices will likely be met with strong opposition 
from parties concerned with inflicting pain or injury to the pinniped, 
or about the possible unintended negative effects of the deterrent 
device on other living organisms and important resources. Fourth, the 
development and testing of new deterrents is likely to be expensive. 
ODFW recognizes this work is important, but feels that the costs should 
not be born at the expense of the basic pinniped biological research 
that is needed to provide us with the essential and prerequisite 
information on pinniped populations and their interaction conflicts.
Conclusions and Recommendations
    ODFW considers it essential to maintain federal funding support for 
state participation in programs to monitor pinniped populations, food 
habits and foraging behaviors, and the assessment and evaluation of 
pinniped interactions with fish resources and human activities. ODFW 
will make every effort to continue to support this work as well.
    ODFW supports the recommendations of the 1999 NMFS Report to 
Congress to amend the MMPA to establish a new flexible, effective 
approach to managing acute problems between small numbers of pinnipeds 
from healthy and abundant populations that are interacting negatively 
with other significant coastal fish resources, or may be putting human 
activities and safety at risk. ODFW supports the establishment of the 
authority for state and federal management agencies to lethally remove 
rogue pinnipeds in serious conflict situations, under a carefully 
monitored joint program on a case by case basis, as is done effectively 
with numerous other species and issues.
    ODFW has found that all existing non-lethal deterrents to pinnipeds 
involved in undesirable behaviors are ineffective or only minimally 
effective for short periods. ODFW supports the continued development, 
testing and application of non-lethal deterrent devices that show 
promise of successfully deterring pinnipeds in an effective and 
consistent manner. ODFW recognizes that we must be prepared to test and 
use serious tools in these cases if we expect to see the desired 
results. ODFW believes that in combination with effective non-lethal 
deterrents, state and federal agencies need to have the authority for 
permanent removal of rogue animals, in order to insure the continued 
success of deterrent programs dealing with conflict situations.
    ODFW and the State of Oregon thank the U.S. House of 
Representatives, Subcommittee on Fisheries Conservation, Wildlife & 
Oceans, for the opportunity to provide these comments.
                                 ______
                                 
    Mr. Pombo. Thank you.
    Dr. Stewart.

 STATEMENT OF DR. BRENT S. STEWART, SENIOR RESEARCH BIOLOGIST, 
               HUBBS-SEA WORLD RESEARCH INSTITUTE

    Mr. Stewart. Thank you, Mr. Chairman. I have a few slides 
and it might be best if we dim the lights if that is possible 
for a few minutes. I thank you for the opportunity and the 
invitation to provide some ecological demographic and 
biogeographic context for the issues that have been discussed 
today.
    And I will try and highlight a few issues that may explain 
or at least provide some understanding on why, when, and where 
interactions between pinnipeds and humans have occurred and 
will occur. And in fact in some cases where there aren't any 
interactions.
    I will highlight three species. California has a very 
diverse assemblage of marine mammals, and I will highlight 
them, including pinnipeds, three species of pinnipeds that have 
been discussed today so far; the California sea lion, Harbor 
seals, and Northern elephant seals.
    All are rebounding from very low levels for several decades 
or more ago from either presumed extinction, or near 
extinction, or very low abundance. California sea lions 
numbered in the few thousands in California waters. The primary 
breeding colonies are in Southern California at two sites, San 
Miguel Island, which is in a national park, and San Nichols 
Island, which is a Navy installation, missile tracking and 
testifying facility, and outlying landing field.
    But the numbers as you can see from the graph here, these 
are births. The number of pups born each year in California 
have increased steadily since the 1940s and 1950s, but notice 
that there are a couple of things that are highlighted. The El 
Nino years, which the boxes occur round, where decreases in 
pups and in fact substantial decreases, generally occur in warm 
water El Nino summers, and then recover during the cool water 
periods to various extents following different El Ninos.
    And the population is generally reflective of this. This is 
an indication of absolute population size, and the population 
likely does not respond to El Ninos the same that the births 
do, but the overall science of the population has followed a 
general increase in trends during this several decade period.
    Harbor seals in the upper left, and just the distribution 
of Harbor seal colonies along the California coast, and you can 
see that they are pretty widespread in Central and Northern 
California, and down to Southern California, there are a few.
    They occur on the Channel Islands, and four mainland sites 
in Southern California, including the site at Children's Pool, 
where numbers were very low in the 1980s in the area, a few 
dozen, and it has increased then to about 150 to 180 that occur 
in the area today, many of which are at Children's Pool.
    Overall the numbers in California have increased steadily. 
The numbers may have stabilized in the last few years. I think 
we are waiting on a new survey that has been done this summer 
to validate that.
    And the elephant seals have also increased from presumed 
extinction at the turn of the century. In the late 1900s, they 
were presumed extinct and recolonized the Channel Islands in 
the 1950s, and they have increased steadily throughout that 
period, and two primary rookeries again at San Nicholas and San 
Miguel Islands.
    But they later colonized in the 1960s and 1970s at some 
mainland sites, including the beaches near San Simeon, where 
the colonies increased from a few births in the early 1980s to 
about 2,500 this past winter.
    Some interactions here that have been locally resolved at 
least to resolve human safety problems by local groups working 
with NOAA Fisheries and private landholders to at least keep 
people safe. Some of the resources, or at least that these 
animals use, the marine habitats. This is a plot of California 
sea lion movements to show where they forage, at least during 
the summer.
    And these are pretty much at island banks and upwelling 
systems, offshore, near the colonies. These are animals that 
breed at San Nicholas Island and moved away from there on 
foraging trips during the summer breeding season.
    And San Miguel Island, which is the other primary rookery, 
animals forage further to the north, a little bit closer to the 
coast, but often during the summer further from the mainland 
and often don't interact with coastal human activities.
    Harbor seals are mostly coastal, and you will find them 
within a few miles of the haulouts and rookeries. Northern 
elephant seals rarely are seen. They occur far out at sea for 
about 8 to 10 months of the year, and often do not interact or 
are not seen by humans, regardless of what they are doing at 
sea.
    And some of the resources that have facilitated these 
population increases, some of the research that has been done 
by us and other groups to identify these resources, and a 
summary of the primary prey for the three species, you will 
notice some overlap between California sea lions and Harbor 
seals, and also some overlap with their prey and those that are 
commonly exploited by humans.
    Northern elephant seals again far exceed deep in the water 
column. And the principal foraging habitats, California sea 
lions are neuritic and somewhat demersal, but generally coastal 
upland dwelling areas when they are feeding near shore banks 
and islands. Harbor seals are demersal and also are near shore; 
and Northern elephant seals are far away from most human 
activities and presence.
    These interactions that have been discussed today are 
certainly intensifying as the populations have recovered and 
increased, but it is a small proportion of the population 
generally that we see that is interacting with human use of 
marine habitats.
    And it is seasonally affected. There are different patterns 
of habitat used by all these species, and they vary by season, 
and time of year, local time of year, and also autobiology, and 
whether they are migrating or they are breeding. So, thank you 
for the time.
    [The prepared statement of Dr. Stewart follows:]

Statement of Brent S. Stewart, Ph.D., J.D., Senior Research Biologist, 
                   Hubbs-SeaWorld Research Institute

    Mr. Chairman and Members of the Subcommittee, I am Dr. Brent 
Stewart, a Senior Research Biologist at Hubbs-SeaWorld Research 
Institute (HSWRI). Thank you for the invitation to testify before the 
Subcommittee today to provide some demographic and ecological context 
for the discussion on interactions between seals and sea lions 
(pinnipeds) and humans or human activities along the Pacific coast of 
North America. My comments below are based on 27 years of directed 
studies on the population biology, foraging ecology, and key marine and 
terrestrial habitats of California sea lions, harbor seals, and 
northern elephant seals in the eastern north Pacific Ocean. I will 
briefly describe the histories and current abundances of these 
populations, the marine resources that have evidently supported 
population growth, and their temporal and spatial patterns of 
geographic and vertical dispersion.
Population history:
    The historic abundances of California sea lions, harbor seals, and 
northern elephant seals are unknown and, indeed, unknowable. Aborigines 
hunted them for several thousand years and likely reduced their 
populations substantially in many areas, especially at the Southern 
California Islands, and exterminated them at some locations. Whatever 
populations existed when European explorers, whalers, sealers and sea 
otter hunters arrived in California waters in the 18th and 19th 
Centuries were subsequently reduced even further until commercial 
harvests ended when populations had either been exterminated or reduced 
to levels too low to economically support further harvests.
    California sea lions numbered only a few thousand by the mid-20th 
Century, breeding at two primary colonies at San Nicolas Island (a U.S. 
Navy outlying landing field and missile tracking and testing facility) 
and at San Miguel Island (part of the Channel Islands National Park 
since 1980) with limited public access. Reproduction has since 
increased rapidly and substantially at both colonies (with brief 
interruptions during El Nino years); over 40,000 pups were born in 2000 
with slightly fewer in 2003 owing to biological effects associated with 
the mild 2002/03 El Nino.
    Harbor seals were not common in California waters in the mid-20th 
Century, owing to a variety of causes including authorized bounties and 
indiscriminate shooting and poaching. Numbers increased steadily from 
the early 1970s onward through at least the late 1990s, though 
abundance may have stabilized since at around 45,000 to 50,000 with 
around 9,000 in southern California, primarily at the southern 
California Channel Islands. There are three mainland colonies of harbor 
seals south of Point Conception; at Carpinteria (south of Santa 
Barbara), at Mugu Lagoon (Point Mugu Naval Air Station), and at La 
Jolla. Numbers at the latter site (aka ``Children's Pool'') have 
increased steadily from fewer than a dozen in the late 1970s to around 
150-200 in 2003 with reproduction in the area occurring since the late 
1980s.
    Northern elephant seals were presumed extinct by the end of the 
19th Century owing to long-term subsistence harvest by aborigines, 
commercial harvests by whalers and sealers in the early 1800s, and then 
scientific collections in the late 1800s.. A very small number did 
however survive in Baja California, from which the species began 
recovering and expanding its range in the early 1900s. The southern 
California Channel Islands were colonized in the mid-20th Century and 
island and mainland sites in central California soon after. In 2003 
over two thousand pups were born on mainland beaches near San Simeon, 
which has developed into a substantial tourist attraction. Population 
growth and range expansion in the U.S. is continuing. The two primary 
colonies for the species at San Nicolas and San Miguel Islands 
accounted for over 20,000 births in 2003.
Seasonal geographic dispersion:
    Breeding California sea lions occur in large numbers at and near 
colonies at the southern California Channel Islands (principally San 
Nicolas and San Miguel Islands) from late May through August. Those 
seen near the mainland coast in southern California then may be from 
the colony at the Coronado Islands in northern Baja California or 
perhaps colonies farther south. Non-breeding sea lions from U.S. 
colonies occur farther north along the California coast throughout 
summer and may remain there or move even farther north in autumn and 
winter. Lactating females forage mostly away from the mainland coast 
throughout the year, near areas of strong upwelling of nutrients where 
resident and migratory fish and squid prey concentrate and aggregate. 
During El Nino years, when upwelling systems decline in strength or 
fail, sea lions may spend more time in habitats nearer the mainland in 
search of more dispersed neritic or demersal prey. Adult and socially 
immature males leave the breeding colonies in late summer and migrate 
north to feed, and to haulout regularly, while molting, along the 
coasts of California, Oregon and Washington and as far north as British 
Columbia. Large aggregations occur at several well-known mainland sites 
where seasonal abundance has been increasing owing to sustained 
reproduction in southern California during the past several decades and 
evidently good survival of juveniles and adults in most years. Most 
California sea lions occur in nearshore habitats when north of Point 
Conception, but generally farther offshore in Southern California, 
though small numbers of sea lions clearly inhabit near-shore waters 
from San Diego to Santa Barbara in most seasons.
    Harbor seals generally remain near island and mainland haulout 
sites year-round, though they may travel up to 20-50 miles away to 
forage for several days or weeks at some seasons. Numbers of seals 
ashore vary seasonally as seals spend more time hauled out during the 
winter/early spring breeding season and in late spring and summer when 
molting and less time hauled out when more actively foraging from late 
summer through winter. Foraging harbor seals are also attracted to 
various coastal areas where prey aggregate or become temporarily 
concentrated, like at the mouths of streams and rivers.
    Northern elephant seals rarely occur near the mainland or island 
coasts except when quickly departing at the end of the breeding season, 
arriving to molt, departing after molting, or arriving to breed. 
Elephant seals otherwise spend most of the year (8 to 10 months) 
several hundred miles or more from the mainland coast while feeding.
Diet:
    The diet of California sea lions varies seasonally and has been 
dynamic over the past several decades. Near San Nicolas Island, four or 
five species of fish and cephalopods generally dominate the diet during 
any year. In the 1980s the principal prey were northern anchovy, 
Pacific hake, jack mackerel, several species of rockfish, market squid, 
and Pacific mackerel. In the 1990s the principal prey were Pacific 
hake, two-spotted octopus, chilipepper rockfish, market squid and jack 
mackerel.
    Near the southern California Channel Islands, harbor seals 
primarily eat rosy rockfish, chilipepper rockfish, spotted cusk-eel, 
plainfin midshipman, market squid and red octopus. Near La Jolla, their 
diet is dominated by jack mackerel, Pacific sanddab, Pacific hake, and 
rosy rockfish.
    Northern elephant seals prey mostly on deepwater, bioluminescent 
squid and, to a lesser extent, fish
Vertical Foraging habitats:
    When in the Southern California Bight, California sea lions forage 
mostly at depths of 150 to 300 feet, primarily in offshore areas where 
upwelling of nutrients supports productive local resident and migratory 
fish and squid communities, though they may also forage occasionally on 
demersal prey in nearshore kelpbeds. Migrating sea lions, especially 
subadult and adult males, may forage closer to the mainland coast, 
often taking advantage of opportunities associated with recreational 
and commercial fishing operations that may provide easy meals with less 
foraging effort.
    In southern California waters, harbor seals generally forage in 
demersal, nearshore habitats at depths of less than 300 feet.
    Northern elephant seals principally forage in the water column at 
depths of 750 to 2,500 feet.
    Conclusion:
    The southern California Channel Islands and Southern California 
Bight support the most concentrated taxonomic diversity of seals of sea 
lions (pinnipeds) in the world. The populations of California sea 
lions, harbor seals, and northern elephant seals numbered between a few 
hundred to a few thousand in the early to mid 20th Century owing to 
long term subsistence hunting by aborigines and commercial harvests and 
indiscriminate killing in the early 1900s. Since the blanket 
prohibition on killing them in 1972, with the promulgation of the U.S. 
Marine Mammal Protection Act, ranges and populations have increased 
steadily to current levels that are several of orders of magnitude 
greater. Scientific research during the period of population growth has 
identified the marine and terrestrial habitats and prey that have been 
key in facilitating the increases. Several of those habitats are also 
used to various extent by humans for recreational or commercial 
purposes and some of fishes and cephalopods are exploited in common by 
pinnipeds and humans. These overlaps generally occur with small 
proportions of the pinniped populations in particular areas and 
seasons. The interactions between pinnipeds and humans have nonetheless 
been intensifying owing to the large absolute increases in populations 
and the periodic changes in distributions and foraging behaviors of 
pinnipeds during El Nino years when substantial declines in local 
abundance and distribution of normal prey occur. The most frequent 
interactions and conflicts are with California sea lions and harbor 
seals whose use of coastal habitats overlap most often with human 
activities. In contrast, interactions with humans and northern elephant 
seals are rare, owing to elephant seals' pelagic and deepwater foraging 
habitats and their brief seasonal presence at offshore islands. 
Exceptions are at recently colonized mainland beaches in central 
California, where human safety is the key issue. Though there are some 
indications that numbers of harbor seals may have stabilized recently, 
there are no indications that growth rates of populations of California 
sea lions or elephant seals may soon decline naturally.
                                 ______
                                 
    Mr. Pombo. Thank you.
    Dr. Hanan.

          STATEMENT OF DR. DOYLE A. HANAN, PRESIDENT, 
                   HANAN AND ASSOCIATES, INC.

    Dr. Hanan. Good morning, Chairman Pombo, thank you very 
much for this opportunity to speak to this subcommittee, and I 
want to thank Congressman Cunningham for this opportunity. I 
appreciate it.
    Recently I was asked to put together some information 
regarding the cost of the sea lion population, and what does it 
cost in an abundant sea lion population to the West Coast, and 
this preliminary report was funded by the Fisherman's Lines of 
Monterey and the Sports Fish Association of California, and I 
would like to thank them for their help.
    My credentials are that I received my Ph.D. at UCLA in 
studying the population dynamics of Harbor seals. I served with 
the California Department of Fish and Game for 27 years during 
which time I supervised and was the lead biologist in their 
marine mammal program for about 15 years.
    I currently serve on three advisory committees or bodies, 
one is the Pacific Scientific Review Group, to advise the 
National Marine Fisheries Service on marine mammals in the 
Pacific. I also serve on the Take Reduction Team for the 
Pacific Cetaceans, and I am also on the advisory panel for the 
highly migratory Species for the Fishery Management Council.
    Part of the significant points in this preliminary report 
since the 1997 report to Congress, which was written regarding 
impacts of sea lions and Harbor seals, on salmonids on the West 
Coast Ecosystem, this is a preliminary report. Our final report 
will be finished up by the end of this year.
    Since that report to Congress was written, research has 
focused on population estimates, and the biology of the 
pinnipeds, food consumption, and interactions. By interactions 
we mean either taking bate, taking fish, or reducing the 
ability to take fish by fishermen.
    The California sea lion population is robust and expanding 
at 6 to 8 percent annually, and I think that this is an 
indication of the health of the environment, and the health of 
the forage fish that they feed upon.
    Some estimates put the sea lion population at over 300,000 
at this time. If we estimate that a sea lion might eat 8 to 10 
percent of its body weight per day, that is about 20 pounds of 
fish per day, which would indicate that sea lions could eat 
3,000 tons of fish a day, which will be as much as a million 
tons of fish per year, far in excess of any of our fisheries.
    What are the effects on the recreational fishery. With over 
700,000 angler days per year on as many as 400 commercial 
passenger fishing vessels, we estimate that in the last 4 years 
there have been anywhere from 12 to 40 percent interaction 
rates with each of those fishing days.
    And what we mean by that is that either a depredation, 
actually taking a fish, or a sea lion approaching the boat, 
which causes or they said which cuts off the bait. In other 
words, the fish leave, and so there is nothing to fish.
    When that happens, the boat usually picks up and moves to 
another area. What is the cost of moving to another area? We 
estimate 290 days are lost per year in the party boat or CPFB 
fishery.
    Fish lost. There are about 3 million fish landed per year 
in the recreational fishery, in CPFB fishery, and about 65,000 
fish are lost per year, and at 50 cents a fish, we could say 
there was about $45,000 of lost fish.
    Bait losses. We estimated bait losses at $55,000 per year. 
Gear loss. When a fisherman loses his gear to when a fish is 
taken off his line, and the gear can be anywhere from $2 to $9. 
We estimate that gear loss would be $380,000 per year.
    An average total loss of about $2-1/2 million per year in 
the recreational fishery. In the salmon troll fishery, which is 
a fishery where lures are trolled through the water, we 
estimate $470,000 lost in fish per year, at $20 per fish. And 
this can actually end the season. It can make it so that the 
salmon troll fishermen can't even fish at the end of the year.
    In the live bait fishery, which you heard about with the 
last panel, this is about a $30 million industry in California. 
I have guesstimated losses due to the loss of bait that is in 
the banks from sea lions breaking in and from sea lions 
destroying the bait around $2-1/2 million per year.
    Also, I have--you heard from Mr. Everingham about the 
receivers, and I have some more testimony that I would like to 
give to you from a bait receiver operator in Redondo who 
reports similar problems.
    So what are the issues? We have a growing, robust sea lion 
population. Culling is not the answer. People are not 
interested in culling and it is not a way to look at solving 
the problem, but at what cost?
    We need to look for reasonable solutions, and I would 
recommend that you look to the 1997 report to Congress, and the 
recommendations that were included in that report. I would ask 
that you implement those recommendations, which include site 
specific management.
    But don't make it a media event, nor a delaying process. I 
would ask that you ask for development of safe effective 
deterrents, and I would ask that you reinstate the ability of 
commercial fishermen to protect their gear and catch with 
certain rules and regulations.
    Continue the research. I would ask that you establish a 
fund to develop a deterrent program within the National Marine 
Fishery Service. These types of programs are very effective. 
For instance, with the tuna and porpoise issues, and the 
development of the Medina Panel, and the backdown techniques. 
With the SRG process and the take reduction teams, and the 
reduction in marine mammal take in the drift gill net fishery 
was about 80 percent. And a final thing, I would say that if we 
cannot develop effective deterrence, we need to reimburse the 
fishermen, the fishing population, the businesses, for the loss 
due to sea lions. thank you very much.
    [The prepared statement of Dr. Hanan follows:]

            Statement of Doyle A. Hanan, Ph.D., President, 
                        Hanan & Associates, Inc.

    California sea lions interact with almost all commercial and 
recreational fisheries along the west coast of America. As the sea lion 
population continues growing, so do fishery interactions and the costs 
associated with these interactions. In this report, we present three 
case studies (recreational fisheries, commercial salmon and live bait 
receivers) to exemplify the economic impact of sea lions in California. 
This report presents our preliminary results using readily available 
fisheries data and published and unpublished sources to provide value 
estimates associated with sea lion interactions and depredation.
    California sea lion interactions with fisheries in California have 
been documented since implementation of the Marine Mammal Protection 
Act in 1972 (Miller et al., 1982, DeMaster et al., 1983, Hanan et al., 
1989, Beeson and Hanan 1996, Fluharty and Hanan 1997, NMFS 1997). When 
these studies were initiated in the late 1970's approximately 80,000 
sea lions inhabited the U.S. West Coast. More recently, in the National 
Marine Fisheries Service mandated Stock Assessment Reports (SAR) 
Carretta et al. (2002) presented an estimate of over 200,000 sea lions, 
growing at a rate of over 6% annually (Figure 1). A revision of the SAR 
is expected by the end of 2003 incorporating new biological life 
history information that will change the population estimate to well 
over 300,000 sea lions. Aside from the actual population estimate, with 
the population growing so dramatically, it is likely that sea lion 
interactions will also increase proportionally. Therefore, in terms of 
resource management, it is important to obtain as much information on 
pinniped interactions as possible and to place a dollar value on these 
interactions to help understand and put the issues into perspective.
    To estimate costs associated with sea lion interactions, data are 
available from a variety of sources. Depredation rates (the number of 
fish depredated relative to the total angler landings) have been 
estimated (Miller et al., 1983 a, b; Hanan et al., 1986; Beeson and 
Hanan 1996; Hanan and Fluharty 1997) and were documented by area in a 
report mandated by Congress (NMFS 1997) to document the effects of sea 
lions and harbor seals on west-coast salmon and the greater ecosystem. 
Additional data are available since that report to Congress (MRFSS 
1999) as well as, research funded by Congress, NMFS, and administered 
by the Pacific States Marine Fisheries Commission under the Pacific 
Coastal Salmon Recovery Fund (Appendix A). The ultimate goal of our 
project is to use these data in combination with information obtained 
from the literature on pinniped population assessments, food habit 
studies, and fishery statistics to estimate fish consumption and other 
costs associated with pinniped interactions. Results from our project 
will provide valuable insight into the current effects sea lions are 
having on west coast fisheries, facilities, and quality of life.
Acknowledgments
    This report was prepared using funds kindly made available by the 
Fishermen's Alliance of California and the Sportfish Association of 
California; we specifically thank Mr. Frank Emerson and Mr. Robert 
Fletcher for their help in securing these funds.



[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    The PacFIN (http://wwwpsmfc.org/recfin) and RecFIN (http://
www.psmfc.org/pacfin/data) data bases (maintained by the Pacific States 
Marine Fisheries Commission) integrate state and federally funded 
sampling programs for marine fisheries. The ultimate goal is providing 
databases where information can be accessed by fisheries managers and 
interested parties. PacFIN and various California Department of Fish 
and Game (CDFG) reports provide information on number of vessels in a 
particular fishery, landings, species, and value. Data for marine 
recreational fisheries have been collected since 1979 by the Marine 
Recreational Fisheries Statistics Survey (MFRSS) funded jointly by the 
NMFS and the state fisheries agencies. Surveys include intercept 
(creel) and phone surveys, and onboard observer data collection. Since 
1999, interview forms include supplemental information describing 
pinniped interactions with CPFV (Commercial Passenger Fishing Vessels 
which sport anglers pay to ride and fish). In California MRFSS samplers 
rode CPFV's to interview the anglers and obtain information on location 
of harvest, as well as, detailed pinniped interaction data. The 
interviewer observed angler interaction with pinnipeds and recorded 
lost bait, sportfish, gear, and time resulting from pinniped 
interactions. These data will provide insight into the actual behavior 
of depredation by sea lions as well as providing the basis for 
establishing values for the loss associated with each interaction.
RECREATIONAL FISHERIES
    In California, approximately 700,000 anglers fish annually and 
spend hundreds of millions of dollars for this privilege (Golden 1992, 
Thompson and Crooke 1991). They fish year round from piers, jetties, 
beaches, shores, private boats and CPFV (also known as party boats). In 
this study, we focus on private boats, charter boats and CPFV. Anglers 
fish for a variety of species from party boats carrying as many as 50 
anglers per vessel. California sea lion interactions have become an 
integral part of this fishing experience. These interactions range from 
the mere presence of a sea lion scaring the fish and keeping them from 
biting, to removing caught fish and bait from lines, to damaging gear, 
and causing the boat to take the time to move to another location. 
These interactions were documented recently by MRFSS pinniped add-on 
study for the years 1999 through 2002. These can be used to determine 
the extent of the interactions when compared with the results from 
Miller et al. (1982), Beeson and Hanan (1996) and Hanan and Fluharty 
(1997). An additional, more detailed data set collected by trained 
observers onboard CPFV can also be used for comparison to the RecFIN 
interview and CPFV logbook data (collected by the California Department 
of Fish and Game). The tables below represent our preliminary results. 
Table 1 summarizes estimates derived from number of interactions and 
the rate interactions to estimate annual rates from 1999 to 2002.



[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


Interactions
    Table 2 shows the overall rates of interactions by year from the 
RecFIN interview data. Interactions include approaching close to the 
vessel (scares fish away), depredation, damaging gear and moving the 
vessel away from the sea lion(s). The 1999 onboard angler survey had an 
interaction rate of 40% and included sea lion presence as a basis of 
interactions.


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


Fish Lost
    Table 3 shows the estimate of fish lost to sea lions by year with 
an estimate of fish value based on interviews after anglers returned to 
the dock. Miller et al. (1982) and Beeson and Hanan (1996) provided 
costs estimates based on the value of the species lost due to predation 
(ranging from $0.5 to $0.7 per fish.). As a preliminary estimate, we 
used the lower value of $0.5 per fish for comparison. The depredation 
rate was between 2% and 3% percent for 1999-2002. The 1999 onboard 
angler data set had a 3% loss of fish based on at-sea observations.



[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


Bait Lost
    Bait is taken by sea lions directly off the line or from the water 
when chum is thrown to attract game fish. The sample size for this data 
item was very small. The onboard angler survey did not record these 
data. The value of bait was determined by dividing an estimated 100 
fish per 10 pound scoop by its average cost of $30 per scoop.


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


Gear Lost
    Fishing gear losses for the approximately 700,000 angler days 
consist mainly of lures and other items attached to the fishing line. 
The minimum estimate provided to the interviewers for lost gear lost to 
sea lions was $1 and the maximum was $9 with a mean value of $2. The 
onboard angler survey was provided data for gear loss in the range of 
$1 to $170 dollars with a mean of $9.


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


Time Lost
    The time lost as a result of a pinniped interaction is one of the 
most interesting behaviors documented in the data sets. There is a 
difference in the estimates of lost time between the interview data 
where anglers are asked after the fishing trip to provide an estimate 
of the time lost moving and avoiding sea lions and the onboard 
observation data where actual start and end of fishing time is 
recorded. The time lost recorded in 1999 was about three times higher 
than angler estimates after a fishing trip, which leads us to believe 
that the anglers certainly are not exaggerating losses or pinniped 
interactions. Estimating the value of lost time can be attributed to a 
number of tangible items such as fuel and personnel but the simplest 
way to estimate value is to use average cost of chartering a CPFV per 
day ($2000). The amount of time lost is recorded in minutes but when 
compared to the entire set of fishing trips, the numbers are quite 
large and can be described in total days. The minimum time lost per 
interaction was recorded to be one minute with a maximum of 45 minutes 
in the interview data with a mean of eight minutes. For the onboard 
angler survey, the minimum time loss was one minute and the maximum was 
500 minutes. That is an entire work day avoiding sea lions and eight 
hours is a very long time when it's your recreational time. If each 
vessel shared the cost of losing time, they would all be losing around 
$6,000 a year in time spent moving or avoiding sea lions. Further 
analysis should reveal whether some of the high values of lost time 
correspond to higher interaction rates for lost fish, lost gear, or 
lost bait. A multiplier was developed comparing the onboard data with 
the interview data from 1999.



[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


Total Value of Pinniped Recreational Fisheries Interactions
    The total economic loss to the recreational fisheries from pinniped 
interactions is estimated in Table 7. The mean total value ranges from 
$600,000 to over $5,000,000 annually. If these losses are divided 
between individual vessels in the CPFV fleet, each vessel would incur 
losses in the range of $2,000 to $16,000 annually to sea lion 
interactions.



[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    RecFIN data provide insight into behavior of sea lion interactions. 
It is often thought that interview data might be skewed towards 
exaggeration of the impacts, but the onboard observer data seems to 
dispute that concept because estimates of fish, time, and gear lost are 
all higher in the onboard observer data. One reason may be that many of 
the questions for the onshore interview surveys are left blank, while 
the onboard observers collect the data as it is occurring. The amount 
of data available using RecFIN is extremely small compared with the 
total effort of the recreational fishing fleet but it is a start. It 
would be valuable to incorporate the CPFV data into the analyses as was 
done in the previous studies (Miller et al., 1992, Beeson and Hanan 
1996, Hanan and Fluharty 1997) especially because the CPFV logbooks 
include a field for recording ``fish lost to seals/sea lions'' starting 
in 1994.
COMMERCIAL SALMON
    In salmon troll fisheries, the fishing vessel trolls lures attached 
to a weighted line through the water. Once a salmon is hooked it is 
brought aboard the boat. Sea lions react to hooked fish by either 
removing the fish from the hook or damaging the fish. This can have a 
significant impact on the fishermen considering the average price for 
each fish is about $20, in addition to the cost of lost or damaged 
gear. The numbers of depredated salmon have increased as the sea lion 
population increased (Hanan and Fluharty 1997). In 1980, an estimated 
12,459 legal sized salmon worth $274,000 were lost, while in 1995, an 
estimated $86,700 salmon worth $1,734,000 were lost to sea lions. Table 
8 lists associated value estimates for the depredated fish portion of 
the catch for the years 1980 through 2002. Miller et al. (1982) 
estimated the depredation rate to be in the range of 2% in 1980. Beeson 
and Hanan (1996) found the rate had increased to 12% likely as a result 
of the increase in the sea lion population itself. The data presented 
in Table 8 are taken from PacFIN landings and value reports and serve 
to illustrate the point that there is a cost associated with sea lion 
depredation on commercially caught salmon. Analyses of commercial 
salmon troll fishery data are in progress and should be available by 
the end of the 2003 (Palmer et al. in prep, CDFG).




[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    Weise and Harvey (2001) studied interaction rates between sea lions 
and salmon troll fisheries in Monterey Bay and also found depredations 
rates to be in the range of 12%. They found definite pulses of 
interactions corresponding to the migration of sea lions to and from 
the breeding islands. In 1995, the CDFG Ocean Salmon Project which 
estimates annual landings and fishing effort in California's commercial 
salmon troll fishery added sea lion interaction information to their 
database. Hanan and Fluharty (1997) utilized those data to estimate sea 
lion depredation rates and obtained similar results. Our data show an 
average loss over this 24 year period of approximately $450,000 
annually. The costs associated with a 2% or 12% rate of salmon 
depredation clearly points to a conflict between sea lions and 
fisheries and are further complicated by the conflicts between two 
protected resources (marine mammal and salmon).
LIVE BAIT RECEIVERS
    Reports of sea lions interacting with commercial live bait 
receivers have increased dramatically over the past few years. 
Previously, as in the case studies described above, sea lion 
interaction studies have been focused on sport and commercial 
fisheries. Bait receivers are floating pens or containers where small 
schooling salt-water fish and squid are kept alive for sale as 
sportfishing bait. The receivers are anchored or secured to shore in 
bays and harbors where the live bait are sold to anglers on private 
boats, CPFV, or charter ``six pack'' boats. Sea lions haul-out on the 
floating structures and interact by preying on the bait, breaking into 
the receivers, and damaging the structures.
    Hanan (2002) provides baseline information on the types of 
containers used to hold the bait and discusses some of the strengths 
and weaknesses of each design. In that study, numerous sea lion 
behaviors were documented in relation to bait receivers and associated 
costs. Sea lions climb onto (haul out), swim near, break into the 
receivers, or (if the receiver lid is open) jump from the harbor water 
over the walkway into them. They chew through the netting on some 
receivers and ram the walls to create holes allowing the bait to escape 
through openings or the sea lions to get into the receivers. They also 
blow bubbles (air blasts) up through the receivers when swimming 
underneath. This disrupts bait schooling behavior and swim patterns 
causing the fish to collide and be injured, thus increasing bait 
mortality--ultimately to be eaten by sea lions and birds.
    Hanan (2002) summed individual operator estimates of total annual 
losses and additional operational costs in California to estimate the 
total losses associated with sea lion interactions on live bait 
receivers. Loss estimates include damage and repairs to receivers, 
increased construction costs and maintenance, value or volume of bait 
killed or consumed, and cost of replacing bait destroyed by sea lions 
during the six month peak period of sea lion interactions. He noted 
that as much as 30-100% of the bait in a receiver can be lost each 
night. Live bait is currently valued from $20 to $40 per scoop (each 
scoop contains approximately 10 pounds or around 100 fish) and each 
receiver holds varying amounts of bait fish depending on size and 
location.
    The retail value of bait in this industry is estimated to be about 
$30 million dollars (5000 tons x 200 scoops/ton x $30/scoop). Table 9 
breaks down losses to sea lions by region for a total bait loss of 
about $2.3 million, which represents approximately 8% of the retail 
value. If as expected, these financial losses continue to increase as 
the sea lion population increases, developing methods for identifying 
repeat offenders and reducing interaction will be crucial for the 
survival of this business. The safety of receiver operators who come in 
contact with these sea lions must also be considered.



[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    As Hanan (2002) noted, the financial losses imposed on live bait 
receiver operators can be staggering but he also found that certain 
structures could stand up to the trials of sea lions better than 
others. Changes to structural designs are a start towards mitigation, 
but there is very little an operator can do when a large sea lion 
decides to jump in the bait well. Operators need sea lion deterrents 
and options for the protection of their product, facilities, and for 
personal safety.
CONCLUSIONS
    What are the costs of maintaining a healthy, abundant and expanding 
California sea lion population? In this presentation, we identified and 
explored some economic impacts of pinniped as a measure of degree. For 
years, resource managers have focused primarily on the protection and 
success of marine mammal populations to increase in numbers with 
attention to reducing interactions and reducing marine mammal 
incidental mortalities. Now that the California sea lion population has 
grown is still growing beyond any level recorded or expected, this 
protected species might be categorized as overabundant therefore 
confounding its management (Yodzis, 2001) under the MMPA. The estimated 
value of catch and gear damaged by pinnipeds in California fisheries 
exceeded $450,000 in the early 1980's (DeMaster et al. 1982). But now 
our preliminary estimates using data from recreational fisheries and 
commercial salmon may be in excess of $5 million dollars annually. 
Factoring in the live bait receiver industry pushes the economic losses 
over $7 million dollars annually.
    In addition to the financial burden of sea lion interactions on the 
fishing industry, there may be an impact on certain fish stocks. Hooked 
fish lost to sea lions are losses to the fish population and these 
losses need to be taken into consideration when determining allotments 
or quotas. As certain fish species decline, sea lion consumption would 
become a larger portion of the extant population and are likely a 
problem in fish stock recovery.
    As has been stated in many reports regarding fishery-pinniped 
interaction issues that we are still data poor, but these data give us 
a qualitative look at pinniped interactions. Appendix A lists some of 
the federally funded research projects initiated since 1998. The 
results from these projects should provide a better picture of the 
level of interactions occurring along the West Coast, but attention to 
development of non-lethal deterrents for pinnipeds has been inadequate. 
We agree with the Marine Mammal Commission's recommendation that a 
workshop of fishery specialists, marine mammal behaviorists, trainers, 
and other appropriate experts be convened to recommend a program of 
specific studies aimed at identifying safe and effective deterrence 
measures.
    We further recommend that Congress fund and NMFS establish a non-
lethal deterrent development program.
    In terms of recommendations, general culling is not a reasonable 
solution (DeMaster and Sisson 1992, Goldsworthy et al., 2002), but 
identifying individual animals that repeatedly cause damage or threaten 
the safety of any person and removing those animals is imperative.
    The set of laws governing natural resource use is implemented by a 
vast number of agencies, at federal, state, and local levels (Eagle et 
al., 1997). These complexities were magnified when the State of 
Washington requested to lethally remove individual pinnipeds identified 
repeatedly returning to the Ballard Locks to depredate ESA protected 
steelhead salmon. No sea lions were lethally removed. They were 
transferred to captive care, but the process leading to the final 
determination of removing the animals, took years. This example shows 
how the system is currently too complicated and time-consuming, and 
requires considerable resources. That process does not work.
    Clearly there are significant losses to sea lions in the fishing 
industries, these business operators should be compensated for their 
losses due to overabundant sea lions when no legal, effective 
deterrents are available.
    We also support the recommendations for reducing pinniped 
interactions outlined in the 1997 Report to Congress:
    (1) LImplementing site-specific management for California sea lions 
and Pacific harbor seals.
    (2) LDevelop safe, effective non-lethal deterrents.
    (3) LSelectively reinstate authority of the intentional lethal 
taking of California sea lions and Pacific harbor seals by commercial 
fishermen to protect gear and catch.
    (4) LAdditional research and development of all these issues.
REFERENCES
Beeson, M. & Hanan, D. (1986). An Evaluation of Pinniped-Fishery 
        Interactions in California. Report to the Pacific States Marine 
        Fisheries Commission (PSMFC),unpublished.
Carretta, J., Muto, M., Barlow, J., Baker, J., Forney, K. & Lowry, M. 
        (2002). U.S. Pacific Marine Mammal Stock Assessments. U.S. DOC 
        NOAA Technical Memorandum NMFS, NOAA-TM-NMFS-SWFSC-346Pages.
CDFG. 2000. California Commercial Landings for 1999.
CDFG. 2001. California Commercial Landings for 2000.
CDFG. 2002. California Commercial Landings for 2001
CDFG. 2003. California Commercial Landings for 2002.
DeMaster, D., Miller, D., Goodman, D., DeLong, R. & Stewart, B. (1982). 
        Assessment of California Sea Lion Fishery Interactions. In D. 
        Chapman & L. Eberhardt (Eds.), Marine Mammals: Conflicts with 
        Fisheries, Other Management Problems, and Research Needs (pp. 
        253-264). Washington, D.C.: Transactions of the 47th North 
        American Wildlife and Natural Resources Conference, 1982. 
        Published by the Wildlife Management Institute.
DeMaster, D. & Sisson, J. (1992). Pros and cons of pinniped management 
        along the North American coast to abet fish stocks. In D. 
        McCullough & R. Barrett (Eds.), Wildlife 2001: Populations (pp. 
        321-330). New York: Elsevier Applied Science.
Eagle, T., Scordino, J., Fangman, S. & Payne, M. (1997). Regulation of 
        pinniped/human conflict: a federal perspective. In G. Stone, J. 
        Goebel & S. Webster (Eds.), Pinniped Populations, Eastern North 
        Pacific: Status, Trends and Issues. A Symposium of the American 
        Fisheries Society 127th Annual Meeting. August 28, 1997. (pp. 
        63-70). Monterey, California: Monterey Bay Aquarium and the New 
        England Aquarium.
Garrott, R., White, P. & White, C. A. V. (1993). Overabundance: An 
        issue for conservation biologist? Conservation Biologist, 7(4), 
        946-949.
Golden, M. (1992). Marine recreational fisheries. In: California's 
        Living Marine Resources and their utilization. Eds W.S. Leet, 
        C.M. Dewees and C.W. Haugen. Sea Grant Extension Publication 
        UCSGEP-92-12.
Goldsworthy, S., Bulman,, C., He, X., Larcombe, J. & Littnan, C. 
        (2002). Are seals bad for fisheries and fisheries bad for 
        seals? Trophic interactions between pinnipeds and commercial 
        fisheries in Australia. Paper presented at the Australian 
        Society for Fish Biology. Retrieved July 3, 2002, from http://
        www.asfb.org.au/pubs/2002/afsb 2002-18.htm
Hanan, D. (2002) California sea lion interactions with live bait 
        receivers initial investigation into problems, impacts and 
        solutions. Contract Report 40ABNF101546. Available from U.S. 
        DOC NOAA NMFS SWR 501 Ocean Blvd., Suite 4200, Long Beach, CA 
        90802.
Hanan, D. & Fluharty, M. (1997). Sea lion interactions in the 
        commercial salmon troll and commercial passenger fishing vessel 
        fisheries. In G. Stone, J. Goebel & S. Webster (Eds.), Pinniped 
        Populations, Eastern North Pacific: Status, Trends and Issues. 
        A Symposium of the American Fisheries Society 127th Annual 
        Meeting. August 28, 1997. (pp. 116-123). Monterey, California: 
        Monterey Bay Aquarium and the new England Aquarium.
Hanan, D., Jones, L. & Read, R. (1989). California sea lion 
        interactions and depredation rates with the commercial 
        passenger fishing vessel fleet near San Diego. CalCOFI Reports, 
        30122-126.
Harvey, J. & Weise, M. (1997). Impacts of California sea lions and 
        Pacific harbor seals on salmonids in Monterey Bay, California. 
        In G. Stone, J. Goebel & S. Webster (Eds.), Pinniped 
        Populations, Eastern North Pacific: Status, Trends and Issues. 
        A Symposium of the American Fisheries Society 127th Annual 
        Meeting. August 28, 1997. (pp. 71-89). Monterey, California: 
        Monterey Bay Aquarium and the New England Aquarium Publisher.
Manning, L. (1989). Marine mammal and fisheries conflicts: A 
        philosophical dispute. Ocean and Shoreline Management, 12:217-
        232.
Marine Mammal Commission. 2001. Marine Mammal Commission Annual Report 
        to Congress 2000. MMC, 4340 East-West Highway, Room 905, 
        Bethesda, Maryland 20814.
Miller, D., Herder, M. & Scholl, J. (1983). California marine mammal-
        fishery interaction study 1979-1981. U.S. DOC NOAA NMFS SWFSC 
        Administrative Report, LJ-83-13(c), 233.
N.M.F.S. (1997). Investigation of scientific information on the Impacts 
        of California sea lions and Pacific harbor seals on salmonids 
        and on the coastal ecosystem of Washington, Oregon, and 
        California. U.S. DOC NOAA Technical Memorandum, NMFS-NWFSC-
        28172.
Pacific Fisheries Information Network. (PacFIN) 2002. Pacific States 
        Marine Fisheries Commission. http://www.psmfc.org/pacfin
Recreational Fisheries Information Network (RecFIN) 2003. Ed. Wade Van 
        Buskirk. Pacific States Marine Fisheries Commission http://
        www.psmfc.org/recfin
Thompson, C. and S. Crooke. (1991). Results of the southern California 
        economic sportfish survey 1989. Tech. Memo. NOAA-TM-NMFS-SWFSC-
        164.
Wiese, M. & Harvey, J. (1999). Food habits of California sea lions 
        (Zalophus californianus) and their impacts on salmonid 
        fisheries in Monterey Bay, California. MLML Publication, No. 
        99-01((Fishermen's Alliance of California Contract No. 23-1509-
        7400)), 24.
Yodzis, P. (2001). Must top predators be culled for the sake of 
        fisheries? Trends in Ecology and Evolution, 16(2), 78-84.



[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
        

                                 ______
                                 
    Mr. Pombo. Thank you. It is interesting that you talk about 
culling not being a solution or part of that, and when you look 
at management of the entire population, I am interested to find 
out from all the members of the panel what do you do when you 
reach a point of over-population?
    I mean, what should we do, and maybe I will start with you, 
Mr. Stewart. When you look at the California sea lion as an 
example, what do you do when you have a population, an over-
population point in certain areas?
    And how should we deal with that? What management tools 
should we use, and when you look at the Federal and State 
agencies, and what their responsibilities are, how should we 
deal with that?
    Mr. Stewart. I think it is a good question that we have all 
thought about, but the issues are really with the 
implementation of the Act as it was created, and the original 
intent and the spirit of it, which did contemplate at least the 
potential for populations to reach that level without really 
having the tools.
    So the key thing is to really have I think more creativity 
in defining some of these tools. But we really don't seem to 
have them for the local issues, which are where most of these 
conflicts come up.
    The overall population control issues, we have some 
examples from terrestrial habitat, from terrestrial species of 
birth control that have worked variously successfully or not, 
and so that has not really been explored.
    But the issues off California are not unique in the world. 
There are several populations around the world that have 
recovered similarly, even from very low levels, or similar low 
levels to now in the couple of millions in places, and where 
there is some culling, but I think Doyle is right. It is not a 
solution here.
    It will be tremendously unpopular and it has been so far to 
even have dialog about it, but the problems are local, and with 
a small proportion of the population. So the creativity that is 
needed in addressing some of these local issues needs to be and 
continues to be supported and facilitated through the MMPA and 
its implementation.
    Mr. Pombo. Now, it is obviously a difficult issue to deal 
with, and something that we are struggling with, because 
obviously there are populations which are endangered, and I 
think deserve a certain level of protection. But you have 
different populations which not only are not endangered. They 
are over-populated.
    And how do you deal with those differences, and Mr. Lecky, 
maybe you can help me with that, in terms of should there be a 
different level of protection when you are talking about an 
endangered species and endangered population, versus one that 
not only has recovered, but is in the state of over-population. 
Should there be--when we look at the Marine Mammal Protection 
Act, should there be differences in the level of protections?
    Mr. Lecky. I think, Congressman Pombo, if you actually look 
at the statute, it does contemplate that and allows for it in 
Section 118, which regulates the incidental take of marine 
mammals in commercial fisheries.
    There are different levels of take allowed, depending on 
the status of the population, and the potential biological 
removal levels that are calculated and factored in, and whether 
the population is at OSP, in which case you can virtually 
assign removal of all of the production in terms of mortality, 
versuspopulations that are endangered, where 90 percent of 
their production is reserved for population growth.
    But also our mechanism in the statute that allows for the 
States to apply for resumption of management once populations 
are at OSP levels, where States could implement consistent with 
the overall principles of the statute, local controls, and deal 
with some of these local problems on their own.
    And I think that the 1994 amendments to the statute 
liberalized the harassment provisions of the statute, and 
actually broadened some of the lethal removal exceptions to 
allow dealing with at least these really aggressive animals 
that we are seeing today.
    So I think that there are mechanisms in the Act that we 
could pursue. We could probably use some additional policy 
guidance in terms of deciding whether or not we are going to 
sacrifice beaches to marine mammals, and how aggressive we can 
be in areas like Monterey and other marinas where we are having 
problem animals.
    Mr. Pombo. Can you address that and what at least to me 
appears to be a different level of enforcement or a difference 
in implementation of the Act between Monterey, as an example, 
and La Jolla?
    Mr. Lecky. Let me set a context first, because I think in 
situations where populations are healthy, and they are at or 
near OSP, and expansion of the population on to new beaches is 
not essential to maintaining the health of that population.
    That is the context that we find ourselves in, and in those 
areas really the solution to these problems in my view ought to 
be locally driven and not mandated from the Federal level. So 
we have been working with the local interests.
    In Monterey, there is a broad interest and recognition that 
we need to deal with that problem and continue to provide 
access. We need to deal with the problem of these animals 
damaging private property and boats.
    We need to deal with the fact that they are actually 
impeding perhaps public safety by not allowing the Coast Guard 
to get to their rescue vessels fast enough. Those are all 
things that the public says needs to be addressed, and so there 
is a consensus there.
    And in San Diego, that is not the case. You only heard half 
of the story here this morning. There is a contingent of folks 
in San Diego that feel like Children's Pool is special. It is 
the only mainland haul out of Harbor seals for over a hundred 
miles.
    There are thousands of tourists that come down to look at 
the seals every year, and some folks contend that that has an 
economic benefit that actually offsets the loss of the ability 
for access there.
    So there is a local debate going on about what is the best 
way to manage this pool. I think we could support decisions to 
go either way given the tools that are in the statute. The 
animals clearly are causing water quality problems, public 
health problems.
    There is an argument that you might decide to remove them 
for that reason. There is also an argument that you want to 
protect this population because it is special being on the 
coast and so far south. And that also is consistent with I 
think the statute and the way it goes.
    The solutions that I think are not appropriate are the 
shared use concepts, because they do create internal 
conflictswithin the statue. They do expose people to getting 
written up for harassing animals or worse, and they do expose 
people to risk of injury from interacting with these animals.
    So I think we have been trying to work with the local 
government for the last couple of years to come up with a 
solution that will work at Children's Pool. I think in some 
responses that they have set the stage for the answer that they 
wanted when they designated the off-shore rocks as a marine 
mammal reserve, and invited those animals into the area.
    So on the one hand, they have got these local regulations 
that say that these are special animals and they need full 
protection, and this is a reserve. On the other hand, they have 
got a contingent that wants to move the animals out of the 
area. So my view is that they need to resolve their local 
conflict.
    Mr. Pombo. Is that a case where you would defer to local 
decision or consensus locally in terms of how to handle it as 
long as it is within the--
    Mr. Lecky. Yes. As long as the answer that they come up 
with is consistent with the overall purposes and goals of the 
Marine Mammal Act and does not create problems for the public 
in the way that it is implemented, I think we would give great 
deference to the local solution.
    Mr. Pombo. And maybe you can answer this, or maybe Dr. 
Stewart, I'm not sure, but before they moved into the 
Children's Pool where were they?
    Mr. Lecky. Well, there probably has been some increased 
immigration from outside areas, but there is a reef not too far 
away from Children's Pool where they animals were hauling out 
on the rocks at low tide.
    Mr. Pombo. And I know that you are waiting for a local 
consensus on this, but it seems to me like maybe they would 
stay on those rocks, versus being in the pool, and that maybe 
that would be the compromise in this position. I mean, is that 
an acceptable--
    Mr. Lecky. Well, if an acceptable program were put in place 
to harass the animals off the beach consistently that they 
would go somewhere, and some of them would go to those rocks. I 
think the capacity of those rocks is probably less than all of 
the animals that are there now, and so they might disperse to 
further off-shore rocks, or who knows where they could wind up. 
They could even go out to the Channel Islands for that matter.
    Mr. Pombo. Mr. Brown, your testimony is very interesting, 
and I looked at a little bit on what your background was, and 
obviously you have spent a great deal of time on this 
particular issue over the years.
    But one of the things that you testified to was about the 
impact on endangered species and can you expand upon that a 
little bit, because in endangered species hearings that we have 
had in the past, we have had some real conflicting testimony 
about what the impact is of the seals or sea lions on 
endangered salmonids, and I would like to have your input on 
that.
    Mr. Brown. Sure. Chairman Pombo, I guess I would start out 
by saying that I think as I mentioned that there are a lot of 
efforts under way, not only in Oregon, but in other States on 
the West Coast, in efforts to recover depleted and depressed 
stocks of salmon and steelhead, many of which are either 
federally listed under the ESA, or listed under State 
Endangered Species Acts.
    Habitat recovery restrictions on that agriculture, land use 
by private property owners, and improvement of water quality, 
water flow, water temperatures, thin stream water rights 
questions and so on, and on, and on, and on, and restrictions 
of harvest and changes in hatchery production operations and so 
on.
    There are quite a few people--and there are a fair number 
of our constituents--that feel that we also need to be looking 
at the possible negative effects of pinniped predation, and 
predation by other natural predators on the recovery of these 
stocks, and where so much time and energy, and money is going 
into trying to recover those stocks.
    It has been our experience I think looking at this issue 
for not too long of a time. We have really been focusing on it 
for only say the past 5 or 6 years, the question of specific 
effects of seals or sea lions in localized situations on 
particular stocks of fish.
    We have kind of seen results in our working group that are 
all over the board. In some cases, it looks like there may not 
be an impact on the stock of fish in a particular study area 
with a particular predator, whether it is seals or sea lions.
    And in other cases it looks like there may be predation 
levels that occur from the 5, to 10, to 20 percent or more of a 
returning stock of adult migrating fish.
    Then the question really becomes then I think for our 
fisheries managers is are those levels of proposed or 
postulated loss significant enough to where we want to propose 
some sort of management action that would reduce the level of 
predation, at least during a period when fish are recovering.
    Again as I stated, we clearly recognize that these animals 
have co-existed successfully for a long, long time, and our 
focus is primarily on local situations where we have hundreds 
and sometimes thousands of seals, hundreds of sea lions in 
smallcoastal water bodies that are preying on fish, salmon and 
steelhead moving up some of our smaller coastal streams.
    Where we are looking to recover estimating spanning 
population of maybe only several thousand fish. So those are 
the areas that we are really focusing on, and we really are 
trying to make some determinations about the impacts that these 
animals might have on slowing recovery.
    We have worked with fish population modelers and they are 
telling us that if predation levels occur at this level, then 
this is how much longer it would take for a stock to recover, 
for example.
    And we want to be able to share that kind of information 
with as many of the decisionmakers as we possibly can, and try 
to get the ideas of predation of these very, very healthy and 
abundant animals into the bigger picture of recovering some of 
these fish stocks.
    Mr. Pombo. Well, that is an issue that we have been dealing 
with for a number of years and I had the opportunity to go 
watch at the mouth of the Columbia River as the salmon were 
coming back in, and sea lions or seals were out there catching 
them as fast as they possibly could, and it was all done in the 
context of an endangered species hearing.
    And all of the problems and challenges that everybody had, 
and there were obviously a lot of questions that were raised at 
that point, and I am looking forward to the results of your 
studies as it continues to build, because that is an issue that 
not only affects marine mammals, but affects endangered species 
as well. Mr. Cunningham.
    Mr. Cunningham. Thank you, Mr. Chairman. And I sit in a lot 
of hearings, but to me this is one of the more interesting 
hearings, because I am learning a lot about an area that I am 
not entirely familiar about.
    So I have got some questions, and it is not directed at 
anybody. It is to expand my own knowledge on this. From the 
testimony that I heard earlier by Mr. Lecky, and Mr. Brown, 
when we talked about inconsistency of the agencies and how the 
laws are enforced, should a person that loses his surfboard and 
goes into this area and gets his surfboard, and not intending 
to harass anybody, but to get his surfboard, should that 
individual be fined according to the agencies?
    Mr. Lecky. I suppose that I should answer that question. I 
really can't comment on the particulars of that circumstance, 
because I am not aware of them all. On its face, it sounds--
    Mr. Cunningham. I would presume that you would be the one 
that would.
    Mr. Lecky. Well, on its face it does sound unreasonable. I 
will acknowledge that. But the issue of incidental harassment 
is one that is prohibited in the statute, and so the fact that 
you are just walking down on the beach and scaring animals off 
of the beach in some contexts can be harmful to animals.
    It can cause separation of females and pups, and the like, 
and so the statute does contemplate that that is an activity 
that needs to be regulated. So in this circumstance, where an 
individual had a choice of perhaps not being able to get back 
to the beach, or harassing animals in an effort to save his own 
life, then I think he probably was within the bounds of doing 
the right thing, and should not have been punished for that.
    But I don't know all of the particulars of that case, and 
clearly people going down on the beach to sit and sun 
themselves, where they are going to chase animals off the beach 
is something that is inconsistent with the current language in 
the statue.
    Mr. Cunningham. Well, maybe you have answered it, but I 
used to go down with my children when they were just little 
ones, and they are all grown up now. One has graduated from 
college and the other one is a senior at Yale.
    But I used to take them down and look at the tidal--we used 
to go down to Scripps Oceanographic and look in the aquariums 
and stuff, and show them the sea life. Then we would go down to 
La Jolla to the cove there, and we would look in the tidal 
pool.
    We wouldn't allow them to touch them, but there was 
actually people that would teach my children that were down 
there, volunteers would show the children that this is a star 
fish, and this is a little abalone that lived in a tidal pool, 
or this is an octopus, and don't touch it. It will bite you.
    And if I did that today, the same thing that I was doing 15 
or 20 years ago, I would be arrested; is that correct, by going 
down and if I scare an animal off, say, Children's Beach there, 
or the tidal pools, and as I go down to show my children this 
thing, I wouldn't, because I went down there and I saw the 
defecation on there.
    And I would not have my child down there. I would be afraid 
of disease. But if I was to go down there and show them, I 
would be arrested today for something that I did 15 years ago. 
And again I have listened to the testimony, but it used to be 
10 to 30 seals in La Jolla. Now there is 180 to 200 animals 
there.
    And you say that the rocks may not support them, but if 
there were only 30 seals there as historically, instead of the 
growth and population, maybe they could move. And when I went 
down there, there were seals from time to time. Not every time 
I went down there.
    But I would see a seal go in the water when I walked down 
there, and evidently what I did in the past, I can't do today. 
Is that true?
    Mr. Lecky. Yes, I think it is. If you are down there and 
you disturb those animals off the beach, then likely you would 
be subject to a fine for illegally harassing animals. I think 
part of the message here though that you are getting at in my 
view is that there is a lack of clear guidance and policy on 
deciding whether or not in these circumstances that we want to 
give these beaches over to increasing pinniped populations.
    I don't know if you saw Dr. Stewart's slide on elephant 
seals at Piedras Blancas, but there was a similar situation up 
there, where elephant seals had moved on to a beach, and the 
number of pups born on those beaches has gone from a few tens 
of animals to breeding thousands.
    Mr. Cunningham. Is there a breeding period like most 
animals have?
    Mr. Lecky. Yes.
    Mr. Cunningham. You know, I hunt, and I hunt white tail 
deer, and so on up in Oregon, and the population of white tail 
there has been devastated from disease. I mean, I will go up 
there and visit a friend of mine up there in Roseburg, and I 
will see 200 deer, and they can't even hardly walk. They are so 
sickly because they were protected, and interbred and 
everything else.
    And I see the same possibility here, but with the seals, 
when I would go down there, if there is a specific period would 
it be a compromise not to let anybody go down there during the 
whelping period so that pups aren't separated when they are at 
that age, versus that surely not 12 months out of a year.
    And also would it not be reasonable to limit the number of 
seals or have management at least control the number so that we 
can go back and live in harmony with the seals like we did when 
I took my children down there, versus the over-population, to 
allow the agencies to say, hey, guys, go down there and live on 
the rocks and not here.
    Because I also serve on the Labor and HSS committee, which 
I fund NIH, and we have doubled medical research. But we also 
look at disease, like hepatitis, like HIV. I had a little girl 
in my district die of E-coli from fecal material, and I want to 
bring them in and see what is the public health aspects of 
having--I don't want people defecating on my beaches. I will 
tell you that I would stop them right now.
    Now, you can't stop a cow from defecating in a dairy farm, 
but there is a specific area, and it is not public. But in a 
public area, I don't want my children walking through that 
stuff and it should be stopped, or at least limited to where we 
can go back in harmony like we did 10 or 15 years ago when I 
would go down there.
    And have a limited number of seals there in harmony, but if 
I walked down there in a non-whelping area, and a seal goes in 
the water, that's fine. I will tell you what. If a lion came 
into the area, I might go in the water, too, and I think that 
would be natural, and it would probably be self-preservation.
    Mr. Lecky. Congressman Cunningham, we do have an example of 
public beach in Hood Canal, where we excluded Harbor seals in 
order to protect public resource. There is interest in an 
recreational climbing beach, where the E-coli count had gotten 
so high that public health officials closed the recreational 
harvest to clams.
    We excluded animals from those beaches by building fences 
out into the marine environment for over a period of 2 years. 
So I think there are tools in the statute where we can make 
those kinds of decisions and support them.
    But this concept of share use in my view is not consistent 
with the existing statutory structure and really isn't probably 
very practical.
    Mr. Cunningham. And I think that is the whole issue and 
that is the reason that I tried to bring that conversation to 
this, and what the Chairman is trying to do. How do we get with 
the different groups that have interests that want to save the 
animals.
    I love to go down and see the seals with my family, but 
when they get to a point of over-population that risks us not 
only from personal attack, but risk us from disease--and I will 
tell you one thing. I have got a boat in Washington, D.C., and 
in the evenings I have got ducks that sit on the swim platform, 
and I will tell you that they make a heck of a mess.
    I mean, they are probably worse than these damn seals. Now 
I go and squirt them with a hose. It doesn't bother them. Some 
environmentalists will say that you are working with the psyche 
of this duck, but I also have to squirt off the defecation of 
it, too.
    So if I go squirt a seal and he goes in--I mean, we need 
some consistency on this thing, and that is what I am taking a 
look at. I will tell you what, like I said, my bill stopped 
off-shore oil drilling because I didn't want our beaches 
polluted.
    But I sure don't want our beaches polluted by pinnipeds or 
anything else, and we need to stop that for public health. If 
there is a private property like we saw with these boats, it is 
going to stop. I will do everything that I can to stop seals 
from damaging boats, attacking people.
    If you had a lion--look, I have seen--Discovery is one of 
my favorite channels, and I see where bears come in the city 
and attack people, or even moose, and you have got to stop 
that. And you need to stop this as well.
    And there should be absolute consistency in doing this as 
well. I also stopped fishermen from coming in--like I said, the 
tuna dolphin bill. We were depleting and we were killing 
subspecies--turtles, subspecies fish, and they were netting and 
they were throwing back the shark finning and stuff.
    And I will stop that, but I also in the name of public 
safety will stop seals from attacking people or causing damage 
through disease or anything else. And all that I would ask from 
you and the Chairman is to have some kind of balance.
    And to figure out some number that existed 10 or 15 years 
ago on those beaches, and let the seals live there. But if I 
walk down and show my kids a tide pool, and one goes in the 
water--I mean, that doesn't hurt the seal.
    Now, if there is a pup and he gets separated, yeah, it 
might, and maybe we can have a term where those pups are so 
young that we would not do that. And I think that is the 
balance that we are looking for here.
    Now, maybe some groups say, hey, no. There is 180 to 200 
seals there. Don't touch them. Well, I disagree with that. And 
there is the other groups that say I want all the seals gone, 
and I disagree with that also. I am just letting you know where 
I come from.
    Mr. Lecky. I appreciate that, and I know Congressman Pombo 
has been struggling with the definition of harassment, and we 
would appreciate the opportunity to struggle along with him.
    Mr. Cunningham. I do, too. And I think that Fish and 
Wildlife does a good job. I think at times that we fought 
extremists on both sides for all of us, you and I both on both 
sides of this coin.
    And all I am asking is somewhere to come in the middle with 
the groups that want to save the seals, to the groups that want 
to use the public beaches. And I thank all of you for coming 
and your testimony, and I thank my colleague, Chairman Pombo.
    Mr. Pombo. Thank you, Mr. Cunningham. I just had one final 
question that I would like the panel to respond to, and it is 
dealing with the definition of harassment. And it is something 
that we have really struggled over, in terms of what 
constitutes harassment.
    And Congressman Cunningham is talking about if you walk 
down to the beach and a seal jumps in the water, should that be 
a regulated harassment; or should we have what many people are 
pushing for, a higher level of harassment, where you actually 
run the risk or the likelihood that there could be some change 
in the behavior of the marine mammals.
    And I would like to have some response to that, and let me 
know--and I will start with Dr. Hanan, but just kind of give me 
an idea of what you are thinking in terms of that.
    Dr. Hanan. In my opinion, the level of harassment should be 
related to the status of the population that you are talking 
about. Abundant sea lions and abundant Harbor seals, some 
harassment is not going to affect that population as a whole. 
Some harassment of a right whale could be significant. So I 
think that you need to look at the status of the population 
that you are talking about.
    Mr. Pombo. Now your response is kind of what I was getting 
to before about differing levels of protection based upon the 
population. Dr. Stewart.
    Mr. Stewart. I agree with Doyle, but there is a contextual 
issue, too, about where the harassment takes place, not only in 
terms of population size, but what is involved biologically.
    And I think that the context is important in the thinking 
and the distinction between areas like Monterey, where sea 
lions are hulling out there seasonally, and La Jolla, and 
Children's Pool, which is a colony, and that's why the beach 
was regulated more heavily and closed off, because it is 
treated now just like any other colony, like the colonies on 
the Channel Islands.
    And I think clearly a disturbance out there by tourists or 
Navy personnel would probably have a substantial impact long 
term, and that would affect the status of the population, and 
that is what I think was translated to La Jolla once the area 
was designated as a colony and the harassment was limited.
    At least year around, and I think the question of whether 
it would have an impact on the population outside the breeding 
season would be an issue, and I think that is an open one, and 
one that I think we really have not been thinking about much.
    But the issue in Monterey has been resolved--and I think 
the harassment--by consultation with NOAA Fisheries through a 
little trap door in the MMPA that allows disturbance, directed 
disturbance for public safety issues.
    And I think that was discussed or thought about, or 
contemplated, at La Jolla before the area was reclassified as a 
natural colony, of disturbing animals. And that came up in the 
context of a discussion about the pollution of the waters, and 
the closure of the cove in La Jolla because of the high E-coli 
levels.
    So there is a contextual issue that is very important, and 
the MMPA does allow for harassment in some cases without going 
through a full incidental harassment permit. But in other 
cases, in San Diego's, from what I understand of the city's 
interest, is that they would like a solution that allows for 
two things.
    One, the cleaning up of the water in the pool that would 
allow people to go in there and safety swim; and also shared 
use, and that involves shared use of the beach, which is a more 
difficult issue.
    Regardless of how that goes forward with the city, there is 
still the Federal issue of getting the incidental harassment 
permit to allow shared use, because there certainly would be 
some of that involved, either seasonally or perhaps year 
around.
    And that would have to go through the full public review, 
and I think that is when we would see not just San Diego's 
interest, but the national interest in what the solution to 
this would be, but perhaps give us some idea of what the 
solution might be for many of these areas that are now being 
confronted with increasing pinnipeds, East Coast and West 
Coast.
    Mr. Cunningham. Would the Chairman yield?
    Mr. Pombo. Yes.
    Mr. Cunningham. To be fair, the San Diego area especially 
with Mexico and pesticides coming into our--you know, in 
Delmar, you look at that river coming in, and when we are 
talking about pollution of the ocean, it is not just the seals. 
We have a major problem with our beaches closing from fecal 
material coming down. You know the highest fecal count river in 
the United States worse than Alongapo? It is the Anacostia 
River coming out of Washington, D.C., because every time it 
rains, that raw feces goes into the Anacostia, and they have 
got fish not dying of disease, but dying because the bacteria 
count is so high that it eats up the oxygen.
    But we have a problem here with chemicals, with plants that 
are not working, and I know that the Chairman is working on 
that as well. But it is not just--I don't want the pollution 
from a pinniped, but I don't want it from man either, and we 
need to balance what we are doing.
    And environmental groups are right. We need to do our job 
in Congress and fund some of these things that stop the 
pollution of our wetlands and the rest of it, and to control 
pinnipeds as well. Thank you, Mr. Chairman.
    Mr. Pombo. Mr. Brown, did you want to respond to that?
    Mr. Brown. Sure. I will make a few comments, Chairman Pombo 
and Congressman Cunningham. I guess I would say that you raised 
the question of driving seals into the water by walking down 
the beach.
    I mean, technically under the Marine Mammal Protection Act, 
that is a violation of the law, and I guess technically in the 
most stringiest definition of harassment, it is that as well. 
We also have State statutes as to disturbance and harassment to 
wildlife, and including seals and sea lions.
    Of course, in this case our laws are overridden by the 
Federal law, but I would think that our State laws in many 
other States would also want to ensure that forms of wildlife 
are not subjected to undue levels and levels of harassment that 
would cause serious problems.
    I strongly support the idea of separate use and separate 
areas. I have real problems with these ideas of thinking that 
we can do the same kinds of things in the same areas, and that 
we can sit on the beach with seals a little ways away, and that 
we won't ever have a problem, and everything will always be OK.
    So I think that a lot of work has to go into figuring out 
how to do that. One thing that we have talked about and of 
course it has just been discussions, but most all of our 
coastal bays and estuaries have dozens, and hundreds, and 
sometimes thousands of seals in them.
    And we have had discussions about, well, perhaps a better 
way would be to have some areas where seals are highly 
protected, and people can see them and visit with them, and 
enjoy them in that case.
    And then have other areas where systems are set aside for 
sport or commercial fishing, or for commerce, or for other 
purposes. Those are just discussions that we have had, and it 
kind of gets back to that idea of separate use and separating 
some of these things.
    We would also support some way to sort of separate out kind 
of levels of why harassment would occur. Obviously public 
health and safety would be at the top of the list. Preservation 
of property, both public and private, and then as you step down 
in certain areas, you may restrict harassment levels on these 
animals more and more.
    I guess I would say finally that we work with most all of 
our ports up and down the coast, and private property owners, 
and other groups, to try to have a heads-up approach to the 
type of--well, I guess it has already been labeled the 
Children's beach seal problem.
    We are trying to avoid that kind of a thing, and if we have 
seals start to haul out on docks and certain marinas, and we 
communicate and discuss things with the port, and we say is 
this something that you want to try to avoid, well, let's get 
ahead of it, and under the current law we are allowed to 
disturb seals and sea lions off of property like that that may 
be impeding the use that they were intended for or causing 
destruction.
    And we try to carefully work within the law and get 
ourselves in a situation where we don't develop these kinds of 
serious problems. It does not mean that we are going to be 
successful in every case.
    Mr. Pombo. Mr. Lecky, with you I think it is probably 
better if you answer this one for the record.
    Mr. Lecky. I was just going to try and avoid that, 
Congressman. I now that my agency has testified in the past on 
this issue, and so I will try and be careful.
    Mr. Pombo. OK.
    Mr. Lecky. I think where we have the most trouble with the 
harassment issue is in the area of unintentional harassment. 
And looking down at the tide pool, we have problems in the 
national seashore with abalone pickers chasing Harbor seals off 
the rocks, for example.
    And I think in trying to better figure out how to deal with 
unintentional harassment, I think we really do need to factor 
in issues of what is the status of the animals that are being 
harassed, and what is the status of the activities that they 
are engaged in that they are being diverted from.
    Are these sperm whales that are in the process of breeding, 
and we are causing them not to breed. That is an important 
issue that where unintentional harassment ought to be avoided, 
and we ought to have tools to regulate activities that cause 
that kind of unintentional harassment.
    I think the kinds of unintentional harassment, where we are 
inadvertently startling animals that are just in a resting 
position off the rocks, and then they come back later, is 
something that does not have a severe or adverse impact on the 
animal or its population. And we ought to have ways of 
tolerating that and being able to distinguish between those 
kinds of impacts.
    Mr. Pombo. I am very interested in your answer, and I don't 
know how I would word this yet. We are still trying to figure 
this out, but I really do believe that there ought to be enough 
flexibility in the Act that when you are going out and 
implementing it that you can make those determinations.
    Is this a highly endangered species when you are talking 
about whales and some of our bigger problems, in terms of 
recovery; versus sea lions or Harbor seals, and the situation 
that they are in.
    And in working with the scientists and in working with the 
biologists, and trying to figure this all out, it seems to be 
that there is--and there is not unanimity, but there is a broad 
consensus that there should be different levels of protection, 
and a different definition of what harassment is in different 
situations.
    And we are trying to figure out how exactly we would put 
this in legislative language so that it is not a time bomb for 
you guys to try to implement when you get to that point, but I 
would like to figure out a way to do that and give you the 
flexibility in implementation so that you can actually look at 
each situation differently, and have the flexibility to say 
that really does not impact a sustainable population of that 
particular species in this area.
    And therefore we can treat that differently than we do in 
other situations, and I know that you try to do that, and I am 
not sure how much real flexibility there is in the law, versus 
how much we are trying to put into it.
    But since we are in the middle of doing a reauthorization, 
I would like to have as much input as possible, and your agency 
has testified in the past on this, and I look forward to having 
the opportunity to continue to work with you guys to try to 
come up with that.
    And I know that this is something that the Subcommittee 
Chairman, Mr. Gilchrest, has a definite interest in, because 
there is differences between the West and the East, and there 
is differences in populations, and somehow the law has to 
reflect that and I am concerned that it does not.
    Mr. Lecky. I think we made an effort to go there with the 
designation of Level A and Level B, and I think we just need to 
continue to refine that, probably with some direction from you 
folks, and probably with some additional policy and guidance 
that we can construct on our own.
    Mr. Pombo. Thank you. I want to thank this panel very much 
for your testimony. I know that it was very interesting for me 
and Mr. Cunningham to have the opportunity to pick your brains 
a little bit. So thank you very much.
    I want to take this opportunity to again thank our host for 
allowing us the opportunity to use this facility for the 
members of the audience who made the effort to be here, and 
listen, and I will tell you that the record, the Congressional 
record, will be held open. I will hold it open for the next 2 
weeks to give people the opportunity that want to submit 
testimony to be included as part of this hearing.
    That can be submitted to the House Resources Committee, and 
we will hold the record open to give everybody the opportunity 
to do that. So thank you all very much for being here, and I 
thank the panel, this panel and the previous panel, and the 
hearing is adjourned.
    [Whereupon, at 12:33 p.m., the subcommittee was adjourned.]

                                   - 

</pre></body></html>
